<html>
<title> - LEGISLATIVE HEARING ON H.R. 5435, TO REQUIRE THE SECRETARY OF THE INTERIOR AND THE CHIEF OF THE UNITED STATES FOREST SERVICE TO MEET CERTAIN TARGETS FOR THE REDUCTION OF THE EMISSION OF GREENHOUSE GASES, AND FOR OTHER PURPOSES, ``AMERICAN PUBLIC LANDS AND WATERS CLIMATE SOLUTION ACT OF 2019,'' AND H.R. 5859, TO ESTABLISH FOREST MANAGEMENT, REFORESTATION, AND UTILIZATION PRACTICES WHICH LEAD TO THE SEQUESTRATION OF GREENHOUSE GASES, AND FOR OTHER PURPOSES, ``TRILLION TREES ACT''</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


H.R. 5435, ``AMERICAN PUBLIC LANDS AND WATERS CLIMATE SOLUTION ACT OF 
             2019,'' AND H.R. 5859, ``TRILLION TREES ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      Wednesday, February 26, 2020

                               __________

                           Serial No. 116-31

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-990 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------          
          
      
      
                        COMMITTEE ON NATURAL RESOURCES                      
                       
                                                
			  RAUL M. GRIJALVA, AZ, Chair
			DEBRA A. HAALAND, NM, Vice Chair
          GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
			ROB BISHOP, UT, Ranking Republican Member
			
			
			
Grace F. Napolitano, CA				Don Young, AK			
Jim Costa, CA					Louie Gohmert, TX
Gregorio Kilili Camacho Sablan, CNMI		Doug Lamborn, CO
Jared Huffman, CA				Robert J. Wittman, VA
Alan S. Lowenthal, CA				Tom McClintock, CA
Ruben Gallego, AZ				Paul A. Gosar, AZ
TJ Cox, CA					Paul Cook, CA
Joe Neguse, CO					Bruce Westerman, AR
Mike Levin, CA					Garret Graves, LA
Debra A. Haaland, NM				Jody B. Hice, GA
Joe Cunningham, SC				Aumua Amata Coleman Radewagen, AS
Nydia M. Velazquez, NY				Daniel Webster, FL
Diana DeGette, CO				Liz Cheney, WY
Wm. Lacy Clay, MO				Mike Johnson, LA
Debbie Dingell, MI				Jenniffer Gonzalez-Colon, PR
Anthony G. Brown, MD				John R. Curtis, UT
A. Donald McEachin, VA				Kevin Hern, OK
Darren Soto, FL					Russ Fulcher, ID
Ed Case, HI					
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Jesus G. Chuy Garcia, IL
Vacancy

			David Watkins, Chief of Staff
			  Sarah Lim, Chief Counsel
	        	Parish Braden, Republican Staff Director
			  http://naturalresources.house.gov

  
  
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 26, 2020.....................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3
    Westerman, Hon. Bruce, a Representative in Congress from the 
      State of Arkansas..........................................     6

Statement of Witnesses:
    Gleich, Caroline, Professional Ski Mountaineer and 
      Adventurer, Member, Protect Our Winters, Salt Lake City, 
      Utah.......................................................    17
        Prepared statement of....................................    18
    Hollie, Derrick, President, Reaching America, Bennsville, 
      Maryland...................................................    37
        Prepared statement of....................................    39
        Questions submitted for the record.......................    40
    Marshall, Steve, Senior Vice President for Policy, SmartLam 
      North America, Washington, DC..............................    29
        Prepared statement of....................................    31
    Ritter, Jr., Bill, Former Governor of Colorado, Founder and 
      Director of the Center for the New Energy Economy, Colorado 
      State University, Fort Collins, Colorado...................     9
        Prepared statement of....................................    11
        Questions submitted for the record.......................    15
    Staver, Carla, Associate Professor, Ecology and Evolutionary 
      Biology, Yale University, New Haven, Connecticut...........    32
        Prepared statement of....................................    34
    Walsh, Jason, Executive Director, BlueGreen Alliance, 
      Washington, DC.............................................    21
        Prepared statement of....................................    23
        Questions submitted for the record.......................    29

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    69
    Outdoor Alliance, Letter dated February 25, 2020.............    67



 
   LEGISLATIVE HEARING ON H.R. 5435, TO REQUIRE THE SECRETARY OF THE 
  INTERIOR AND THE CHIEF OF THE UNITED STATES FOREST SERVICE TO MEET 
CERTAIN TARGETS FOR THE REDUCTION OF THE EMISSION OF GREENHOUSE GASES, 
  AND FOR OTHER PURPOSES, ``AMERICAN PUBLIC LANDS AND WATERS CLIMATE 
SOLUTION ACT OF 2019,'' AND H.R. 5859, TO ESTABLISH FOREST MANAGEMENT, 
      REFORESTATION, AND UTILIZATION PRACTICES WHICH LEAD TO THE 
 SEQUESTRATION OF GREENHOUSE GASES, AND FOR OTHER PURPOSES, ``TRILLION 
                              TREES ACT''

                              ----------                              


                      Wednesday, February 26, 2020

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:07 a.m., in 
room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Committee] presiding.
    Present: Representatives Grijalva, Sablan, Huffman, 
Lowenthal, Cox, Neguse, Levin, Haaland, Cunningham, Velazquez, 
Dingell, Soto, Tonko, Garcia; Bishop, Young, Gohmert, 
McClintock, Gosar, Westerman, Curtis, and Hern.
    Also present: Representative Gianforte.
    The Chairman. The Committee on Natural Resources will now 
come to order. The Committee is meeting today to hear testimony 
on two pieces of climate change legislation: H.R. 5435, the 
American Public Lands and Waters Climate Solution Act is 
legislation that I and other members of the Committee 
introduced at the end of last year; and H.R. 5859, the Trillion 
Trees Act, was introduced earlier this month by Congressman 
Westerman of the Committee.
    Under Committee Rule 4(f), any oral opening statements at 
the hearing are limited to the Chairman and the Ranking 
Minority Member. Therefore, I ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record if they are submitted to the Clerk by 5 p.m. today.
    Hearing no objection, so ordered.
    I also ask unanimous consent that Congressman Greg 
Gianforte be allowed to sit on the dais and participate in this 
morning's hearing.
    Hearing no objection, so ordered.
    First I want to welcome our witnesses, and particularly 
thank those of you who have traveled great distances to be here 
today. It is very much appreciated.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. In 2019, the Natural Resources Committee 
heard from a broad range of voices, including those voices that 
are all too often not listened to, about how Congress must act 
decisively and act to deal with climate change, which is the 
greatest environmental, economic, and public health threat of 
our time.
    I am very glad today that we have the opportunity to 
discuss some bipartisan solutions to this enormous problem. For 
too long, my friends on the other side of the aisle denied that 
this was even a real issue. They would reject, or even mock, 
the overwhelming scientific consensus that the planet is 
warming, humans are responsible, and urgent action needs to be 
taken.
    So, I appreciate Congressman Westerman's proposal, and I 
welcome Republicans into what is hopefully a new chapter for 
their party to begin to focus on climate solutions and not 
climate denial.
    We all agree that nature-based solutions are critical to 
combat climate change, but we must not lose focus on what the 
science tells us we must do to stabilize global temperatures 
and avoid catastrophic impacts. This will require a lot more 
than planting new trees and protecting existing forests, such 
as the Tongass. We must dramatically reduce greenhouse gases 
and get to net zero emissions as rapidly as possible.
    This will require hundreds of steps across all sectors of 
the economy, coordination across the entire Federal Government, 
and legislation from almost every congressional committee. Our 
Committee has a large role to play in that effort.
    Oil, gas, and coal extracted from our public lands and 
waters produce a quarter of America's carbon pollution. At the 
same time, our natural landscapes only absorb roughly 3 percent 
of our greenhouse gas emissions each year. That is an unhealthy 
balance.
    My colleague from Arkansas recognizes, as I do, that we 
need to increase how much carbon our landscapes absorb. We may 
not agree on the best ways to make that happen, and I have 
concerns with his legislation, but we are on the same page with 
regard to that issue.
    But all the trees in the world won't stand a fighting 
chance if we don't cut our fossil fuel emissions. That is why 
this December, with several other colleagues, the American 
Public Lands and Waters Climate Solution Act was introduced.
    Our bill addresses both sides of the problem, increasing 
our public lands' ability to absorb, while decreasing what they 
emit, with the goal of getting to net zero emissions by 2040.
    We can't get there operating the same way we have over the 
past 100 years. H.R. 5435 would pause new fossil fuel leasing 
on Federal lands and waters for a year and require during that 
period our land management agencies to hit intermediate 
emissions reduction targets along the road to 2040.
    If the departments fail to meet the emission targets in the 
bill, they cannot issue more fossil fuel permits or hold new 
fossil fuel lease sales until they come into compliance.
    My bill encourages more renewables on public land, more 
natural climate solutions, and new technologies such as direct 
air capture of carbon dioxide that is done safely and 
effectively on public lands. And we can reduce the climate 
impacts of oil, gas, and coal, which is what this bill is 
designed to do.
    Our bill is also designed to help workers and communities 
dependent on fossil fuel extraction by setting up a new 
transition assistance fund. Money in this fund would be 
returned to impacted regions to be used for reclamation and 
restoration of land and water, retraining of workers, and 
diversifying local economies.
    Current and future generations are demanding we follow the 
science and act boldly to limit emissions from fossil fuels. I 
think it is time that we listened.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    The Committee is meeting today to hear testimony on two pieces of 
climate change legislation. H.R. 5435, the American Public Lands and 
Waters Climate Solution Act, is legislation I introduced at the end of 
last year, and H.R. 5859, the Trillion Trees Act, was introduced 
earlier this month by Congressman Westerman.
    In 2019, the Natural Resources Committee heard from a broad range 
of voices, including those whose voices are too often not listened to, 
about how Congress must act to deal with climate change, which is the 
greatest environmental, economic, and public health threat of our time.
    I am very glad that today we have the opportunity to discuss 
bipartisan solutions to this enormous problem. For too long, my friends 
on the other side of the aisle denied that this was even a real issue. 
They would reject, or even mock, the overwhelming scientific consensus 
that the planet is warming, humans are responsible, and urgent action 
needs to be taken.
    So, I appreciate Congressman Westerman's proposal, and I welcome 
Republicans into what is hopefully a new chapter for their party 
focused on climate solutions, not climate denial.
    We all agree that nature-based solutions are critical to combat 
climate change. But we must not lose focus on what the science tells us 
we must do to stabilize global temperatures and avoid the most 
catastrophic impacts. This will require a lot more than planting new 
trees and protecting existing forests, such as the Tongass. We must 
dramatically reduce greenhouse gases and get to net zero emissions as 
rapidly as possible, and no later than the middle of this century.
    This will require hundreds of steps across all sectors of the 
economy, coordination across the entire Federal Government, and 
legislation from almost every congressional committee. Our Committee 
has a very large role to play in this effort.
    Oil, gas, and coal extracted from our public lands and waters 
produce nearly a quarter of America's carbon pollution. At the same 
time, our natural landscapes only absorb roughly 3 percent of our 
greenhouse gas emissions each year. That's an unhealthy balance.
    My colleague from Arkansas recognizes, as do I, that we need to 
increase how much carbon our landscapes absorb. We may not agree on the 
best ways to make that happen, and I have concerns with his bill, but 
we are on the same page there.
    But all the trees in the world won't stand a fighting chance if we 
don't cut our fossil fuel emissions. That's why in December, several of 
my colleagues and I introduced the American Public Lands and Waters 
Climate Solution Act.
    Our bill addresses both sides of the problem, increasing what our 
public lands absorb while decreasing what they emit, with a goal of 
getting to net zero emissions by 2040.
    We can't get there operating the same way we have over the past 100 
years. That's why my bill would pause new fossil fuel leasing on 
Federal lands and waters for a year and require our land management 
agencies to hit intermediate emissions reduction targets along the road 
to 2040.
    If the departments fail to meet the emissions targets in the bill, 
they cannot issue more fossil fuel permits or hold new fossil fuel 
lease sales until they come into compliance.
    My bill encourages more renewables on public land, more natural 
climate solutions, and new technologies such as direct air capture of 
carbon dioxide, if we can do that safely and effectively on public 
lands.
    We can't simply shut off existing production or close operating 
mines. But we can reduce the climate impact of that oil, gas, and coal, 
which is what my bill is designed to do.
    Our bill is also designed to help workers and communities dependent 
on fossil fuel extraction by setting up a new transition assistance 
fund. Money in this fund will be returned to impacted regions to be 
used for reclamation and restoration of land and water, retraining 
workers, and diversifying local economies.
    Current and future generations are demanding we follow the science 
and act boldly to limit emissions from fossil fuels. It's time we 
listened.

                                 ______
                                 

    The Chairman. I will now recognize the Ranking Member, Mr. 
Bishop, for his opening statement.
    Mr. Bishop, you are recognized.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. I appreciate the 
opportunity of being here with you again on this wonderful, 
great day.
    [Laughter.]
    Mr. Bishop. I am somewhat perplexed, at least Mussolini had 
the trains run on time. If this leadership could actually get 
the damn elevators to run on time and not in a pack in this 
building, it would be a whole lot easier for all of us.
    Sometimes I am perplexed as to why we are even here this 
week, without having anything to vote yesterday or the day 
before. I suppose it was an effort to make sure that everyone 
was able to watch last night, and the latest version of the 
Democratic demolition derby. I know I enjoyed that opportunity 
of that unfettered access to that spectacle in South Carolina, 
but then we get to come here again, as we now have another 
version of the David Watkins production of ``As the World 
Turns.'' And we will have riveting testimony I can understand.
    Mr. Westerman has a bill that actually is a common-sense 
solution that you can solve carbon, either by limiting how much 
goes into the air, or trying to pull it out of the air. Not 
only is his bill, which has been endorsed by many of the 
Democrats who are no longer running for president, but they did 
run for president, as an idea. But also, if we were to expand 
that and use grazing on public lands, you could also even suck 
more carbon out of the atmosphere.
    So, it is processed. I know there are some that are 
thinking it is not the silver bullet to solve the problem. 
Perhaps not. But the other bill we are going to be dealing with 
is another bullet that is going to be used to shoot ourselves 
in the foot. Actually, Barney Fife's bullet was more useful 
than this bill would be, as far as coming up with an overall 
policy for the United States.
    If indeed the goal of the first bill, which is to end all 
leasing, were to come into fruition, or at least allow 
litigation to make sure that the rest of it is stopped at some 
point, it will have the net effect of destroying Western 
schools. I care about kids.
    Much of the legislation that we want to see passed this 
year has been held up because of this insistent threat that we 
have to fully fund LWCF. But to realize that the Grijalva bill 
was to pass into law, we would not fund any LWCF. That is the 
entire revenue source for it. And any efforts to try to solve 
the backlog problem in our parks would also be decimated.
    It is wonderful that when you try to satisfy special 
interest groups, you can't satisfy them all without actually 
destroying all of them at the same time.
    So, we are here, and, in fact, I think it is illustrated by 
the fact that, of all the witnesses that we have, none of them 
even made reference to the Grijalva bill in their written 
testimony.
    I hope you will actually give some verbal shout-outs to it, 
because that is the reason you are supposedly here.
    I am sure this is going to be a fascinating--another series 
of ongoing hearings, first on climate change. I am sure it is 
going to be just as good as the one we had when we discussed 
how concussions in the NFL have an impact on climate.
    One of the strange things that we are looking at, though, 
if we actually deal with reality, is that even though 
production of fossil fuels in the United States is increasing--
can you hit the chart right there--the actual emissions are 
decreasing in the same time period. According to the 
International Energy Agency, in 2019 the United States saw the 
largest decline in energy-related CO<INF>2</INF> of any nation. 
And furthermore, it has seen the largest decline of any energy-
related emissions of any country since the year 2000.
    We are also using less and less land to produce our energy 
development, which means, actually, something is going in the 
right direction here.
    But if indeed we want to cater to special interest groups 
and say, yes, we will pass interest groups' legislation to make 
you feel happy about it, and allow you to litigate even more 
than you are doing right now, well, this Committee is going in 
the right direction. But it is contradictory. You can't say we 
love LWCF and we want to fund those programs, we love our parks 
and we want to prepare those and keep those going, and at the 
same time come up with a policy to end all leasing. It just 
doesn't work, which is one of the reasons why we long for an 
era in which the majority of this Committee actually has a 
policy that has some kind of consistency and rationality to it.
    It is probably not going to happen today, but I am looking 
forward to all of the testimony on different issues which 
really don't deal with the Grijalva bill. Maybe a few of them 
will deal with the Westerman bill.

    I yield back, sir.

    The Chairman. The gentleman yields back. The sponsor of the 
Trillion Trees Act, Mr. Westerman, 5 minutes.

  STATEMENT OF THE HON. BRUCE WESTERMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Westerman. Chairman Grijalva, Ranking Member Bishop, 
fellow colleagues, thank you for the opportunity to talk about 
the Trillion Trees Act.
    My legislation represents a pragmatic, science-based first 
step in addressing global carbon emissions, emphasizing natural 
carbon sequestration through reforestation, forest management, 
and sustainable utilization.
    Mr. Chairman, I would like to submit for the record this 
paper published in the Journal of Sustainable Forestry, 
``Carbon, Fossil Fuel, and Biodiversity Mitigation With Wood 
and Forests.'' It is from Yale University and the University of 
Washington.
    The Chairman. Without objection.
    Mr. Westerman. Scientists have documented carbon dioxide 
increases from 283 parts per million in 1800 to 315 parts per 
million in 1958 to current 411 parts per million. Americans 
want Congress to act. According to the Pew Research Center, 
most Americans currently list the environment as one of the top 
policy priorities. For Americans under 30, more than three-
quarters of those surveyed think the environment should be a 
focus, and we need to listen to them.
    The good news is we have already begun acting. Despite 
public misconception, the United States leads the world in 
reducing emissions while we are growing our economy. In 2006, 
the U.S. GDP was slightly over $14 trillion, and CO<INF>2</INF> 
emissions peaked at just over 6 gigatons. By 2019, our economy 
had grown by 55 percent to $21.7 trillion, while our 
CO<INF>2</INF> emissions dropped 3.6 percent to 5.8 gigatons. 
During this time, we also witnessed a decrease in energy costs.
    However, there is much work that remains, and there is much 
that we can do. That is why I introduced the Trillion Trees Act 
as part of a broader initiative to offer practical solutions to 
this complex global problem.
    While the potential for emissions reductions and storage 
offered by trees and wood products as outlined in this policy 
is significant, it is not the only answer. There are two 
components to this legislation that I want to make sure 
everyone understands.
    First, this policy will result in reduced carbon emissions. 
In case you missed that, I will repeat. This policy will result 
in reduced carbon emissions. It will reduce carbon emissions 
through an incentive-based tax credit up to 25 percent 
rewarding sustainable construction based on three criteria.
    Part of the credit will require a reduction in energy used 
and carbon emitted in manufacturing and transporting building 
materials to the job site.
    Part of the credit will require a reduction in energy used 
and carbon emissions to heat, cool, ventilate, light, and 
operate the building over its lifetime.
    The remaining portion of the credit will be based on the 
amount of carbon stored in the completed structure.
    This policy will also result in reduced carbon emissions by 
capturing energy from dead residual biomass materials that are 
already on a pathway to becoming atmospheric carbon. This will 
offset the equivalent amount of carbon-emitting energy that 
otherwise would have to be used to meet energy demands.
    Let me repeat again. This policy will result in reduced 
carbon emissions.
    The second component of the legislation that I want to make 
clear is that this policy will result in reducing 
CO<INF>2</INF> concentrations that are already in the 
atmosphere. Think about it. If all man-made CO<INF>2</INF> 
emissions were somehow miraculously stopped, what do we do 
about the 411 parts per million of CO<INF>2</INF> already in 
the atmosphere? The answer is trees. Unequivocally, the most 
pragmatic, proactive, economical, and large-scale solution to 
reducing atmospheric carbon levels is sustainable forestry. And 
I respectfully ask anyone to offer a better solution.
    In every tree, miraculous science is constantly taking 
place. Every second of every day, quadrillions of sub-cell 
organelles called chloroplast are at work in a single tree 
doing what they do best: combining water, sunlight, and carbon 
dioxide to make carbon-rich plant food, while releasing oxygen 
back into the atmosphere. That carbon stays in the tree even 
after it is cut down and turned into buildings, furniture, and 
a whole host of other products. In fact, 40 to 50 percent of 
the dry weight of wood is carbon; 40 to 50 percent of this 
dais, by weight, is carbon.
    Why 1 trillion trees? One trillion is a big number, even 
for the planet. But we are at a point where we need a bold goal 
to focus our efforts on being the best stewards of our 
environment, and America has a history of leading the world in 
bold endeavors. The Trillion Trees Act acknowledges this bold 
goal, and commits the United States to doing our part.
    The Trillion Trees Act, however, is not only about planting 
more trees. It is bad policy to simply plant trees and walk 
away. Hence, the Trillion Trees Act is all about management of 
our forest, keeping existing forestland in forests, and 
managing these forests where practical to improve resiliency 
and growth.
    The Trillion Trees Act also recognizes that the planet has 
limited growing space for forest. By contrast, there is no 
limit to how much carbon forests can pull from the atmosphere 
if we consider not just the trees that are growing, but also 
the wood products that these trees can create. Sustainable wood 
products manufacturing transfers carbon stored in the forest to 
the wood products and their end uses, resulting in a 
sustainable increase in carbon stores year after year.
    In turn, harvested wood makes space for new trees, 
restarting the cycle of sequestration.
    The United Nations projects 2.3 billion new urban dwellers 
by 2050. By employing bio-based materials, technologies, and 
construction assemblies with high carbon storage capacity and 
low embodied carbon emissions, we can create a durable, human-
made global carbon pool, while simultaneously reducing 
CO<INF>2</INF> emissions associated with building sector 
activities.
    Mr. Chairman, I would like to also submit this paper from 
Nature Sustainability, titled ``Buildings as a global carbon 
sink.''
    Every American can support planting a tree. If we can 
connect that action with sustainability and carbon storage, we 
are one big step closer to solving a complex problem.
    Mr. Chairman, I thank you for allowing me to highlight such 
a practical piece of legislation, and I look forward to 
answering any questions from you or other members of the 
Committee, and I urge swift adoption of this legislation.

    The Chairman. Mr. Bishop has some questions.
    Mr. Bishop. Yes. Do you want me to go ahead of you?
    The Chairman. I don't have any questions.
    Mr. Bishop. OK. All right, Mr. Westerman, let me go through 
a couple of questions I have.
    I have heard some voices out there that have said that this 
bill is a dangerous diversion from reality. Do you consider it 
a dangerous diversion?
    Mr. Westerman. Not hardly. I consider planting trees and 
taking care and being good stewards of the forests that we have 
sound environmental stewardship. And I can't imagine how it 
could be labeled a dangerous diversion.
    I have never said we don't need to reduce carbon emissions, 
and this bill actually focuses on reducing carbon emissions and 
sequestering carbon. So, it is not at all a dangerous 
diversion, but it is a pragmatic, proactive, logical approach 
that should be bipartisan, and it should have big support.
    It is science-based. I will argue the science with anybody 
who wants to talk about the science behind this bill.
    Mr. Bishop. So, is there any time you have claimed that 
this is the silver bullet for climate challenges?
    Mr. Westerman. Absolutely not.
    Mr. Bishop. Besides this, and perhaps grazing on public 
lands, do you have a better way of sucking carbon out of the 
atmosphere and making it productive?
    Mr. Westerman. No, and I challenge anybody in the room or 
outside the room to tell me a better way to get the existing 
carbon that is in the atmosphere at 411 parts per million, to 
get that out of the atmosphere.
    Sure, we need to reduce the amount of carbon going into the 
atmosphere. But what do you do about the carbon that is already 
in the atmosphere? Trees are the natural, logical answer to 
that.
    Mr. Bishop. See, to me, that is logical. But I am just a 
layman. You have the degree in forestry. You feel comfortable 
with that?
    Mr. Westerman. I feel very comfortable with that. I think 
we have understood photosynthesis for a really long time.
    Mr. Bishop. And the fact that the carbon stays in the tree, 
regardless of what you do with it afterwards.
    Mr. Westerman. As long as it is solid, the carbon is there. 
It is the best carbon storage mechanism that we know of. There 
is nothing that can store carbon better and for a longer period 
of time than wood.
    Mr. Bishop. Thank you. I yield back.
    The Chairman. The gentlemen yields back. Let me now 
introduce our witnesses for today, and thank them again.
    Our first witness is Governor Bill Ritter. Governor Ritter 
was the 31st governor of Colorado, and is the Founder and 
Director of the Center for the New Energy Economy at Colorado 
State University.
    Thank you for being here, Governor. And I know you have a 
noon time that you need to be elsewhere, so I appreciate the 
time.
    Our second witness is Ms. Caroline Gleich, a professional 
ski mountaineer, adventure athlete, and climate activist from 
Salt Lake City, Utah.
    Our third witness is Mr. Jason Walsh, the Executive 
Director of the BlueGreen Alliance.
    Our fourth witness is Mr. Steve Marshall, the Senior Vice 
President for Policy at SmartLam North America.
    Our fifth witness is Dr. Carla Staver, an Associate 
Professor of Ecology and Evolutionary Biology at Yale 
University.
    And our final witness is Mr. Derrick Hollie, the president 
of Reaching America.
    The witnesses, you have 5 minutes for your oral statement. 
Your entire statement will appear in the hearing record.
    When you begin, the lights on the witness table will turn 
green, after 4 minutes yellow, and then your time has expired 
when the red light comes on and I will ask you to please 
complete the thought that you are on at that point, or 
statement.
    I also will allow the entire panel to testify before any of 
the Members can ask questions.
    Let me now begin by recognizing Governor Ritter for his 
testimony.
    The floor is yours, sir.

  STATEMENT OF BILL RITTER, JR., FORMER GOVERNOR OF COLORADO, 
FOUNDER AND DIRECTOR OF THE CENTER FOR THE NEW ENERGY ECONOMY, 
       COLORADO STATE UNIVERSITY, FORT COLLINS, COLORADO

    Mr. Ritter. Thank you, Mr. Chairman. Chairman Grijalva, 
Ranking Member Bishop, members of the Committee, thank you for 
the opportunity to speak today, and it is an honor to appear 
here with my fellow witnesses.
    I was the 41st governor of Colorado. I now run a center at 
Colorado State University and the Chairman referred to that. It 
is called the Center for the New Energy Economy. But the point 
of that center is to work with governors around the United 
States of America, to work with legislators, to do it in a 
bipartisan way on what we would call the clean energy 
transition. So, my work for the last 9 years has been doing 
that. We have a legislator academy that we run, where we are 
decidedly bipartisan. We have Democratic and Republican state 
legislators who attend the academy. And then we do a variety of 
things with governors' offices, but also with utilities.
    And, I think, when the Ranking Member referenced that none 
of the witnesses actually mentioned your act, Mr. Chairman, 
that was probably my oversight. I apologize. I am absolutely 
here today to testify regarding H.R. 5435, and, likewise, to 
support H.R. 5435, Mr. Chairman, with my testimony about the 
clean energy transition.
    There are just a few points that I will make in my 5 
minutes. I have 10 pages of written testimony.
    Point No. 1 is that it is imperative that we act, and we 
act swiftly regarding climate change, and that we do all that 
we possibly can.
    I think you, Member Westerman, you said it is not a silver 
bullet, the Trillion Trees Act. We would agree with that, there 
are so many other things we have to do. And partly why I would 
support H.R. 5435 is because it is one of the things we have to 
do.
    There is a transition happening in this country. If you 
look at all the coal that existed in 2008, 95 percent of that 
is going to be gone in 2035 or 2037. If you look at all the 
planned retirements, the resource planning that is going on, 
but look at also the age of the coal plants, no CEO of a 
utility in the West would disagree with that, if I made that 
statement, and I have before. There is this transition out of 
coal that is happening.
    There is certainly new natural gas that is being built in 
some places around. But as we look to the West, where so many 
public lands are, out of the net natural gas that existed in 
2008 with all the coal that has come offline, renewables have 
replaced it.
    So, in this clean energy transition, when we sort of were 
starting it in Colorado in 2007 and 2008, there were a lot of 
people who were saying to us that we shouldn't do that, that it 
was going to be too expensive, it would be difficult to 
integrate renewables onto the grid. They gave us a variety of 
reasons.
    And now, one of the reasons that coal is coming offline has 
nothing to do with policy, it has everything to do with 
markets. I just moderated a panel with the Senior Vice 
President of PacifiCorp and the CEO of Tri-State. They are two 
very significant Western utilities, and they are both talking 
about their transition out of coal, and largely their 
transition to renewable energy or clean energy. So, that is one 
of the things that I think it is important for us to focus on.
    Why public lands? Because in the West, public lands matter 
so much. And people from outside the West may not appreciate 
this, but places like Nevada are 85 percent public lands; Idaho 
is 60-some percent; Colorado, where I was governor, 45 percent 
public lands; and Wyoming 45 percent public lands. And they are 
a part of our carbon footprint in America.
    So, I think my purpose of being here today is saying there 
is an energy transition happening in the United States. It is 
happening in a bipartisan way at the state, the city, and the 
corporate level. It is happening among utilities. I think the 
16th major utility just announced a goal of 100 percent carbon-
free in some respects by 2050. So, it is happening, but it is 
not happening necessarily on public lands, where we have 20-
some percent of the carbon footprint.
    In my mind, H.R. 5435, first of all, addresses that part of 
it, that it should be public lands that we focus on, and the 
carbon footprint there.
    But the second part of it is the funding mechanism for 
coal-dependent communities around America that are badly in 
need of help as we shut down coal in the West. We have a 
variety of places that are going to have a very difficult time 
without some kind of a Federal plan for assistance in trying to 
have the right kind of economic activity to revitalize those 
communities. H.R. 5435 addresses the climate problem, but also 
addresses an economic problem that is a very real problem in 
places throughout the West. And I support the legislation for 
that reason.
    And we will be happy to answer any questions when the time 
comes. Thank you, Mr. Chairman.

    [The prepared statement of Mr. Ritter follows:]
 Prepared Statement of Bill Ritter, Jr., 41st Governor of the State of 
Colorado; Director of the Center for the New Energy Economy at Colorado 
                            State University
    Chairman Grijalva, Ranking Member Bishop, and members of the 
Committee. Thank you for the opportunity to speak to you today.
    As Colorado's 41st governor, I led our state's transition to a 
clean energy economy. I made this transition a top priority of my 
administration and during my 4 years in office, I signed 57 clean 
energy bills into law. Today, Colorado boasts a vibrant clean energy 
economy. Forty percent of all of our energy workers are employed in 
clean energy industries; and Colorado ranks sixth in the Nation in jobs 
in renewable energy. In 2018, job growth across all clean energy 
sectors was 4.8 percent, double statewide job growth. Our clean energy 
employers predicted that 2019 job growth would be more than double 2018 
at 10.3 percent.\1\ This growth has been shared across all counties in 
Colorado.
---------------------------------------------------------------------------
    \1\ Environmental Entrepreneurs (E2) and Colorado Solar & Storage 
Association. 2019. Clean Jobs Colorado. Accessed: 16 Feb. 2020. 
Available: https://www.e2.org/wp-content/uploads/2019/09/E2-Clean-Jobs-
Colorado-2019.pdf.
---------------------------------------------------------------------------
    I continue to lead the national transition as the Director of the 
Center for the New Energy Economy (CNEE). I founded CNEE in 2011 as a 
Department of our state's land grant institution, Colorado State 
University. Our non-partisan initiative works directly with governors, 
legislators, regulators, utilities, and other stakeholders to 
facilitate America's transition to a clean energy economy. CNEE is 
committed to a responsible and equitable transition and to serving 
diverse stakeholders with our collective expertise in energy systems, 
policy, politics, economics, sociology, law, and environmental science.
                      the clean energy transition
    Our current efforts to mitigate greenhouse gas (GHG) emissions and 
adapt to the impacts of climate change are falling short of what many 
estimate will be needed to avoid substantial and irreversible damages 
to economies, ecosystems, and human health and well-being.\2\ Without a 
concerted and collaborative intergovernmental and intersectoral effort 
to mitigate and adapt, the impacts associated with climate change are 
also expected to ``increasingly disrupt and damage'' our critical 
infrastructure and national security. The Fourth National Climate 
Assessment estimates that without significant action, ``annual losses 
in some economic sectors are projected to reach hundreds of billions of 
dollars by the end of the century--more than the current gross domestic 
product (GDP) of many U.S. states.'' \3\
---------------------------------------------------------------------------
    \2\ See: Intergovernmental Panel on Climate Change (IPCC). 2014. 
Climate Change 2014: Synthesis Report. Contribution of Working Groups 
I, II and III to the Fifth Assessment Report of the Intergovernmental 
Panel on Climate Change. Core Writing Team, R.K. Pachauri and L.A. 
Meyer, eds. IPCC. Geneva, Switzerland. 151 pp. Accessed: 18 Feb. 2020. 
Available: https://www.ipcc.ch/report/ar5/syr/; and Jay, A., et al. 
2018. Overview. In Impacts, Risks, and Adaptation in the United States: 
Fourth National Climate Assessment, Volume II. Reidmiller, D.R., et al. 
(eds). U.S. Global Change Research Program. Washington, DC. pp. 33-71. 
doi: 10.7930/NCA4.2018.CH1. Accessed: 17 Feb. 2020. Available: https://
nca2018.globalchange.gov/downloads/.
    \3\ U.S. Global Change Research Program. 2018. Impacts, Risks, and 
Adaptation in the United States: Fourth National Climate Assessment, 
Volume II. Reidmiller, D.R., et al., eds. U.S. Global Change Research 
Program. Washington, DC. doi: 10.7930/NCA4.2018. Accessed: 17 Feb. 
2020. Available: https://nca2018.globalchange.gov/downloads/.
---------------------------------------------------------------------------
    Mitigating GHG emissions not only reduces our exposure to the 
longer-term economic and health risks associated with climate change, 
there are also more immediate benefits associated with reducing 
emissions. These include improving air quality, which benefits public 
health, the environment, and economic activity by reducing emissions 
that contribute to asthma, heart disease, lost productivity, smog, acid 
rain, and crop damage, to name a few.\4\<SUP>,</SUP>\5\ The Fourth 
National Climate Assessment notes that ``[r]ecent studies suggest that 
some of the indirect effects of mitigation actions could significantly 
reduce--or possibly even completely offset--the potential costs 
associated with cutting greenhouse gas emissions.'' \6\
---------------------------------------------------------------------------
    \4\ These pollutants include particulate matter, ozone, oxides of 
nitrogen, and sulfur dioxide.
    \5\ See also: Jay, A., et al. 2018. Overview. In Impacts, Risks, 
and Adaptation in the United States: Fourth National Climate 
Assessment, Volume II. In Reidmiller, D.R., et al., eds. U.S. Global 
Change Research Program. Washington, DC. pp. 33-71. doi: 10.7930/
NCA4.2018.CH1. Accessed: 17 Feb. 2020. Available: https://
nca2018.globalchange.gov/downloads/.
    \6\ Ibid.
---------------------------------------------------------------------------
    The time to act is now. In 2018, the IPCC found that we must reduce 
global GHG emissions to net-zero by 2050 to limit warming to 1.5 
degrees Celsius above pre-industrial levels.\7\ Also in 2018, the U.S. 
Geological Survey found that an average of approximately 25 percent of 
annual national GHG emissions are associated with fossil fuel 
development, and the downstream use of those fuels, on public lands.\8\ 
A recent report by The Wilderness Society (TWS) warns that the 
emissions associated with activity on public lands might be on the 
increase: leases approved between January 2017 and January 2020 ``could 
result in life cycle emissions between 1 billion and 5.95 billion 
[metric tons of carbon dioxide equivalent].'' On the low end, TWS 
estimates that these emissions would be equivalent to the total annual 
emissions of Brazil. On the high end, these emissions would equal more 
than half of China's annual emissions.\9\
---------------------------------------------------------------------------
    \7\ Davenport, Coral. 2018. Major Climate Report Describes a Strong 
Risk of Crisis as Early as 2040. The New York Times. 7 Oct. Accessed: 
18 Feb. 2020. Available: https://www.nytimes.com/2018/10/07/climate/
ipcc-climate-report-2040.html.
    \8\ Merrill, M.D., et al. 2018. Federal lands Greenhouse Emissions 
and Sequestration in the United States--Estimates for 2005-14: U.S. 
Geological Survey Scientific Investigations Report 2018-5131, 31 p. 
Accessed: 19 Feb. 2020. Available: https://pubs.usgs.gov/sir/2018/5131/
sir20185131.pdf.
    \9\ The Wilderness Society. 2020. The Climate Report 2020: 
Greenhouse Gas Emissions from Public Lands. The Wilderness Society. 
Accessed: 19 Feb. 2020. Available: https://www.wilderness.org/sites/
default/files/media/file/TWS_The%20Climate%20Report%20_2020_ 
Greenhouse%20Gas%20Emissions%20from%20Public%20Lands.pdf.
---------------------------------------------------------------------------
    Public pressure for action, as Americans increasingly experience 
the effects of climate change, is mounting. At least 46 percent of 
Americans think climate change is a very serious threat to the United 
States.\10\ Seventy percent of Americans support some sort of 
government action to address climate change and at least 34 percent 
believe that passing a bill to address climate change should be a high 
priority for Congress.\11\
---------------------------------------------------------------------------
    \10\ Climate Nexus, Yale Program on Climate Change Communication, 
and George Mason University Center for Climate Change Communication. 
2019. National Poll Number pr1922. Accessed: 18 Feb. 2020. Available: 
https://climatenexus.org/wp-content/uploads/National-Poll-Toplines-
Crosstabs-PR1922.pdf; and Kennedy, B. and M. Hefferon. 2019. U.S. 
Concern about Climate Change is Rising, but Mainly Among Democrats. Pew 
Research Center. 28 Aug. Accessed: 18 Feb. 2020. Available: https://
www.pewresearch.org/fact-tank/2019/08/28/u-s-concern-about-climate-
change-is-rising-but-mainly-among-democrats/.
    \11\ Climate Nexus, Yale Program on Climate Change Communication, 
and George Mason University Center for Climate Change Communication. 
2019. National Poll Number pr1922. Accessed: 18 Feb. 2020. Available: 
https://climatenexus.org/wp-content/uploads/National-Poll-Toplines-
Crosstabs-PR1922.pdf; and Volcovici, V. 2019. Americans Demand Climate 
Action (As Long as It Doesn't Cost Much). Reuters. 26 Jun. Accessed: 18 
Feb. 2020. Available: https://www.reuters.com/article/us-usa-election-
climatechange/americans-demand-climate-action-reuters-poll-
idUSKCN1TR15W, and Morning Consult and Politico. 2019. National 
Tracking Poll #190431. Morning Consult and Politico. Accessed: 18 Feb 
2020. Available: https://morningconsult.com/wp-content/uploads/2019/04/
190431_crosstabs_POLITICO_RVs_v1_ML.pdf.
---------------------------------------------------------------------------
    The American people and their state and local leaders recognize the 
wisdom in reducing emissions for a number of reasons including economic 
opportunity, public health, and reducing the risks associated with 
climate change. State and local governments continue to lead the Nation 
in developing clean energy policy. For instance, 13 states, Puerto 
Rico, and the District of Columbia have adopted, in statute or by 
executive order, 100 percent clean energy goals. One hundred fifty-nine 
cities, including 8 of the top 30 largest cities (by population), have 
adopted or have already met 100 percent clean or renewable energy 
goals.\12\ Of the states that have adopted 100 percent clean energy 
goals, seven are located in the Western United States.\13\ Of the eight 
largest cities that have adopted clean energy goals, six are located in 
the West.\14\
---------------------------------------------------------------------------
    \12\ Sierra Club. 2020. 100% Commitments in Cities, Counties, & 
States. Sierraclub.org. Accessed: 18 Feb. 2020. Available: https://
www.sierraclub.org/ready-for-100/commitments.
    \13\ These states are California, Colorado, Hawaii, Nevada, New 
Mexico, Oregon, and Washington.
    \14\ These cities are Denver, CO; Los Angeles, CA; Portland, OR; 
San Diego, CA; San Francisco, CA; and San Jose, CA.
---------------------------------------------------------------------------
    The transition to a clean energy economy is not only policy driven, 
it is also emerging in response to economic realities. Electricity 
generated using coal now has a higher levelized cost of energy (LCOE) 
than electricity generated by unsubsidized natural gas combined cycle 
(NGCC) units, wind, and utility-scale solar.\15\ In 2019, Lazard found 
that building new wind and solar is approaching or has obtained cost 
competitiveness with the marginal cost of continuing to operate 
existing coal and nuclear facilities.\16\ Analyses by major utilities 
and others have found that continuing to operate existing coal plants 
is uneconomical.\17\
---------------------------------------------------------------------------
    \15\ Lazard. 2019. Lazard's Levelized Cost of Energy Analysis: 
Version 13.0. Lazard. Accessed: 19 Feb. 2020. Available: https://
www.lazard.com/media/451086/lazards-levelized-cost-of-energy-version-
130-vf.pdf.
    \16\ Ibid.
    \17\ See, for instance: PacifiCorp. 2019. Integrated Resource Plan. 
Accessed: 21 Feb. 2020. Available: https://www.pacificorp.com/energy/
integrated-resource-plan.html. And Dyson, M. and A. Engel. 2018. A Low-
Cost Energy Future for Western Cooperatives: Emerging Opportunities for 
Cooperative Electric Utilities to Pursue Clean Energy at a Cost Savings 
to Their Members. Rocky Mountain Institute. Accessed: 21 Feb. 2020. 
Available: https://www.rmi.org/wp-content/uploads/2018/08/
RMI_Low_Cost_Energy_Future_for_Western_Cooperatives_2018.pdf.
---------------------------------------------------------------------------
    Utility scale solar and wind are now also cost-competitive with 
NGCC units,\18\<SUP>,</SUP>\19\ and we are seeing increasingly low 
renewable energy prices. For instance, Xcel Energy's last all-source 
solicitation in late 2017 in Colorado attracted over 400 bidders and 
record low prices for wind and solar. The utility's Colorado Clean 
Energy Plan includes wind priced between $11-18 per megawatt hour 
(MWh), solar between $23-27 per MWh, and solar with storage between 
$30-32/MWh.\20\ Xcel Energy expects that increasing the use of solar 
and wind across its system will reduce future fuel costs and that those 
savings will be passed directly to all of its customers. According to 
our state's largest electricity provider, ``[t]oday, Xcel Energy's 
average Colorado customer bill is 35 percent below the national average 
and has declined by more than 14 percent since 2014. During that same 
time period, the company added over 1,000 megawatts [(MW)] of wind and 
solar power to its Colorado system.'' \21\
---------------------------------------------------------------------------
    \18\ The LCOE of unsubsidized utility scale solar in 2019 was $32-
44/MWh, unsubsidized onshore wind was $28-54/MWh, and unsubsidized NGCC 
was $44-68/MWh.
    \19\ Lazard. 2019. Lazard's Levelized Cost of Energy Analysis: 
Version 13.0. Lazard. Accessed: 19 Feb. 2020. Available: https://
www.lazard.com/media/451086/lazards-levelized-cost-of-energy-version-
130-vf.pdf.
    \20\ Correspondence with Xcel Energy. And: Smyth, J. 2018. Colorado 
Energy Plan Analysis Shows Switching from Coal to Renewable Energy Will 
Boost Jobs and Local Tax Revenue. Clean Cooperative. 22 Jun. Accessed: 
23 Feb. 2020. Available: https://www.cleancooperative.com/news/
colorado-energy-plan-analysis-shows-switching-from-coal-to-renewable-
energy-will-boost-jobs-and-local-tax-revenue.
    \21\ Correspondence with Xcel Energy.
---------------------------------------------------------------------------
    A second major Western utility, Tri-State Generation and 
Transmission, also expects that its transition \22\ to clean energy 
will keep rates flat and might even reduce them.\23\ According to Tri-
State's CEO Duane Highley, ``because wind and solar energy [are now 
less expensive] than the cost of generating with any fossil fuel, coal 
or gas . . . those savings in energy costs can be used to help us 
accelerate the retirement of coal and pay for that accelerated 
retirement without negative rate impacts.'' \24\
---------------------------------------------------------------------------
    \22\ Tri-State's Responsible Energy Plan includes the addition of 1 
gigawatt of wind and solar and GHG emissions reductions in Colorado by 
90 percent of 2005 emissions by 2030. The utility operates in four 
Western states: Colorado, Nebraska, New Mexico, and Wyoming.
    \23\ Best, A. 2020. Tri-State CEO Says Wholesaler's Clean Energy 
Transition Will Pay Dividends. Energy News Network. 21 Jan. Accessed: 
23 Feb. 2020. Available: https://energynews.us/2020/01/21/west/tri-
state-ceo-says-wholesalers-clean-energy-transition-will-pay-dividends/.
    \24\ Smyth, J. 2020. Tri-State Will Replace Coal Plants with A 
Gigawatt of New Wind and Solar. Clean Cooperative. 9 Feb. Accessed: 23 
Feb. 2020. Available: https://www.cleancooperative.com/news/tri-state-
will-replace-coal-plants-with-a-gigawatt-of-new-wind-and-solar.
---------------------------------------------------------------------------
    The environmental and economic benefits are clear, and utilities 
around the Nation are increasingly investing in lower-cost and less 
risky clean energy technologies, developing emission reduction 
strategies, and retiring coal-fired electric generating units. To date, 
at least 42 electric utilities operating around our country have 
adopted clean energy or GHG emission reduction goals. Of these, 16 have 
adopted 100 percent clean energy or net-zero GHG emissions goals. Of 
the utilities that have adopted clean energy or GHG emissions reduction 
goals, 17 operate in the Western United States, and eight of these 
utilities have set 100 percent clean energy or net-zero GHG emissions 
goals.\25\
---------------------------------------------------------------------------
    \25\ These utilities are: Arizona Public Service, Austin Energy, 
Avista, Hawaiian Electric Utilities, Idaho Power, Platte River Power 
Authority, Public Service Company of New Mexico, and Xcel Energy.
---------------------------------------------------------------------------
    Across nine Western states,\26\ over 17,000 MW of coal-fired 
electric generating capacity is scheduled to retire by the end of 2031. 
The bulk of these retirements (11,470 MW) are scheduled to occur before 
the end of 2025 and will or already have impacted communities across 
the West.\27\ As coal plants retire, the mines that supply them will 
also shutter. Our coal-reliant communities are facing a great deal of 
economic and social uncertainty. This is especially the case because 
these communities can be mono-industrial, where the industry is not 
only a crucial economic driver but is also associated with identity and 
heritage.
---------------------------------------------------------------------------
    \26\ Arizona, Colorado, Montana, New Mexico, Nevada, Oregon, Utah, 
Washington, and Wyoming.
    \27\ Last year, 3,231 MW was retired in Arizona (2,409 MW at Navajo 
Generating Station), Colorado, Montana, and Wyoming.
---------------------------------------------------------------------------
    We have heard examples of coal miners and power plant employees out 
of work without enough notice, and communities suffering direct and 
indirect job loss as well as the loss of tax revenue associated with 
the local coal industry. Some towns receive over half of their budgets 
from coal-related industries; and without this revenue, local 
government services, including public schools, safety, and 
infrastructure can be left underfunded.
    At CNEE, we believe that the transition to a clean energy economy 
needs to be equitable for all involved. Embracing the notion of a 
``just transition'' acknowledges that these communities have provided 
energy for our economy for decades, and that they should not be left 
behind as we transition to clean energy. States, local governments, 
non-profits, utilities, mine owners, and other stakeholders are 
beginning to consider, promote, and implement policies and programs to 
support a just transition. For instance, New Mexico enacted legislation 
last year that includes funding for workforce and economic development 
activities in communities impacted by coal plant closures.\28\ A 
bipartisan proposal currently in front of the West Virginia Legislature 
\29\ is modeled after legislation enacted last year in Colorado, to 
which I will now speak.
---------------------------------------------------------------------------
    \28\ New Mexico Senate Bill 19-489. Available: https://
www.nmlegis.gov/Legislation/
Legislation?Chamber=S&LegType=B&LegNo=489&year=19.
    \29\ West Virginia House Bill 20-4574. Available: http://
www.wvlegislature.gov/Bill_Status/
bills_text.cfm?billdoc=HB4574%20INTR.htm&yr=2020&sesstype=RS&i=4574.
---------------------------------------------------------------------------
    Colorado created the Nation's first Office of Just Transition. The 
Office, along with an advisory committee also established by the 
legislation, is tasked with creating a just transition plan that will 
describe how the Office can most effectively respond to the economic 
changes associated with coal plant and coal mine closures in 
Colorado.\30\ Colorado House Bill 19-1314 also requires that utilities 
that accelerate the retirement of a generating unit submit a workforce 
transition plan to the Office and the affected community at least 6 
months before the unit is retired. The first coal-reliant community 
meetings will be held by Colorado's Just Transition from Coal Advisory 
Committee next week (March 4th-6th). The communities they will be 
visiting are communities our Center has been working with for the last 
year.
---------------------------------------------------------------------------
    \30\ Colorado House Bill 19-1314. Available: https://
leg.colorado.gov/sites/default/files/2019a_1314_signed.pdf.
---------------------------------------------------------------------------
    The towns of Craig and Hayden are coal-reliant communities in 
northwestern Colorado. Craig is home to the Craig Generating Station, 
which hosts three coal-fired generating units with a capacity of 1,283 
MW. Unit 1 is scheduled to be retired by 2025, unit 2 by 2026, and unit 
3 by 2030. Craig is located in Moffat County, which is classified by 
the U.S. Department of Agriculture as a ``mining dependent'' county. In 
2015, over 700 direct jobs, and more than 1,000 indirect jobs in the 
county were dependent on coal. The smaller town of Hayden, just east of 
Craig, is home to the Hayden Generating Station, which has two 
generating units with a combined capacity of 446 MW. Unit 1 is 
scheduled to retire in 2030, unit 2 in 2036. A spokesperson for Xcel 
Energy said that the 64 employees working at the plant will have the 
option to be transferred to other jobs within the utility when the 
plant is retired.
    Our staff has met with local county commissioners, city managers, 
economic development offices, small business owners, and other 
community stakeholders in both towns. We have learned that the 
communities of Craig and Hayden are experiencing the energy transition 
differently, as we would expect to be the case.
    During our visits to Craig, community leaders expressed concern 
about the lack of representation of their ideas in the state 
legislature. They also described coal-fired electricity generation as a 
central part of their everyday life. Community leaders emphasized that 
economic responses to the transition should focus on developing natural 
resources and promoting tourism and recreation, exploring manufacturing 
or other uses for coal, and enhancing local educational opportunities. 
They have worked with economic development experts in the past year to 
develop a plan to diversify their economy.
    In Hayden, the community has creative ideas that they want to share 
with others. While they are proud of their small town and the culture 
that surrounds coal, they have begun planning for the transition. The 
solutions the community emphasized included improving quality of life 
and the town's infrastructure, collaborating with nearby communities, 
and proactive planning and engagement with the local community college.
    During this process, we learned that existing strategies for 
supporting communities during a transition have often been in the form 
of (1) direct financial investment, (2) state policy and program 
development, (3) worker retraining, or (4) economic diversification. 
While these strategies can be effective, there is no one-size-fits-all 
solution. The best strategy to obtain community buy-in for any plan is 
to listen to and involve the community throughout the planning process.
                            closing remarks
    Often the negative effects of degraded air quality and 
transitioning economic industries disproportionately affect low-income, 
rural, and minority populations. To adequately and equitably transition 
to clean energy resources and reduce the risks associated with climate 
change, the stakeholders closest to and most impacted by this 
transition need to be listened to and involved in the planning and 
implementation processes. They must have a real seat at the decision-
making table. The best outcomes emerge when community members create 
their own solutions or strongly support the changes recommended by 
others.
    The United States has withstood other transitions in our energy 
system and larger economy. It behooves all stakeholders to plan for 
large-scale change and to fund efforts to support the communities that 
will be most impacted by any transition. Engaging communities early and 
directly will allow innovation and the development of proactive 
strategies that bolster resilience.

                                 ______
                                 

       Questions Submitted for the Record to Governor Bill Ritter
                 Questions Submitted by Rep. McClintock
    Question 1. Wildfires have gotten out of hand in California since 
our forest management fell on the wayside in the 1970s. We now lose 
over 2 million acres a year to wildfires. Colorado has a program called 
``Wildfire Partners''--it was funded locally and by the state until 
2019, when it received a FEMA grant.

    The public-private partnership has allowed for over 900 Coloradans 
in high-risk areas to purchase affordable homeowner's insurance after 
receiving professional help in mitigating against wildfire risk.

    The program does a thorough inspection of a residential property, 
walks the homeowner through exactly what to do to mitigate against 
wildfire risk, and then certifies the home afterwards so the homeowner 
can purchase affordable wildfire coverage. It's that simple.

    Governor Ritter, why has Wildfire Partners been such a success? Can 
this success be replicated in California?

    Answer.

Highlights

    <bullet> Since 2014 Wildfire Partners has completed wildfire risk 
            assessments of over 2,100 homes in Boulder County, and 
            provided risk mitigation certificates to 904.

    <bullet> The program is written into Boulder County's building 
            code, which requires all new homes built in the wildland 
            urban interface to take actions to mitigate wildfire risk. 
            If similar programs are implemented in California and 
            elsewhere, integrating risk mitigation programs into local 
            building codes and permitting will increase participation.

    <bullet> Following participation in the assessment phase, the 
            program covers up to 50 percent of mitigation costs (up to 
            $2,000) for eligible existing homeowners. This cost-share 
            opportunity increases participation and enhances equity in 
            hazard mitigation.

    <bullet> Individual home assessments like those completed through 
            the Wildfire Partners Program are most effective at 
            reducing risk in areas where homes are widely spaced; for 
            high density housing developments, assessment and 
            mitigation efforts should take place at the HOA or 
            neighborhood level.

    <bullet> The Wildfire Partners program is highly effective in large 
            part because it is locally based and participants trust the 
            local individuals performing assessments. State- or 
            federally-led efforts would likely be less successful, 
            however state and Federal dollars can support local efforts 
            like Wildfire Partners across the West, including in 
            California.

Program Overview and Potential for Replication

    Wildfire Partners is a nationally recognized model for wildfire 
mitigation that has successfully reduced wildfire risk for hundreds of 
homes in Boulder County, Colorado, and could be successfully replicated 
in other counties and states. Since its inception in 2014, over 2,117 
homes in Boulder County have participated in the program and 904 
homeowners have received risk mitigation certifications. This 
represents a significant proportion of the more than 6,000 homes 
located in the Boulder County wildland urban interface.\1\
---------------------------------------------------------------------------
    \1\ Note: This estimate is based on 2010 Census data compiled by 
Headwaters Economics, and counts homes on forested properties within 
500 m of National Forest as those in the wildland urban interface. This 
number likely underestimates the 2020 count. https://
headwaterseconomics.org/dataviz/wui-development-and-wildfire-costs/.
---------------------------------------------------------------------------
    The Wildfire Partners Program was recently put to the test in the 
Cold Springs Fire, which burned over 500 acres of forest near 
Nederland, Colorado in 2016. All eight of the Wildfire Partners-
mitigated homes within the burn area survived.
    The program is written into Boulder County's building code, which 
requires all new homes built in the wildland urban interface to 
complete and implement a Wildfire Mitigation Plan. The Wildfire 
Partners Program satisfies this requirement. When a homeowner signs up, 
a mitigation specialist performs a comprehensive wildfire risk 
assessment of the home ignition zone with the homeowner. They also 
discuss insurance and emergency preparedness. The assessment is 
scientifically based upon defensible space guidelines from the Colorado 
State Forest Service. Following the assessment, the specialist sends a 
comprehensive report to the homeowner recommending mitigation actions 
(e.g. removing specific trees; retrofitting homes and outbuildings with 
fire-safe materials; fire-resistant landscaping etc.).
    While newly built homes are not eligible for mitigation assistance 
awards, existing homeowners can obtain up to three quotes for 
mitigation work from local contractors and Wildfire Partners will cover 
50 percent of the total cost (not to exceed $2,000). Treating fuels in 
a 150-foot radius around a house typically costs less than $2,500 in 
Colorado. Once the landowner completes the actions deemed necessary by 
the assessment specialist, they receive a certificate from Boulder 
County that can be used as proof of mitigation for insurance purposes. 
Several insurance companies are currently accepting Wildfire Partners 
certificates to ensure homeowners can renew and/or obtain future 
coverage.
    The Wildfire Partners program is staffed by forestry and fire 
protection experts and advised by insurance companies, including 
Allstate, that have pledged to accept certificates earned by homeowners 
who complete work on their property. The program is funded by county 
money and about $2.6 million in state and Federal grants, including a 
$1.2 million grant through FEMA's Pre-Disaster Mitigation Grant Program 
awarded in 2019.
    Wildfire Partners' individual home certification model does not 
work in places where homes are packed tightly together. In those cases, 
it makes more sense for the entire development to implement concerted 
mitigation efforts. Such HOA or community-level programs may be 
necessary for communities in California and elsewhere with very high 
housing densities, and can be facilitated through the development of a 
Community Wildfire Protection Plan. Wildfire Partners' model is also 
most effective when implemented at the county or municipal level, 
because every community has unique conditions that would not be 
reflected in a state- or Federal-level program (though local efforts 
can still be supported by state and Federal funds). Local 
implementation also builds trust and increases public engagement.
Sources:

https://www.wildfirepartners.org/
https://headwaterseconomics.org/dataviz/wui-development-and-wildfire-
costs/
https://www.denverpost.com/2019/01/02/wildfire-risk-homeowners-
insurance/

                                 ______
                                 

    The Chairman. I now recognize Ms. Gleich for your 
testimony, please.

STATEMENT OF CAROLINE GLEICH, PROFESSIONAL SKI MOUNTAINEER AND 
 ADVENTURER, MEMBER, PROTECT OUR WINTERS, SALT LAKE CITY, UTAH

    Ms. Gleich. When I was 13 years old, I went to rehab. I was 
severely depressed and I struggled with anxiety. I turned to 
drugs and alcohol to self-medicate. I didn't think I would live 
until I was 30. I am 34 today. Right now I can say with 
confidence that the outdoors saved my life.
    Good morning, Chair Grijalva, Ranking Member Bishop, and 
members of the Committee, and thank you so much for having me 
here today. My name is Caroline Gleich, and I am a professional 
ski mountaineer from Park City, Utah. I am here today to 
testify in support of H.R. 5435, the American Public Lands and 
Waters Climate Solutions Act.
    In 2017, I became the first woman to ski a collection of 
the 90 steepest and most technical ski lines in the Wasatch 
Mountain Range in Utah called the Chuting Gallery. And last 
May, I successfully summited Mount Everest, 7 weeks after fully 
tearing my ACL. In my career, I have climbed and skied hundreds 
of mountains all over the world.
    I learned to manage my anxiety and depression through 
skiing and climbing on public lands. I am sure everyone in this 
room can relate to the experience of finding powerful healing 
in nature. These pursuits give my life purpose and meaning. My 
livelihood and my health depend on access to protected public 
lands and a stable climate. And right now both are at risk.
    Climate change is not a thing of the future. It is 
happening right now. In my home in Park City, Utah our 
historically light, fluffy powder snow is changing as 
temperatures warm to the extent that our state slogan, ``The 
Greatest Snow on Earth,'' may no longer hold true. The average 
amount of snow in the West has dropped 41 percent since the 
early 1980s. By 2090, projections indicate that Park City will 
lose all of its snowpack. Nationally, low snow years have a 
negative impact on jobs and the economy, costing us more than 
$1 billion and 17,400 jobs.
    We know that burning fossil fuels has increased the 
concentration of atmospheric carbon dioxide, causing our 
climate to change. It is also well established that burning 
fossil fuels releases pollutants that lead to respiratory 
disorders, stroke, asthma, missed days at work in school, and 
premature death.
    As a woman of childbearing age, I am particularly concerned 
about the link between exposure to air pollution and 
miscarriage. A recent study in Salt Lake City, Utah found that 
raised levels of nitrogen dioxide pollution increase the risk 
of losing a pregnancy by 16 percent. And guys, you are not off 
the hook, either. Studies show that exposure to air pollution 
decreases sperm count.
    Even more, exposure to air pollution is linked to worsening 
of psychiatric disorders in children, especially for disorders 
relating to anxiety and depression, disorders like the ones I 
struggled with as a kid. Forty-eight percent of Americans 
believe climate change is already impacting our mental health. 
Our public lands need to be a part of the solution, not a 
source of the problem. H.R. 5435 ensures that our public lands 
and waters reduce the effects of climate change, with clear 
steps to set binding emissions reduction goals. It gives land 
managers tools to proactively plan for how they will reach 
these goals.
    Additionally, I support the bill's provisions to give 
special funding to fossil fuel-dependent regions to be used for 
reclamation and restoration of land and water, transition 
assistance, worker retraining, and other purposes.
    Transitioning to a clean energy economy doesn't just create 
jobs. It actually improves public health. Eighty percent of 
voters say that health care is vital to their vote. Did we ever 
stop to consider what is making us sick in the first place? Our 
public lands are a crucial part of our Nation's healthcare 
plan. They are where we go to restore and revitalize ourselves, 
they create resilience. Studies show that simply being in 
nature can help lower depression, anxiety, inflammation, and 
reduce fatigue. They shouldn't be places where we extract 
fossil fuels that then pollute our air, water, and soil. For 
too long, the costs of fossil fuels have been externalized, and 
the public has had to pay.
    Now, we have a tendency as a society to compartmentalize 
public lands, climate, and health into separate boxes. But the 
truth is, they are all related. Humans need land to roam, clean 
air to breathe, and safe water to drink. When we become 
disconnected from nature, we become depressed. As someone who 
depends on America's public lands for my career and health, I 
am grateful for the opportunity to share my story of finding 
hope through the outdoors.
    Supporting H.R. 5435 will ensure our treasured wild places 
do not contribute to the worsening of our climate and, in turn, 
our health. As an adult, I have learned how to live without 
being dependent on drugs and alcohol by finding healing in 
nature and building a life outdoors. Just like I learned to 
combat my addiction, so too can our country learn to thrive 
without our dangerous addiction to fossil fuels.

    Thank you.

    [The prepared statement of Ms. Gleich follows:]
 Prepared Statement of Caroline Gleich, Professional Ski Mountaineer, 
     Adventurer and Climate Activist; Founder, Big Mountain Dreams 
              Foundation; and Member, Protect Our Winters
    When I was 13 years old, I went to rehab. I was severely depressed 
and I struggled with anxiety. I turned to drugs and alcohol to self-
medicate. I didn't think I'd live until I was 30. I'm 34 now. Today, I 
can say with confidence that the outdoors saved me.
    Chairman Grijalva, Ranking Member Bishop, and members of the 
Committee, thank you for inviting me to talk about the urgent threat of 
climate change. My name is Caroline Gleich. I am a professional ski 
mountaineer, adventure athlete, and climate activist from Park City, 
UT. I am here today as a part of the $887 billion outdoor industry, 
which supports 7.6 million American jobs (including mine) \1\ to 
testify in support of H.R. 5435, the American Public Lands and Waters 
Climate Solution Act.
---------------------------------------------------------------------------
    \1\ https://outdoorindustry.org/advocacy/.
---------------------------------------------------------------------------
    When I was 18, I began pursuing a childhood dream of becoming a 
professional skier and outdoor adventure athlete. A decade and a half 
later, I'm able to make my living as a pro skier, climbing up mountains 
to ski down, working with sponsors and media to tell stories through 
photos, videos, and writing. I've been on the cover of magazines 
including Powder, Ski, and Backcountry. I've skied in Warren Miller 
films. In 2017, I became the first woman to ski a collection of the 
steepest and most technical backcountry ski runs in the Wasatch 
Mountain Range in Utah called the Chuting Gallery, which was documented 
in a short film called ``Follow Through.'' And last May, I climbed Mt. 
Everest, 7 weeks after fully tearing my anterior cruciate ligament, or 
ACL, one of the four major stabilizing ligaments in the knee.
    In my career, I've climbed and skied hundreds of mountains all over 
the world, in the Alps, Andes, Himalayas, Canadian Rockies, and the 
Alaska Range. I have seen some of the most remote glaciers and stunning 
alpine areas in the world.
    My goal with my career is to inspire people to get outside, live a 
healthy active lifestyle, and protect the places where we love to play. 
In building my career in the mountains, I've always used my platform as 
an athlete to speak about social and environmental issues. In 2010, I 
was at a pivotal moment in my career. I had to decide whether to pursue 
academics after finishing my undergraduate degree at the University of 
Utah or pursue a career as a professional skier and focus on my sport.
    During my last undergraduate semester, I did a political internship 
for Governor Gary Herbert's Environmental Adviser, Ted Wilson, at the 
Utah State Capitol. I learned a great deal about Utah's energy policy, 
and I learned how much of Utah's energy production came from coal and 
fossil fuels. I was astounded that with Utah's abundance of sunshine 
and wind, the Governor's 10-year energy plan didn't embrace more 
renewable energy production. At the end of the semester, I wrote a 
paper critiquing the Governor's Energy Policy that was published in the 
Hinckley Journal.
    As I grew up through my late teens and early twenties, I learned to 
manage my anxiety and depression through skiing and climbing on public 
lands. These pursuits have given my life purpose and meaning. My 
livelihood and health depend on access to protected public lands and a 
stable climate.

    Right now, both are at risk.

    Climate change is not a thing of the future--it's happening now. 
Having spent my lifetime exploring mountain environments, I've 
experienced warming winters and a diminishing snowpack. As an alpinist, 
I spend a lot of time climbing glaciers and ice. I've been on 
expeditions where I sit in my tent and listen to the constant, 
deafening sound of icefall around me. Increased temperatures are 
melting away both my sport and my livelihood.
    In my home in Park City, UT, I've seen unseasonal rain events in 
January and February. Our historically light, fluffy powder is changing 
as temperatures warm to the extent that our state's slogan--the 
Greatest Snow on Earth--may no longer hold true. The average amount of 
snow in the West has dropped by 41 percent since the early 1980s, and 
the snow season has shrunk by 34 days.\2\ Projections indicate that by 
2090, Park City will lose all of its snowpack.\3\
---------------------------------------------------------------------------
    \2\ https://www.sciencedaily.com/releases/2018/12/181212093320.htm.
    \3\ https://www.nrdc.org/sites/default/files/climate-impacts-
winter-tourism-report.pdf.
---------------------------------------------------------------------------
    Low-snow years have a negative impact on jobs and the economy, 
costing our country more than $1 billion and 17,400 jobs compared to an 
average season.\4\ In Park City alone, economic modeling shows that the 
projected decrease in snowpack is estimated to result in $120 million 
in lost output by 2030.\5\ More American jobs (695,900) come from 
spending on snow sports than from the extractive industries 
(627,900).\6\
---------------------------------------------------------------------------
    \4\ https://gzg764m8l73gtwxg366onn13-wpengine.netdna-ssl.com/wp-
content/themes/pow/img/POW-2018-economic-report.pdf.
    \5\ http://www.parkcitygreen.org/Community/Community-Footprint/SOS-
ClimateStudy.aspx.
    \6\ https://outdoorindustry.org/wp-content/uploads/2017/04/
OIA_RecEconomy_FINAL_Single.pdf.
---------------------------------------------------------------------------
    Last spring, I went to the Himalayas in Tibet to attempt to climb 
Mt. Everest, a lifelong goal that I spent a decade training for. You 
might have seen pictures of the crowds on Everest this year. What the 
headlines didn't mention is the role climate change played. Research 
shows that a warming Arctic creates a smaller temperature gradient that 
affects the jet stream, which normally creates a 7-10 day window for 
climbers to summit.\7\ This year, the window was only 2 days long. With 
the congestion, by the end of the stretch, 11 climbers lost their 
lives.
---------------------------------------------------------------------------
    \7\ https://www.nationalgeographic.com/environment/weather/
reference/jet-stream/.
---------------------------------------------------------------------------
    In the Himalayas, air temperatures have already risen by 2 degrees 
Fahrenheit since the start of the 20th century \8\ causing permafrost 
and glaciers to melt, which then affects the drinking water of 800 
million people.\9\
---------------------------------------------------------------------------
    \8\ https://www.ncbi.nlm.nih.gov/pmc/articles/PMC3352921/.
    \9\ https://www.nature.com/articles/s41586-019-1240-
1.epdf?referrer_access_token=AX7JLWpId SHK9NI0-
GlGLtRgN0jAjWel9jnR3ZoTv0NYNeas1Y6jkcfWY1O41-z3Uq060cO_-_2HJwlv3VRbVT 
6_eMJfcJJmaUCRBmRkvDPH8E391wJrb447sb8G2997zhSegcTNYf3N6ZT96-U6hJH-
6_hg7cCYJ 
19ZouRpM9c9OdeWXX6ZKzjQDfXP7BxqhLsRP2613v1OLRUeYHFlts6PkTnvX3Rf7YIYP5RFs
- CwGi8HP5ZH-O2XknSnuJFJDpjovkMMZuigO5c_W1rXUI9R8IHUZso7fWmavCB74Gc%3D& 
tracking_referrer=www.sciencenews.org.

---------------------------------------------------------------------------
    To make matters worse, as glaciers melt, sea levels rise.

    We know that burning fossil fuels has increased the concentration 
of atmospheric carbon dioxide, causing our climate to change.\10\ 
Taking action on climate and protecting public lands is a much bigger 
issue than my personal happiness. It's well established that burning 
fossil fuels releases pollutants that lead to respiratory disorders, 
stroke, asthma, missed days at work and school, and premature death. 
There is also evidence that poor air quality created by burning fossil 
fuels is related to autism and Alzheimer's.\11\
---------------------------------------------------------------------------
    \10\ https://climate.nasa.gov/causes/.
    \11\ https://www.hsph.harvard.edu/c-change/subtopics/fossil-fuels-
health/.
---------------------------------------------------------------------------
    Of particular concern to me, as a woman of child-bearing age, is 
the link between exposure to air pollution and miscarriage. A recent 
study conducted in Salt Lake City, UT, found that raised levels of 
nitrogen dioxide pollution, produced from burning fossil fuels, 
increased the risk of losing a pregnancy by 16 percent.\12\ We need to 
do everything we can to protect our children during each stage of life. 
Not surprisingly, spending time in natural spaces reduces the risk of 
preterm birth \13\ while also improving quality of life and mental 
health.
---------------------------------------------------------------------------
    \12\ https://www.theguardian.com/environment/2019/jan/11/air-
pollution-as-bad-as-smoking-in-increasing-risk-of-miscarriage.
    \13\ https://www.sciencedaily.com/releases/2018/07/
180706102842.htm.
---------------------------------------------------------------------------
    According to the American Psychiatric Association, 48 percent of 
Americans believe climate change is already harming our mental 
health.\14\ Forty million adults in the United States are suffering 
from anxiety disorders \15\ and one in six Americans take a psychiatric 
drug, with antidepressants being the most common.\16\ Exposure to air 
pollution is linked to worsening of psychiatric disorders in children, 
especially disorders related to anxiety and depression \17\--disorders 
like the ones I struggled with as a kid.
---------------------------------------------------------------------------
    \14\ https://www.psychiatry.org/patients-families/climate-change-
and-mental-health-connections/affects-on-mental-health.
    \15\ https://adaa.org/understanding-anxiety.
    \16\ https://www.scientificamerican.com/article/1-in-6-americans-
takes-a-psychiatric-drug/.
    \17\ https://www.sciencedaily.com/releases/2019/09/
190925075731.htm.
---------------------------------------------------------------------------
    As psychiatric disorders spike, so does the rate of suicide. 
Suicide is now the leading cause of death for Utahan's aged 10-17.\18\
---------------------------------------------------------------------------
    \18\ https://health.utah.gov/vipp/pdf/Suicide/youth-suicide-
factsheet-12-14.pdf.
---------------------------------------------------------------------------
    Our public lands are a crucial part of our Nation's healthcare 
plan. They are where we go to restore and revitalize ourselves. They 
create resilience and studies show that simply being in nature can help 
lower depression, anxiety, and inflammation.\19\ Public lands shouldn't 
be places where we extract fossil fuels that then pollute our air, 
water, and soil. They should be places where we go to feel alive, 
connected, and free. For too long, the costs of fossil fuels have been 
externalized and the public has had to pay the price.
---------------------------------------------------------------------------
    \19\ https://www.health.harvard.edu/mind-and-mood/sour-mood-
getting-you-down-get-back-to-nature.
---------------------------------------------------------------------------
    Our public lands need to be a part of the solution, not a source of 
the problem. H.R. 5435 ensures that our public lands and waters reduce 
the effects of climate change with clear steps to set binding emissions 
reductions goals. It gives land managers tools to proactively plan for 
how they will reach these goals. I appreciate that H.R. 5435 includes a 
pause on new Federal fossil fuel leasing to allow the Department of the 
Interior to develop a comprehensive emission reduction strategy.
    I first became aware of the link between public lands and climate 
change at a Federal hearing about coal leasing on public lands in 2016. 
I was shocked to learn that 40 percent of coal in the United States 
comes from public lands,\20\ leasing them for pennies on the dollar. 
Meanwhile, the true costs were externalized to the public, who then had 
to deal with the health risks.
---------------------------------------------------------------------------
    \20\ https://www.nytimes.com/2017/08/06/us/politics/under-trump-
coal-mining-gets-new-life-on-us-lands.html.
---------------------------------------------------------------------------
    At that hearing, I met Brandon and Mike, two young men from Carbon 
County, Utah who, like their fathers and grandfathers, made their 
living as coal miners. Whenever I speak at a hearing, I enjoy hearing 
all the different perspectives on an issue. As we chatted during a 
break, they were fascinated to hear about my job as a skier. We had a 
wonderful exchange and at the end, they told me that they did not like 
working in the mines. It was dangerous, and they admitted they would 
take jobs installing rooftop solar if they were available.
    Because of that exchange, I am especially supportive of the bill's 
provisions to give special funding to fossil fuel-dependent regions to 
be used for reclamation and restoration of land and water, transition 
assistance, worker re-training, and other purposes.
    Transitioning to a clean energy economy doesn't just create jobs. 
It improves public health. And with 80 percent of voters saying that 
health care is the most important issue for their vote,\21\ it's time 
we stop and ask ourselves what's really making us sick in the first 
place.
---------------------------------------------------------------------------
    \21\ https://news.gallup.com/poll/244367/top-issues-voters-
healthcare-economy-immigration.aspx.
---------------------------------------------------------------------------
    We have a tendency as a society to compartmentalize public lands, 
climate change, and health into separate boxes, but the truth is, they 
are all related. Living close to nature has wide-ranging health 
benefits and creating better access to nature will create stronger, 
wealthier communities.\22\ Humans need land to roam, clean air to 
breathe, and safe water to drink. When we become disconnected from 
nature, we become depressed.
---------------------------------------------------------------------------
    \22\ https://www.sciencedaily.com/releases/2018/07/
180706102842.htm.
---------------------------------------------------------------------------
    As someone who depends on America's public lands for my career and 
health, I'm grateful for the opportunity to share my story of finding 
hope through the outdoors. Supporting H.R. 5435 will ensure our 
treasured wild places do not contribute to the worsening of our 
climate, and in turn, our health. Clean air, clean water, and access to 
the outdoors are basic human rights. It's time we do everything we can 
to ensure more Americans have access to them, and our public lands are 
the place to start.
    As an adult, I learned how to live without being dependent on drugs 
and alcohol by finding healing in nature and a life outdoors. Instead 
of reaching for a pill or a drink, I have now developed healthier 
coping strategies. Just like I learned to combat my addiction, so too 
can our country learn to thrive without our dangerous dependence on 
fossil fuels.

                                 ______
                                 

    The Chairman. Thank you very much.
    Let me now recognize Mr. Walsh for your testimony, sir.

    STATEMENT OF JASON WALSH, EXECUTIVE DIRECTOR, BLUEGREEN 
                    ALLIANCE, WASHINGTON, DC

    Mr. Walsh. Thank you, Chairman Grijalva, Ranking Member 
Bishop, and distinguished members of the Committee. My name is 
Jason Walsh. I am the Executive Director of the BlueGreen 
Alliance, a national partnership of labor unions and 
environmental organizations. On behalf of my organization, our 
partners, and the millions of members and supporters they 
represent, I want to thank you for convening this hearing today 
on how we make our public lands part of a climate solution.
    Our Nation faces a crisis of climate change, but it also 
faces a crisis of increasing economic inequality. These dual 
crises are inextricably linked, as are their solutions. That is 
why this past summer, the BlueGreen Alliance and our labor and 
environmental partners released Solidarity for Climate Action. 
It is an ambitious concrete platform to address both of these 
crises simultaneously.
    Limiting climate change to the extent required by science 
will, according to the Intergovernmental Panel on Climate 
Change, ``require rapid, far reaching, and unprecedented 
changes in all aspects of society, and could go hand in hand 
with ensuring a more sustainable and equitable society.'' This 
transformation must happen at the speed and scale demanded by 
scientific reality and the urgent need of our communities. If 
we do it right, we cannot only avoid the worst impacts of 
climate change, but also create quality, family-sustaining jobs 
and a more equitable society. Realizing these goals and getting 
to our carbon reduction targets is going to be challenging, but 
they are achievable, and public lands will play an essential 
role in achieving them.
    We greatly appreciate this Committee's efforts to craft a 
bill that makes public lands a key climate solution. Our public 
lands have a critical role to play in carbon sequestration, in 
climate resilience, and in climate mitigation. Investment in 
our public lands could remove up to 21 percent of the current 
annual greenhouse gas emissions of the United States from the 
atmosphere.
    Natural infrastructure, responsible resource development, 
and reclamation are just a few of the ways public lands could 
contribute to achieving our climate goals. I would like to talk 
about each of these needed investments.
    First, the protection and restoration of natural 
infrastructure like watersheds, floodplains, and coastal 
barriers is vital to tackling climate change and creating jobs. 
Our parks and recreation facilities received a 
``D<SUP>+</SUP>'' grade from the American Society of Civil 
Engineers. Getting these facilities to a ``B'' grade over the 
next 10 years would support or create an estimated 632,000 job 
years across the U.S. economy.
    Second, to meet our climate goals we need to expand 
America's clean energy sources. Development of wind and solar 
on public lands and waters has great potential to create jobs, 
while moving us toward the clean energy future needed to combat 
climate change. Offshore wind expansion is a demonstrable and 
very current example of this potential.
    Finally, cleaning up abandoned mines and orphaned oil and 
gas wells can put people to work, remediating a host of 
environmental and public health problems, and also free up that 
land for new economic development opportunities.
    These kind of strategic investments in natural 
infrastructure, in clean energy development, and in reclamation 
can ensure our public lands help us achieve our climate goals. 
And they must go hand in hand with measures to ensure these 
jobs are quality jobs, and that the workers and communities 
impacted have the tools and resources they need to make the 
shift to a clean energy economy.
    America is already in the middle of an energy transition, 
as Governor Ritter pointed out. We need to have a conversation 
about getting ahead of this transition, and we need to do this 
now. We must diversify local and regional economies, and create 
and sustain quality economic opportunities. This includes 
increasing union density, providing a bridge of transition 
assistance for workers, and economic development assistance for 
communities.
    In closing, I want to reiterate that tackling the crisis of 
climate change, if done right, is a significant opportunity to 
build a stronger and fairer economy, protect our environment, 
and create quality family-sustaining jobs across our economy. 
Given the scale of the problem, numerous solutions will be 
needed, and public lands will have a key role to play.
    Thank you again for the opportunity to testify today.

    [The prepared statement of Mr. Walsh follows:]
   Prepared Statement of Jason Walsh, Executive Director, BlueGreen 
                                Alliance
    Thank you Chairman Grijalva, Ranking Member Bishop, and 
distinguished members of the Committee. My name is Jason Walsh, and I 
am the Executive Director of the BlueGreen Alliance, a national 
partnership of labor unions and environmental organizations. On behalf 
of my organization, our partners, and the millions of members and 
supporters they represent, I want to thank you for convening this 
hearing today on how we can make public lands part of a climate 
solution.
    Our Nation faces the dual crises of climate change and increasing 
economic inequality. These crises are inextricably linked--as are their 
solutions. That's why this past summer, the BlueGreen Alliance, 
alongside our labor and environmental partners, released Solidarity for 
Climate Action, an ambitious, concrete platform to address these crises 
simultaneously, fighting climate change, reducing pollution, and 
creating and maintaining good-paying, union jobs across the Nation.\1\ 
We need to plan for the future and American workers must be at the 
forefront of that discussion.
---------------------------------------------------------------------------
    \1\ BlueGreen Alliance, ``Solidarity for Climate Action,'' June 
2019. Available online: https://www.bluegreenalliance.org/work-issue/
solidarity-for-climate-action/.
---------------------------------------------------------------------------
    Limiting climate change to the extent required by science will, 
according to the Intergovernmental Panel on Climate Change (IPCC), 
``require rapid, far-reaching and unprecedented changes in all aspects 
of society,'' and ``could go hand in hand with ensuring a more 
sustainable and equitable society.'' \2\ This transformation must 
happen at the speed and scale demanded by scientific reality and the 
urgent need of our communities. If we do it right, we cannot only avoid 
the worst impacts of climate change, but create quality, family-
sustaining jobs and ensure a more equitable society.
---------------------------------------------------------------------------
    \2\ IPCC, ``Summary for Policymakers of IPCC Special Report on 
Global Warming of 1.5+C approved by Governments,''   October 8, 2018.    
 Available online: https: / / www.ipcc.ch / 2018 / 10 / 08 / summary-
forpolicymakers-of-ipcc-special-report-on-global-warming-of-1-5c-
approved-by-governments/.
---------------------------------------------------------------------------
    Achieving these goals and getting to our carbon reduction targets 
is going to be challenging but they are achievable, and public lands 
will play a critical role in achieving them.
    One key strategy for tackling both climate change and the 
challenges of working people is robust investment in our public lands 
through natural infrastructure. Natural infrastructure involves the 
management of naturally occurring or naturalized landscapes to maximize 
ecosystem services for the purposes of water quality, flooding 
prevention, carbon sequestration, and climate resilience. On public 
lands, this includes addressing the public lands maintenance backlog, 
recovering America's wildlife, restoring forests and wildlands, 
reclaiming mines and wells, and improving climate resilience through 
natural defenses that act as carbon sinks. We appreciate the 
Committee's efforts to craft a technology-inclusive bill that makes 
public lands a key part of a climate solution.
           the role of public lands in meeting climate goals
    Our public lands have a critical role to play in carbon 
sequestration, and in climate resilience and mitigation. Public lands 
already capture 4 percent of all U.S. emissions,\3\ and investments in 
natural infrastructure, responsible resource development, and 
reclamation are just a few of the ways public lands could contribute to 
achieving our climate goals. Investment in these natural systems--such 
as forest and wetlands restoration, better rangeland management, and 
restorative agriculture--could remove up to 21 percent of the current 
annual emissions of the United States from the atmosphere.\4\
---------------------------------------------------------------------------
    \3\ U.S. Geological Survey, Federal Lands Greenhouse Gas Emissions 
and Sequestration in the United States: Estimates for 2005-14, November 
2018. Available online: https://pubs.usgs.gov/sir/2018/5131/
sir20185131.pdf.
    \4\ Science Magazine, ``Natural climate solutions for the United 
States,'' November, 14 2018. Available online: https://
advances.sciencemag.org/content/4/11/eaat1869.
---------------------------------------------------------------------------
    Public lands and waters provide carbon benefits while also 
providing other important benefits like clean water, flood control, 
outdoor recreation opportunities, and wildlife habitat. For example, 
forests and grasslands play a major role in the carbon cycle, acting as 
carbon sinks through the uptake and storage of carbon. National forests 
store an average of 69.4 metric tons of carbon per acre--a greater 
density than private forests \5\ and equivalent to seven times annual 
U.S. emissions.\6\ These areas, along with grasslands and other open 
space, also play a large role in our Nation's water quality--the water 
supply of 180 million Americans is captured and filtered by national 
forests and grasslands.\7\
---------------------------------------------------------------------------
    \5\ U.S. Department of the Interior, U.S. Forests and Carbon, 2010. 
Available online: https://www.fia.fs.fed.us/forestcarbon/docs/
forest%20carbon%20fact%20sheet%2020101012.doc.
    \6\ Sierra Club, Forests, Wood, and Climate Report. July 2019. 
Available online: https://content.sierraclub.org / ourwildamerica / 
sites / content.sierraclub.org.ourwildamerica / files /documents/
Forests%2C%20Wood%20%26%20Climate%20Report_Sierra%20Club_July%202019. 
pdf?_ga=2.175164322.1625138360.1581451388-1946256526.1580745540.
    \7\ American Society of Civil Engineers, Infrastructure Report 
Card: Public Parks, 2017.'' Available online: http://
www.infrastructurereportcard.org/wp-content/uploads/2017/01/Parks-
Final.pdf.
---------------------------------------------------------------------------
    America's public lands are noteworthy not just for their 
environmental importance. They are also an engine of sustainable 
economic growth and job creation to the Nation. In 2018, there were 
over 318 million visits to national parks.\8\ These visitors play a 
huge role in local and national economies, contributing to both local 
jobs near park facilities as well as the broader outdoor recreation 
economy. The outdoor economy is an $887 billion industry in the United 
States--responsible for 7.6 million jobs--as well as $65.3 billion in 
Federal and $59.2 billion in state and local tax revenue.\9\ According 
to the National Park Service (NPS), in 2018 park visitors spent $20.2 
billion within 60 miles of NPS lands, supporting 329,000 jobs in rural 
gateway communities.\10\ Similarly, activity on Forest Service lands 
supports more than 205,000 jobs with $11 billion in local economic 
impact.\11\ One of the fastest growing parts of the U.S. economy, these 
levels of economic activity and jobs are only possible through the 
maintenance of healthy public land and water ecosystems.\12\
---------------------------------------------------------------------------
    \8\ National Park Service, ``Visitation Numbers,'' 2018. Available 
online: https://www.nps.gov/aboutus/visitation-numbers.htm.
    \9\ Outdoor Industry Association, The Outdoor Recreation Economy, 
2017. Available online: https://outdoorindustry.org/wp-content/uploads/
2017/04/OIA_RecEconomy_FINAL_Single.pdf.
    \10\ National Park Service, 2018 Visitor Spending Report: Economic 
Contributions to Local Communities, States, and the Nation, 2018, 
Available online: https://www.nps.gov/nature/customcf/
NPS_Data_Visualization/docs/NPS_2018_Visitor_Spending_Effects.pdf.
    \11\ American Society of Civil Engineers, Infrastructure Report 
Card: Parks, 2017. Available online: http://
www.infrastructurereportcard.org/wp-content/uploads/2017/01/Parks-
Final.pdf.
    \12\ U.S. Department of Commerce Bureau of Economic Analysis, 
``Outdoor Recreation Economy Grew Faster Than U.S. Economy in 2016,'' 
2018. https://www.bea.gov/news/blog/2018-09-20/outdoor-recreation-grew-
faster-us-economy-2016.
---------------------------------------------------------------------------
    invest in natural infrastructure for resilient communities and 
                               ecosystems
    Healthy ecosystems are also a key component in building resilient 
human communities that can adapt to the impacts of climate change. One 
important strategy for making communities more resilient to climate 
change is the protection and restoration of natural infrastructure like 
watersheds, floodplains, and coastal barriers. Importantly, coastal 
ecosystems shield people and property from sea-level rise and storm 
inundation.\13\ This natural infrastructure provides services like 
water storage and filtration, fisheries production, and carbon 
sequestration worth an estimated $125 trillion per year globally--
significantly more than the annual output of the global economy.\14\ 
The domestic ecological restoration industry--a broad sector including 
jobs from project planning and engineering, to on-the-ground 
earthmoving, forestry, and landscaping--employs 126,000 workers and 
generates approximately $9.5 billion in economic output annually.\15\ 
Research shows that each dollar invested has a $15 return in economic 
benefits.\16\
---------------------------------------------------------------------------
    \13\ Nature, ``Coastal habitats shield people and property from 
sea-level rise and storms.'' 2013. Available online: https://doi.org/
10.1038/nclimate1944.
    \14\ Robert Costanza, et al, Changes in the Global Value of 
Ecosystem Services, April 2014. Available online: http://community-
wealth.org/sites/clone.community-wealth.org/files/downloads/article-
costanza-et-al.pdf.
    \15\ Todd BenDor, et al, Estimating the Size and Impact of the 
Ecological Restoration Economy, 2015. Available online: https://
doi.org/10.1371/journal.pone.0128339.
    \16\ Center for American Progress, The Economic Benefits of 
Restoring Coastal Ecosystems, April 2014. Available online: https://
cdn.americanprogress.org/wp-content/uploads/2014/04/Coastal 
Restoration-factsheet.pdf.
---------------------------------------------------------------------------
    Because of the health, ecological, and economic benefits of natural 
infrastructure approaches, cities across the country, including 
Seattle, Chicago, New York City, Philadelphia, and Nashville have 
embraced these techniques as part of their stormwater infrastructure 
programs.\17\ In Nashville, a citywide natural infrastructure plan 
identified potential runoff reductions of 3.5 billion gallons of water 
a year--a huge improvement for an area that annually sees 756 million 
gallons of sewer overflow into surrounding rivers and streams. The city 
is currently implementing projects on a public high school, farmers' 
market, neighborhood street right-of-way, and high-rise public housing 
for seniors, parks facility and a public works complex, with estimated 
runoff reductions ranging from 340,000 to over 6 million gallons a 
year.\18\ If a full array of natural infrastructure techniques were 
adopted nationwide for new construction projects over an acre in size, 
the job creation potential is estimated at 84,000 direct, indirect, and 
induced jobs created and supported throughout the U.S. economy per 
year.\19\
---------------------------------------------------------------------------
    \17\ Natural Resources Defense Council, Rooftops to Rivers II: 
Green Strategies for Controlling Stormwater and Combined Sewer 
Overflows 2013 Update, 2013. Available online: http://
www.laondaverde.org/water/pollution/rooftopsii/files/
rooftopstoriversII-update.pdf.
    \18\ American Society of Landscape Architects, 2013 Professional 
Awards: Green Infrastructure Master Plan, 2013. Available online: 
https://www.asla.org/2013awards/410.html.
    \19\ BlueGreen Alliance, Making the Grade 2.0: Investing in 
America's Infrastructure to Create High-Quality Jobs and Protect the 
Environment. Available online: https://www.bluegreen alliance.org/
resources.
---------------------------------------------------------------------------
    These investments are also supporting local economies by creating 
jobs. Natural infrastructure, like all water infrastructure, must be 
installed and maintained correctly to be effective. Skilled workers are 
needed to ensure the installation and construction of natural 
infrastructure projects are effective and maintain water quality 
standards. In addition, natural infrastructure, along with traditional 
water systems, requires routine maintenance and upkeep to function 
optimally, thus sustaining job creation and employment 
opportunities.\20\ All of these investments can reduce air and water 
pollution--including the emissions driving climate change--and make our 
communities more resilient to the impacts of climate change.
---------------------------------------------------------------------------
    \20\ BlueGreen Alliance, Clean Water, Good Jobs, 2012. Available 
online: https://www.bluegreenalliance.org/resources/httpwww-
bluegreenalliance-orgnewspublicationsclean-water-good-jobs/.
---------------------------------------------------------------------------
    Despite the role that public lands play in our Nation's economic 
and environmental well-being, governing agencies at all levels are 
challenged to support these resources and our parks and recreation 
facilities receiving a ``D+'' grade from the American Society of Civil 
Engineers.\21\ Getting our parks and recreation facilities to a ``B'' 
grade over the next 10 years could support or create an estimated 
632,000 job-years across the U.S. economy.\22\
---------------------------------------------------------------------------
    \21\ American Society of Civil Engineers, 2017 Report Card for 
America's Infrastructure, 2017. Available online: http://
www.infrastructurereportcard.org/.
    \22\ BlueGreen Alliance, Making the Grade 2.0: Investing in 
America's Infrastructure to Create High-Quality Jobs and Protect the 
Environment. Available online: https://www.bluegreenalliance.org/
resources/making-the-grade-2-0-investing-in-americas-infrastructure-to-
create-quality-jobs-and-protect-the-environment/.
---------------------------------------------------------------------------
    Across the country, cities and localities have increasingly been 
faced with declining state and Federal funding for parks. Chronic 
underfunding of National Park Service budgets has led to an $11.9 
billion backlog of deferred maintenance at NPS sites and the United 
States Forest Service--which manages a vast series of national forests, 
grasslands, and other natural areas--also has a significant deferred 
maintenance backlog of $5.1 billion. These deficiencies present huge 
challenges to the agencies responsible for our public lands, and are 
only worsening as visitation remains high.\23\ Bills that have moved 
through this Committee could help remedy this situation. The Restore 
our Parks and Public Lands Act (H.R. 1225) and the Land and Water 
Conservation Fund Permanent Funding Act (H.R. 3195) would boost local 
economies while protecting public lands.
---------------------------------------------------------------------------
    \23\ American Society of Civil Engineers, Infrastructure Report 
Card: Public Parks, 2017. Available online: http://
www.infrastructurereportcard.org/wp-content/uploads/2017/01/Parks-
Final.pdf.
---------------------------------------------------------------------------
             responsible energy development on public lands
    In order to meet our climate goals, we need to expand America's 
clean energy sources. However, the U.S. Geological Survey estimates 
that current resource development on public lands currently accounts 
for 25 percent of our country's emissions.\24\ Development of wind and 
solar on public lands and waters has great potential to create jobs 
while moving us toward the clean energy future needed to combat climate 
change. The expansion of offshore wind is a demonstrable example of 
this principle.
---------------------------------------------------------------------------
    \24\ U.S. Geological Survey, Federal Lands Greenhouse Gas Emissions 
and Sequestration in the United States: Estimates for 2005-14, November 
2018. Available online: https://pubs.usgs.gov/sir/2018/5131/
sir20185131.pdf.
---------------------------------------------------------------------------
    America's first offshore wind project at Block Island is a great 
model of this potential. This project was the result of years of 
collaboration between labor, environmental organizations, industry, and 
key government officials and entities. Its five turbines began 
generating power off the coast of Rhode Island at the end of 2016. They 
produce enough clean, local energy to power 17,000 homes.\25\ Recently, 
Atlantic coast states have ramped up their interest in building out 
their offshore wind capacities. More and more state governments have 
begun passing laws to mandate the development of offshore wind. For 
example, Massachusetts has set a goal of 1,600 MW by 2027; \26\ New 
York has mandated 9,000 MW by 2035; \27\ New Jersey requires 3,500 MW 
by 2030; \28\ and Rhode Island \29\ and Connecticut \30\ have also set 
similar (though smaller) commitments.
---------------------------------------------------------------------------
    \25\ Deepwater Wind, ``Block Island Wind Farm.'' Available online: 
http://www.dwwind.com/project/blockisland-wind-farm/.
    \26\ 4 State of Massachusetts, ``Offshore Wind.'' Available online: 
https://www.mass.gov/servicedetails/offshore-wind.
    \27\ 5 New York State Energy Research and Development Authority, 
``Getting to 2035.'' Available online: https://www.nyserda.ny.gov/All-
Programs/Programs/Offshore-Wind/Offshore-Wind-in-New-York-
StateOverview/Getting-to-2035.
    \28\ State of New Jersey Department of Environmental Protection, 
Air Quality, Energy & Sustainability. ``Offshore Wind.'' Available 
online: https://www.nj.gov/dep/aqes/offshorewind.html.
    \29\ 7 State of Rhode Island Office of Energy Resources, 
``Governor's 1,000 by '20 Clean Energy Goal.'' Available online: http:/
/www.energy.ri.gov/renewable-energy/governor-clean-energy-goal.php.
    \30\ 8 State of Connecticut Department of Energy & Environmental 
Protection, ``Gov. Malloy and DEEP Announce Selection of 250 MW of 
Renewable Energy Projects,'' June 13, 2018. Available online: https://
www.ct.gov/deep/cwp/view.asp?A=4965&Q=603300.
---------------------------------------------------------------------------
    Though comparatively small, Block Island demonstrates the type of 
diverse, highly skilled workforce needed in the offshore wind industry. 
The project put more than 300 people to work and employed electricians, 
welders, ironworkers, pipefitters, pile drivers, engineers, scientists, 
vessel operators, lawyers, and sales representatives. America's 
offshore wind industry is growing dramatically and now has even larger 
projects in development in states like Connecticut, Maryland, 
Massachusetts, New Jersey, New York, and Rhode Island. This committed 
development has the potential to dramatically expand both clean energy 
and job creation in a relatively untapped sector.
    In order to truly capture the full benefits and potential of these 
projects, it is critical that they are built by skilled workers who are 
paid family-sustaining wages, with project labor agreements in place, 
and with materials manufactured here in the United States. As the 
industry grows, sourcing components domestically represents a 
significant opportunity to help revitalize American manufacturing. The 
Special Initiative for Offshore Wind's recent white paper predicts an 
almost $70 billion buildout of U.S. offshore wind supply chain by 
calculating growth in a number of sectors, which include wind turbines 
and towers; turbine and substation foundations; upland, export, and 
array cables; onshore and offshore substations; and marine support, 
insurance, and project management.\31\
---------------------------------------------------------------------------
    \31\ Stephanie A. McClellan, Supply Chain Contracting Forecast for 
U.S. Offshore Wind Power, March 2019. Available online: https://
www.ceoe.udel.edu/File%20Library/About/SIOW/SIOW-White-
Paper_SupplyChain-Contracting-Forecast-for-US-Offshore-Wind-Power-
FINAL.pdf.
---------------------------------------------------------------------------
    Responsible production, transparent and fair leasing decisions, and 
strong protections for the environment are crucial for any energy 
development on U.S. public lands and waters. We therefore support the 
development of science-based best management practices for renewable 
energy development. We should also consider smart ways to address 
issues with existing energy development. For example, many of the 
Bureau of Land Management's (BLM) fiscal and leasing policies 
regulating oil and gas drilling requirements on public lands are 
outdated. These policies carry negative implications for the U.S. 
taxpayer, costing revenue generation from leases, stifling reclamation 
efforts, and allowing the release of methane--a greenhouse gas roughly 
80 times more powerful than carbon dioxide. Modernization of leasing, 
bonding, and fiscal policies would ensure fair returns for taxpayers, 
and protect workers and communities from the pollution and dangerous 
compounds--such as the carcinogen benzene--that accompanies unnecessary 
leaks.\32\
---------------------------------------------------------------------------
    \32\ Environmental Defense Fund, ``Methane Pollution from the Oil & 
Gas Industry Harms Public Health.'' Available online: https://
www.edf.org/sites/default/files/content/methane_rule_ 
health_fact_sheet_reboot_final_no_citations.pdf.
---------------------------------------------------------------------------
                              reclamation
    Cleaning up abandoned mines and orphaned oil and gas wells in the 
United States is an example of how America's environmental challenges 
can also be economic opportunities. Reclamation not only remediates the 
host of environmental and public health problems associated with these 
sites, it also frees up that land for new, more sustainable economic 
development opportunities in industry sectors such agriculture, 
recreational tourism, manufacturing, and even clean energy production. 
Immediate job opportunities are also created doing the reclamation 
work.
    The Abandoned Mine Land (AML) Program--created by Congress through 
the Surface Mining Control and Reclamation Act (SMCRA) in 1977--models 
the way that reclamation can contribute to both a clean environment and 
economic opportunities.
    The AML program has reclaimed nearly 800,000 acres of damaged land 
and water across the country.\33\ Over the course of its first 40 
years, it eliminated over 46,000 open mine portals, reclaimed over 
1,000 miles of dangerous highwalls, and protected 7.2 million people 
nationwide from AML hazards.\34\ However, there are still over 5,000 
abandoned coal mines across the country. According to the Office of 
Surface Mining Reclamation and Enforcement, it will cost at least $10 
billion to reclaim the remaining high priority abandoned coal mines 
across the country. While a similar program does not exist for hardrock 
mines or oil and gas wells, the EPA estimates there are more than 1 
million orphaned oil and gas wells throughout the United States.\35\ 
The GAO estimates there are at least 161,000 \36\ abandoned hardrock 
mines throughout the country; others suggest there may be over 
500,000.\37\ Cleaning up these mines and wells not only reduces air and 
water pollution--including emissions driving climate change--but also 
continues to spur economic opportunities.
---------------------------------------------------------------------------
    \33\ Appalachian Citizens Law Center, Abandoned Mine Land Program: 
A Policy Analysis for Central Appalachia and the Nation, July 8, 2015. 
Available online: https://appalachian citizenslaw.files.wordpress.com/
2015/07/exec-summary-abandonded-mine-reclamation.pdf.
    \34\ Pennsylvania Department of Environmental Protection, ``AML 
Program Information: Abandoned Mine Reclamation in Pennsylvania.'' 
Available online: https://www.dep.pa.gov/Business / Land / Mining / 
AbandonedMineReclamation / AMLProgramInformation / Pages /default.aspx.
    \35\ U.S. Environmental Protection Agency (EPA), ``Inventory of 
U.S. Greenhouse Gas Emissions and Sinks 1990-2016: Abandoned Oil and 
Gas Wells,'' April 2018. Available online: https://www.epa.gov/sites/
production/files/2018-04/documents/ghgemissions_abandoned_wells.pdf.
    \36\ U.S. Government Accountability Office, Abandoned Mines: 
Information on the Number of Hardrock Mines, Cost of Cleanup and Value 
of Financial Assurances. July 14, 2011. Available online: https://
www.gao.gov/assets/gao-11-834t.pdf.
    \37\ Earthworks. 1993. Burden of Gilt. Available online: https://
earthworks.org/publications/burden_of_gilt/.
---------------------------------------------------------------------------
    To date, the AML program has supported 4,761 direct jobs across the 
country, having a net impact of $450 million on U.S. gross domestic 
product in fiscal year 2013. In Central Appalachian states alone that 
year, the program supported 1,317 direct jobs and delivered a value-
added impact of $102 million.\38\
---------------------------------------------------------------------------
    \38\ Appalachian Citizens Law Center, Abandoned Mine Land Program: 
A Policy Analysis for Central Appalachia and the Nation. July 8, 2015. 
Available online: https://appalachian citizenslaw.files.wordpress.com/
2015/07/exec-summary-abandonded-mine-reclamation.pdf.
---------------------------------------------------------------------------
    While Abandoned Mine Land funds are used exclusively for 
reclamation of pre-1977 abandoned coal mines, reclaimed mine lands and 
the areas surrounding them have great potential to be reused as sites 
for new economic endeavors. Across the country, abandoned mine sites 
have been leveraged to create jobs through sustained revitalization 
efforts, wildlife habitat and restoration, and water quality 
improvement and spur new economic opportunities in these communities. 
For example:

    <bullet> In Mingo County, West Virginia, a sustainable agriculture 
            facility is being constructed on a reclaimed coal mine that 
            will produce commercial-scale fish and vegetables for 
            regional markets;

    <bullet> Reclamation of an abandoned coal mine that had been 
            leaking pollution into the North Branch Potomac River for 
            decades in western Maryland paved the way for at least 13 
            commercial angling and whitewater boating outfitters to 
            operate on the river, supporting more than 40 full-time 
            jobs and resulting in an economic impact of nearly $3 
            million on the area;

    <bullet> In Glenrock, Wyoming, a surface coal mine was converted 
            into a 158-turbine wind farm that produces enough 
            electricity to power 66,800 households;

    <bullet> In Luzerne County, Pennsylvania, a business park was 
            constructed on reclaimed mine land, which now employs over 
            4,500 people and is home to 39 companies, including Lowe's, 
            FedEx Ground, and Men's Warehouse. While more industrial 
            parks are not the economic solution for many rural 
            communities, this example demonstrates that mine sites 
            could be reclaimed for ``brick and mortar'' project 
            applications like local businesses, job training 
            facilities, and business incubators; and

    <bullet> A project in Tuscarawas County, Ohio, is underway to 
            transform a former mining site into a campground and trail 
            system within Camp Tuscazoar's ``Hidden Mine Recreation 
            Area.'' The project will encourage visitors to stay in the 
            area longer, generating more demand for secondary services. 
            The campground is projected to generate direct revenue and 
            contribute both directly and indirectly to the county's 
            economy.\39\
---------------------------------------------------------------------------
    \39\ Ibid.

    Federal efforts such as the AML Pilot Program and the RECLAIM Act 
have been put forward that would expedite the use of existing funds in 
the Abandoned Mine Land Fund to reclaim abandoned coal mines and 
stimulate economic development on that reclaimed land. Not only would 
efforts like this benefit communities by restoring the natural 
environment, they would also invest long term in the economic 
diversification of these communities.
           we have to do this energy transition the right way
    If we do it right, we can create quality, family sustaining jobs 
while also reducing carbon pollutions and avoiding the worst impacts of 
climate change. Strategic investments in building the clean economy--
such as in reclamation and clean energy on public lands--are critical, 
as are measures to ensure these jobs are quality jobs and that workers 
and communities impacted have the tools and resources they need to make 
the shift to a clean energy economy.
    As we find solutions to climate change, it's important to improve 
the quality of jobs created, and it's also essential to provide the 
tools and resources necessary for workers to transition to good new 
jobs, to diversify local and regional economies, and to create and 
sustain quality economic opportunities. This energy transition is 
already happening. We need to have a conversation about getting ahead 
of this and we need to do this now.
    American workers have faced wage stagnation, difficult working 
conditions, and a wholesale effort to decimate their ability to 
organize for the past several decades. Unionization offers the best 
pathway for quality jobs and more importantly a good, family sustaining 
livelihood. A commitment to a globally competitive social safety net 
and high-quality job creation across all sectors of the economy--but 
especially related to clean energy, adaptation, and resilience--will 
only be realized if we commit to:

    <bullet> Increasing union density across the country through strong 
            support of the right to organize throughout the economy, 
            including in the clean technology sectors;

    <bullet> Remove policy barriers to organizing and promote 
            productive policies to ensure that workers have a 
            meaningful voice on the job;

    <bullet> Applying mandatory labor standards that include prevailing 
            wages, safety and health protections, project labor 
            agreements, community benefit agreements, local hire, and 
            other provisions and practices that prioritize improving 
            training, working conditions, and project benefits. This 
            includes respect for collective bargaining agreements and 
            workers' organizing rights such as neutrality, majority 
            sign-up, and first contract arbitration for construction, 
            operations, and maintenance;

    <bullet> Raising labor standards through improved wages and 
            benefits and the prioritization of full-time work that 
            eliminates the misclassification of employees and misuse of 
            temporary labor;

    <bullet> Investing in training, equipment, preparedness, plan 
            development, and other tools including through registered 
            apprenticeship programs to ensure a robust, skilled, and 
            well-prepared workforce to build the natural and clean 
            technology infrastructure necessary to avoid and mitigate 
            the most damaging impacts caused by climate change; and

    <bullet> Maximizing the utilization and support for established 
            training providers (such as registered apprenticeships, 
            community colleges, and union training centers) and skill 
            certifications for manufacturing.

    <bullet> Effective and equitable access to high-quality employment, 
            training, and advancement for all workers, particularly 
            those from low-income households, those historically under-
            represented on the basis of race, gender, and other 
            criteria, and those adversely impacted or dislocated by 
            technological changes, notably those in trade, 
            transportation and energy impacted communities;

    <bullet> Guaranteed pensions and a bridge of wage support, health 
            care, and retirement security until an impacted worker 
            either finds new employment or reaches retirement;

    <bullet> Dedicated community engagement including workers, 
            community members, and leaders to support and enhance the 
            development of the local economy;

    <bullet> Massive economic investment in deindustrialized areas, 
            including remediating any immediate loss of tax base or 
            public service for communities;

    <bullet> Mandated reclamation of closed and abandoned industrial 
            sites to remediate deindustrialized blight, coupled with 
            economic development and diversification; and

    <bullet> Requirements for fair and safe working conditions 
            throughout global supply chains.

                               conclusion
    In closing, I want to reiterate that tackling the crisis of climate 
change--if done right--is a significant opportunity to ensure a more 
equitable society, protect our environment, increase U.S. global 
competitiveness, and create quality, family-sustaining jobs across the 
country. Given the scale of the problem, numerous solutions will be 
needed and public lands will have to play a key role. We appreciate the 
Committee's efforts to make progress now. We look forward to working 
with this Committee as you move forward.

    Thank you again for the opportunity to testify today.

                                 ______
                                 

Questions Submitted for the Record to Jason Walsh, Executive Director, 
                           BlueGreen Alliance
                  Questions Submitted by Rep. Grijalva

    Question 1. What is BlueGreen Alliance's position on hardrock 
mining?

    Answer. The BlueGreen Alliance sees a need for a new national 
commitment to environmentally, economically, and socially responsible 
mining, as well as reclamation and recycling of minerals and materials. 
This commitment is necessary with regards to hard rock mining, as 
existing policies are not sufficient to ensure responsible mining, and 
we are facing increasing demand for hard rock minerals as part of a 
transition to a clean economy. There is great potential to create jobs 
in America, generate a cleaner and more secure energy future and 
elevate the United States as a global leader in the industry. We can 
act now to enhance recycling, reclamation and increasingly circular 
process and product design and to forge a national agreement for better 
plan to produce necessary minerals and materials in ways that uphold 
our obligations to workers, communities and the environment.

    The BlueGreen Alliance does not take positions on specific mining 
projects.

                                 ______
                                 

    The Chairman. Now, I invite Mr. Marshall for your comments.
    Thank you, sir.

STATEMENT OF STEVE MARSHALL, SENIOR VICE PRESIDENT FOR POLICY, 
             SMARTLAM NORTH AMERICA, WASHINGTON, DC

    Mr. Marshall. Thank you, Mr. Chairman, and thank you, 
members of the Committee, for the opportunity to speak with you 
today.
    Before I go into my prepared remarks, I want to say thank 
you for something else. For two sessions in a row here in 
Congress, the Timber Innovation Act was introduced and got very 
strong bipartisan support. The provisions of that Act did make 
it into the last Farm Bill. And I just want to tell you, as 
someone that is a practitioner on the wood products side of 
things--and I was working for the U.S. Forest Service at the 
time--that was a huge shot in the arm for us--the work we were 
doing on sustainable wood products across the country. So, I 
just want to say thank you very much. There are people in this 
room that helped make that possible.
    Now to my remarks today, I am going to be citing several 
times cross laminated timber. I have a sample of it here. It is 
a dimensional lumber glued together at right angles as a 
construction material. And I realize some people may not know 
what that is, so I just wanted to have a visual for you.
    I am here to speak on behalf of SmartLam North America 
regarding the Trillion Trees Act. I offer my support for H.R. 
5859 broadly, and specifically want to address its potential to 
impact sustainable building practices.
    SmartLam North America is one of the few domestic producers 
of cross laminated timber, also known as CLT. We have factories 
in Montana and Alabama currently producing CLT. Our CLT has 
been used in buildings from coast to coast. It has been used by 
the Department of Defense in on-base lodging. If you go into 
Chicago, the new flagship restaurant in downtown Chicago has 
our CLT in it.
    CLT and a series of sort of sister technologies that are 
similar are collectively known as mass timber. They have been 
widely recognized for their extraordinary potential to 
sequester carbon. They store carbon directly in the wood. They 
also offset emissions that other construction technologies 
would have that are greater than what you have when you use the 
CLT, particularly concrete. The construction industry is 
estimated to contribute about 23 percent of our domestic carbon 
emissions right now, so this is really directly dealing with 
one of our ongoing sources of carbon emissions.
    The U.S. capacity to expand forests while harvesting for 
wood is very well established. If you look at the last 100 
years of forest management and the expansion of forests in this 
country, while simultaneously producing billions and billions 
of dollars' worth of forest products, the two go hand in hand. 
They do not exclude each other.
    I recently retired from the Forest Service. I was with the 
U.S. Forest Service for 41 years. The last 10 years I was with 
the agency, I led the agency's forest product market 
development work. Starting in 2013, we, as an agency, 
specifically identified cross laminated timber as the single 
product that we were aware of where we could have the greatest 
impact on multiple goals: the carbon sequestration, getting 
wood out of the forests that have become overstocked.
    We have been very successful with putting fire out for the 
last 100 years. We are paying the consequences of that now in 
some parts of the country. We are seriously looking at how we 
can address the overstock, and what are products that can make 
it out of the wood. This is something that we saw paying its 
own way out.
    The market development work has come along quite far. At 
this point, we have 256 mass timber buildings that are up in 
the United States, and there are another 458 that we are aware 
of that are in the planning process right now. This is moving. 
This is for an industry that did not exist in this country in 
2013, when we started focusing on it.
    I want to just put that out there. The carbon sequestration 
aspects are the primary driver on this. When you talk to the 
key players around the world that are focused on this 
technology, it is the carbon that is driving it. The projects 
have to make it on an economic basis, but it is carbon, carbon, 
carbon that is bringing people to the table.
    The tax provisions that are in the H.R. 5859, I think, are 
potentially very powerful. And it was interesting to me. It 
doesn't say tax provisions for wood. It is talking about tax 
provisions, essentially, for a more sustainable building, as a 
whole. I happen to believe wood will be very competitive in 
that context. But it was refreshing to see it wasn't 
prescribing how to do it, it just sort of puts out the 
opportunity, sets out the goal.
    Thank you very much.

    [The prepared statement of Mr. Marshall follows:]
Prepared Statement of Steve Marshall, Senior Vice President for Policy, 
                         SmartLam North America
    Mr. Chairman, thank you and the Committee members for this 
opportunity to speak to you on behalf of SmartLam North America 
regarding The Trillion Trees Act. It is an honor to be here with you 
today talking about trees and the role they can play as we deal with 
climate change. I offer my support of H.R. 5859 broadly and want to 
specifically address its potential to impact sustainable building 
practices.
    SmartLam North America is one of the few domestic producers of 
cross laminated timber also known as CLT. We make it in Montana and 
Alabama. Our CLT has been used in buildings from coast to coast in 
projects as diverse as on-base military guest housing and in the new 
flagship McDonalds restaurant in Chicago.
    CLT and some related wood technologies known together as ``mass 
timber'' have been widely recognized for the extraordinary opportunity 
they present to sequester carbon. These technologies provide for 
sustainable building construction. Not only do they directly store 
carbon by using wood, they also offset carbon emissions related to 
various other construction materials in wide use, most notably 
concrete. The U.S. capacity to expand forests while harvesting wood for 
wood products is well established. This history makes the case for the 
related provisions in H.R. 5859.
    Last December I retired from the U.S. Forest Service following 41 
years of service. One of my responsibilities while working for the 
Agency was wood product market development. My current employment with 
SmartLam follows a similar path.
    In 2013, while with the Forest Service, I conducted a review of 
wood technologies looking for what would be the most promising area for 
near-term wood product market development. Out of the dozen or so 
technologies considered, one stood out as having enormous potential and 
market readiness. That was CLT for building construction.
    At the time, CLT was better than a decade into market development 
in Europe. It had recently been used in Australia and was beginning to 
be used in Canada. The only U.S. CLT production back then was 
SmartLam's small-scale production of industrial mats being used in oil 
fields to keep trucks and other heavy equipment up out of the mud.
    In August 2013, the Forest Service created the Wood Innovations 
program to help bring a strategic focus to its long-standing wood 
product market development efforts. While the program engages in a wide 
range of wood products, CLT and related forms of mass timber have been 
treated as a national priority. We had the good fortune of good timing. 
The mass timber sector has taken off. The primary driver of the market 
for these products is carbon.
    Since 2013, 256 mass timber buildings have been completed in the 
United States and another 458 are currently in design phases. CLT 
production is taking place in Alabama, Arkansas, Illinois, Montana, 
Oregon, Texas, Utah, and Washington. Some of that is industrial 
matting, much of it is architectural grade CLT being used in buildings. 
The 2021 edition of the International Building Code used across the 
United States has specific provisions for accommodating CLT beyond what 
is currently specified in our building codes. Multiple states and 
cities have moved out to pre-commit to the 2021 code revisions. This is 
extraordinary momentum for a technology that essentially did not exist 
here in 2013.
    Yet the challenges for this building sector moving ahead remain 
considerable. There is only a very limited amount of U.S. production--
much of what is currently being used here is being built with imported 
CLT. There is very limited expertise available at every point in the 
value chain. For example, beyond the obvious needs for seasoned 
architects, engineers, and developers, there are extra costs today 
associated with the lack of familiarity that lenders, insurers and 
local code officials have with this material. Similarly, there are 
significant issues when applying conventional life cycle analysis 
methods to new products. So, we have a new technology that is rapidly 
moving along yet is dealing with multiple hurdles.
    The tax provisions in H.R. 5859 have the potential to significantly 
impact the sustainability of our construction practices in the United 
States. Recognizing the carbon involved in producing building materials 
and embedded in those materials is key. I would expect CLT and other 
forms of mass timber to compete very well in such a framework. (NOTE: 
The summary of the proposed Bill indicates benefits would apply only to 
domestically produced materials. I did not see that specified in the 
Bill text itself.)
    In sum, we have a building technology with the potential to 
transform the carbon profile of our built environment. As we grow our 
sustainable forests, we can further sequester carbon captured by these 
forests for generations to come.

    Thank you for your time today and I am happy to respond to 
questions.

                                 ______
                                 

    The Chairman. Thank you for your comments.
    Let me now recognize Carla Staver for your comments.

  STATEMENT OF CARLA STAVER, ASSOCIATE PROFESSOR, ECOLOGY AND 
 EVOLUTIONARY BIOLOGY, YALE UNIVERSITY, NEW HAVEN, CONNECTICUT

    Dr. Staver. Thank you very much, Chairman Grijalva, Ranking 
Member Bishop, and the Members.
    On average, the global climate has already warmed by about 
1+ Celsius above pre-industrial levels. That is 1.5+-2+ 
Fahrenheit. Formerly unprecedented climate extremes, from 
droughts to deluges to heatwaves, are becoming commonplace. One 
need only look at recent wildfires in Australia, the Amazon, 
and closer to home in Texas and California to see that climate 
extremes can be catastrophic.
    The scientific consensus is that our changing climate is 
the direct result of anthropogenic fossil fuel--anthropogenic 
carbon emissions. These carbon emissions derive primarily from 
burning fossil fuels including oil, coal, and natural gas, and, 
to a lesser extent, from deforestation and other land use 
change.
    I am an Earth scientist with a long-standing interest in 
these issues. I am an Associate Professor of Ecology at Yale 
University, and I have been studying the ecology of trees for 
more than 15 years. On a professional level, it is immensely 
cheering to see the climate crisis receiving the bipartisan 
attention that it has long deserved. And I commend this 
Committee for taking the lead in that action. It is truly 
exciting to see that, as somebody who is interested in climate 
and in ecology.
    These discussions are a necessary first step toward the 
type of action on climate that can and will reverse the climate 
crisis. Action on climate should include diverse approaches, 
including forest restoration and prevention of deforestation, 
but must rely fundamentally on reducing emissions at the source 
via decreasing our dependence on fossil fuels.
    So, it is really easy to understand the appeal of forest as 
a solution to the climate crisis. According to proponents of 
tree planting, the forests supposedly offer a win-win-win, 
combining carbon draw-down, conservation, and forestry sector 
productivity, while also sparing us the necessity of difficult 
changes in our lifestyles and economy.
    Although the idea is an old one, tree planting has gained 
prominence recently following a 2019 study and subsequent press 
campaign claiming that trees may sequester up to 205 gigatons 
of carbon, offsetting a whopping two-thirds of total historical 
anthropogenic carbon emissions. If you prefer, that is 
equivalent to sequestering carbon from about 20 years of fossil 
fuel emissions at current rates.
    Unfortunately, like most things that seem too good to be 
true, it is. These estimates are wrong, and have been widely 
and swiftly disputed by the scientific community. In reality, 
planting trees and restoring forests offer a total carbon 
sequestration potential of about 42 gigatons of carbon, 
equivalent to only about 1/15, or 7 percent of total historical 
emissions. That is equivalent to 4 years of carbon emissions 
from fossil fuels at current rates. That is a lot less.
    These revised estimates make it abundantly clear that 
forest restoration alone is not the silver bullet to solve the 
climate crisis. Long-term emissions reductions, and ultimately 
net zero emissions, must rely on reducing fossil fuel use 
itself.
    So, why are the realistic numbers so much lower? First of 
all, it is not just trees that store carbon. Globally, soils 
store about three to five times more carbon than plants. Plus, 
not all plants are trees. So, an exclusive focus on wood is 
altogether too narrow, and misses carbon already stored in a 
lot of systems for tree planting. By analogy, if you want to 
fill a bucket, but it is already three-quarters full--with 
carbon, for instance, in soils--you can only add an additional 
quarter to the bucket. Inflated estimates mistakenly count the 
full bucket as new storage, when actually you can only really 
count a quarter of the bucket.
    Second, it is a mistake to plant forests in places they 
don't belong. We call this afforestation, and a lot of areas 
targeted for afforestation are at high risk of drought, water 
shortages, and fires. And climate change is likely to increase 
those risks. In straightforward terms, returning carbon to the 
biosphere can sequester only as much carbon as was there to 
begin with.
    I would also like to talk a little bit about another issue, 
which is that carbon capture by forest is slow. So, this is not 
about stocks, but this is about rates. It takes trees a while 
to grow. In tropical forests, which grow faster than any other 
forests on Earth, it takes a forest about 30 years to 
accumulate the carbon stocks that occur in a mature, primary 
forest. And in temperate and boreal systems, that is much, much 
slower.
    What this means is that the major benefits of ramping up 
forest restoration will only accrue after 2030 and beyond. This 
is too slow and too late to help achieve 1.5+ warming targets.
    The flip side is that decreasing deforestation now will 
have immediate effects now, since avoiding deforestation 
reduces carbon emissions. Avoiding deforestation should always 
be the priority when we are talking about forest management.
    In summary, tree planting alone does not offer a viable 
solution to the ongoing climate crisis. Forests absolutely have 
a role to play. Any plausible attempt to limit climate change 
within our life spans depends on avoiding further 
deforestation, and on appropriate and responsible forest 
restoration and management. However, it is also crystal clear 
that tree planting alone will not fix our ongoing climate 
emergency.
    Our primary focus must be on reducing our dependence on 
fossil fuels. The illusion that tree planting is a silver 
bullet solution to the climate crisis is a distraction from 
real action. Thank you.

    [The prepared statement of Dr. Staver follows:]
    Prepared Statement of Dr. A. Carla Staver, Associate Professor, 
    Department of Ecology and Evolutionary Biology, Yale University
    On average, the global climate has already warmed by 1+C above 
pre-industrial levels. Formerly unprecedented climate extremes--from 
droughts to deluges to heat waves--are becoming commonplace. One need 
only look to recent wildfires in Australia, the Amazon, and closer to 
home in Texas and California to see that climate extremes can be 
catastrophic. The scientific consensus is that our changing climate is 
the direct result of anthropogenic carbon emissions. These carbon 
emissions derive primarily from burning fossil fuels, including oil, 
coal, and natural gas, and, to a lesser extent, from deforestation and 
other land use change.<SUP>2</SUP>
    Current business-as-usual emissions are projected to result in 
average warming of 2+C by the year 2050 and 3-4.5+C by the year 
2100.\1\<SUP>,</SUP>\2\ Staying below 1.5+C of warming looks 
increasingly ambitious, relying on reductions in total global 
greenhouse gas emissions of 45 percent by 2030 and net zero emissions 
by 2055.\3\ Meanwhile, the difference between 1.5+C and 2+C total 
warming is associated with increased risks of extreme events and 
adverse social and economic consequences,<SUP>3</SUP> and even 
achieving 2+C will require deeper cuts to emissions than are currently 
pledged under the Paris Agreement.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Hausfather, Z. & Peters, G. 2020. Emissions--the `Business as 
Usual' story is misleading. Nature 577:618-620.
    \2\ IPCC. 2013. Climate Change: The Physical Science Basis.
    \3\ IPCC. 2018. Global Warming of 1.5+C: Special Report.
---------------------------------------------------------------------------
    As an Earth scientist with a long-standing interest in these 
issues, it is immensely cheering to see the climate crisis receiving 
the bipartisan attention that it has long deserved. This is a necessary 
first step toward the type of action on climate that can and will 
reverse the climate crisis. Action on climate should include diverse 
approaches, including forest restoration and prevention of 
deforestation, but must rely fundamentally on reducing emissions at the 
source via decreasing our dependence on fossil fuels.
    It is easy to understand the appeal of forests as a solution to the 
climate crisis. According to proponents of tree planting, forests 
putatively offer a win-win-win, combining carbon drawdown, 
conservation, and forestry-sector productivity, while also sparing us 
the necessity of difficult changes in our lifestyles and economy. 
Although the idea is an old one, tree planting has gained prominence 
recently following a 2019 study \4\ and subsequent press campaign 
claiming that trees may sequester up to 205 gigatons of carbon, 
offsetting as much as two-thirds of total historical anthropogenic 
carbon emissions or, alternately, sequestering carbon from 20 years of 
carbon emissions at current rates. Like most things that seem too good 
to be true, it was. These estimates are wrong and have been widely 
disputed,\5\<SUP>,</SUP>\6\<SUP>,</SUP>\7\<SUP>,</SUP>\8\ but have 
nonetheless gained traction in a political climate desperate for 
solutions to the increasingly urgent challenge of anthropogenic climate 
change.
---------------------------------------------------------------------------
    \4\ Bastin, J.F., et al. 2019. The global tree restoration 
potential. Science 365:76-79.
    \5\ Lewis, S., et al.  2019.    Comment on ` The global tree 
restoration potential '.   Science 366:  388-4.
    \6\ Veldman, J., et al. 2019. Comment on ` The global tree 
restoration potential '. Science 366:7976-5.
    \7\ Friedlingstein, P., et al. 2019. Comment on ` The global tree 
restoration potential '. Science 366:8060-3.
    \8\ Various. 2019. Letters on ` The global tree restoration 
potential '. Science 366:1-5.
---------------------------------------------------------------------------
    Here, I elaborate on the main problems with focusing on trees as 
the only solution to climate change. First, forestation is risky, 
especially outside the historic range of forests. Second, carbon 
sequestration by forests is slow. And third, even in the best-case 
scenario, the reality is that mitigating fossil-fuel emissions by 
planting trees (or even via nature-based solutions more generally) is 
not enough. Any plausible solution to the climate crisis must 
fundamentally rely on burning less fossil fuels. In more detail:
1. Forestation is risky.
    The growth and persistence of trees, once they are planted or 
regenerate, is a key consideration in estimating the potential of 
forests and plantations for emissions mitigation. Tree mortality can be 
substantial (>90 percent, depending on age and species), even in 
environments that favor forest establishment, and geographic targets 
for tree planting often include areas that historically are not 
forested (including tree planting proposals from the UNEP as referenced 
in H.R. 5859) and may not be appropriate for sustainably supporting 
forests.
    Forest restoration is usually considered to be more successful when 
forests are allowed to regenerate naturally.\9\ Trees survive at higher 
rates, resulting in more diverse forests and increasing carbon storage, 
although note that ecological processes depend heavily on forest type 
and that post-planting investment in tree survival tends to improve 
outcomes (especially appropriate in, e.g., agricultural or urban 
contexts).\10\ Facilitating natural forest regeneration and avoiding 
deforestation are therefore broadly considered more effective for 
storing carbon than artificially re-planting trees.
---------------------------------------------------------------------------
    \9\ Crouzeilles, R., et al. 2017. Ecological restoration success is 
higher for natural regeneration than for active restoration in tropical 
forests. Science Advances 3:1701345.
    \10\ Reid, J., et al. 2018. Positive site-selection bias in meta-
analyses comparing natural regeneration to active forest restoration. 
Science Advances 4:9143.
---------------------------------------------------------------------------
    Afforestation exacerbates these issues. Afforestation is defined as 
the establishment of forests in places where they did not occur in the 
recent past, whereas reforestation is defined as the re-establishment 
of forests in places where they once occurred but were deforested. 
Afforestation increases the risk of tree mortality and exacerbates 
adverse effects including, e.g., downstream water shortages and extreme 
fire risks, resulting in economic and infrastructure costs, as well as 
costs to human life. Crucially, species and ecosystem ranges are 
defined not only by average environmental conditions, but also by, 
e.g., droughts, which are increasing in their frequency and are 
strongly associated with tree mortality \11\ and fires.\12\ Outside 
their range, therefore, the risks increase dramatically that major 
investments in afforestation will fail to store carbon in the medium 
and long term.
---------------------------------------------------------------------------
    \11\ Anderegg, W., et al. 2013. Consequences of widespread tree 
mortality triggered by drought and temperature stress. Nature Climate 
Change 3:30-36.
    \12\ Abatzoglou, J. & Williams, A.P. 2016. Impact of anthropogenic 
climate change on wildfire across Western U.S. Forests. PNAS 113:11770-
11775.
---------------------------------------------------------------------------
    Future climate change will exacerbate these risks; for example, 
fire extent in western U.S. forests has already increased in area by a 
factor of 5 since the 1980s.<SUP>12</SUP> To mitigate these risks, we 
must manage forests explicitly for carbon storage and explicitly 
account for a changing climate, taking into account effects of, e.g., 
aridification/drought and fire.
    Polar regions come with special risks from afforestation. Far from 
cooling the climate, polar forests have a net warming effect on local 
climate because they increasing absorbance of solar radiation 
\13\<SUP>,</SUP>\14\ (i.e., snow is lighter in color than evergreen 
trees and therefore absorbs less heat). Although forests at low 
latitudes cool the climate via carbon storage, forests in polar regions 
instead increase local temperatures by almost 1+C in a region already 
subject to faster warming than anywhere else on Earth. From a national 
perspective, this is most relevant in Alaska and in mountains with 
substantial winter snowpack.<SUP>14</SUP> More broadly, focusing on 
carbon dioxide alone is insufficient. Rather, an explicit focus on 
climate change is necessary to tackle the climate crisis. In the 
context of the legislation under discussion, H.R. 5859 proposes to 
remove language from the Forest and Rangeland Renewable Resources 
Planning Act that aims to ``mitigate the buildup of atmospheric carbon 
dioxide and reduce the risk of global climate change''; this language 
should be retained, since it keeps the focus explicitly on reducing the 
risk of climate change, instead of on wood production.
---------------------------------------------------------------------------
    \13\ Lee, X., et al. 2011. Observed increase in local cooling 
effect of deforestation at higher latitudes. Nature 479:384-387.
    \14\ Chapin, F.S., et al. 2005. Role of land-surface changes in 
arctic summer warming. Science 310:657-60.
---------------------------------------------------------------------------
    Finally, reducing deforestation and forest restoration are laudable 
activities. However, avoiding afforestation will also help to avoid 
risks that compromise long-term carbon storage goals; differentiating 
between reforestation and afforestation is crucial. Note that, 
throughout, H.R. 5859 treats afforestation and reforestation as 
equivalent, which is likely to exacerbate risks and compromises carbon 
storage goals. I would also urge the inclusion of scientists in any 
National Reforestation Task Force to ensure that locations for 
reforestation are appropriate.
2. Forest regeneration is slow.
    Trees grow slowly. Exactly how slowly depends on their environment, 
but carbon from forestation will everywhere accumulate later than 
currently projected--too late to appreciably change climate in the 
short term.
    Even successful forest regeneration takes decades to centuries to 
recover the carbon storage potential of mature primary forests, 
depending on environmental context. In tropical forests, degraded 
agricultural landscapes regain the carbon storage potential in biomass 
of mature forests after a few decades of regrowth,\15\ although soil 
carbon takes longer to recover; however, carbon accumulation is slower 
in temperate forests and even slower in evergreen boreal forests, where 
forests achieve their full carbon storage potential after only a 
century or more.\16\ Nowhere is planting trees or regenerating forests 
an immediate solution to the problem of carbon emissions, and the major 
benefits of any current accelerated investment in forest restoration 
will only ramp up after 2030 and beyond. This is too slow and too late 
to help achieve 1.5+C warming targets, but may help to achieve medium- 
and long-term cuts to net emissions.
---------------------------------------------------------------------------
    \15\ Batterman, S., et al. 2013. Key role of symbiotic dinitrogen 
fixation in tropical forest secondary succession. Nature 502:224-9.
    \16\ Goulden, M., et al. 2011. Patterns of NPP, GPP, respiration, 
and NEP during boreal forest succession. Global Change Biology 17:855-
871.
---------------------------------------------------------------------------
    By contrast, slowing rates of deforestation now will have immediate 
effects, since avoiding deforestation reduces carbon emissions now. 
Avoiding deforestation will help hit short- and medium-term climate 
change targets, and should be a priority.
3. Trees are not enough.
    An exclusive focus on trees and forests ignores the potential of a 
broader range of `nature-based solutions' to the climate crisis. 
Specifically, it's not just trees that store carbon. Carbon is stored 
in other types of plants and in soils, as well. In some systems, most 
notably peatlands, decomposition is extremely slow and carbon builds up 
in soils. Eventually, total ecosystem carbon can vastly exceed that 
stored in nearby forests. In the United States, peatlands are 
concentrated in boreal and tundra regions of Alaska. Globally, 
peatlands are at risk of extreme fires, especially when forestry and 
development activities drain and disturb soils, resulting in 
substantial carbon emissions.\17\ For instance, in 1997, Indonesian 
peat fires emitted between 0.81 and 2.57 gigatons of carbon, equivalent 
to 15-40 percent of annual global fossil fuels emissions.\18\ As such, 
peatlands deserve explicit attention for their carbon storage 
potential, especially focused on keeping carbon in the ground.
---------------------------------------------------------------------------
    \17\ Turetsky, M., et al. 2014. Global vulnerability of peatlands 
to fire and carbon loss. Nature Geoscience 8:11-14.
    \18\ Page, S., et al. 2002. The amount of carbon released from peat 
and forest fires in Indonesia during 1997. Nature 420:61-65.
---------------------------------------------------------------------------
    Grasslands can also store substantial carbon in soils. In 
grasslands like the Argentinian pampa or North American prairie, 
encroachment by trees has been estimated to reduce total ecosystem 
carbon by as much as 45 percent.\19\ This happens because the losses of 
carbon in soils are greater than the gains of carbon stored in trees. 
Curiously, carbon losses from tree encroachment are highest in wetter 
grasslands, where trees are usually considered most viable. Clearly, 
some open ecosystems should be considered alongside forests for 
restoration to promote carbon sequestration.
---------------------------------------------------------------------------
    \19\ Jackson, R., et al. 2002. Ecosystem carbon loss with woody 
plant invasion of grasslands. Nature 418:623-626.
---------------------------------------------------------------------------
    The issue of non-tree carbon also highlights one of the main 
limitations of recent estimates of the potential of trees to sequester 
carbon.<SUP>6</SUP> Many ecosystems identified as targets for tree 
planting already store substantial carbon, but existing carbon is 
sometimes neglected in calculations of the carbon gains associated with 
tree planting. (For a simple example, consider the following: If you 
want to fill a bucket, but it is already \3/4\ full, you can only add 
an additional \1/4\ to the bucket. Some estimates mistakenly count the 
full bucket as new storage potential, when in fact you can only really 
count \1/4\ of a bucket as new storage.) This substantially biases 
estimates and tends to suggest that trees store more carbon than they 
actually do. Elements of H.R. 5859 share this limitation; for instance, 
the `Lifecycle Analysis' in Section 103b focuses too narrowly on carbon 
stored in wood, ignoring other components of ecosystem carbon and on 
carbon costs to transportation, production, etc., which are 
substantial.
    Correcting estimates of the global potential for tree planting to 
sequester carbon yields an estimate of potential carbon sequestration 
that is 80 percent less <SUP>6</SUP> than recent estimates,<SUP>4</SUP> 
for a total carbon sequestration potential of 42 gigatons of carbon. 
This is in fact equivalent to only \1/15\ of total historical 
emissions, or 4 years of carbon emissions from fossil fuels at current 
rates. These revised estimates make it abundantly clear that forest 
restoration alone is not the silver bullet to solve the climate crisis, 
and that long-term emissions reductions (and, ultimately, net zero 
emissions) must rely on reductions in fossil fuel use itself.
    These corrected estimates are based on up-to-date estimates of tree 
viability, net cooling potential of forestation, soil carbon stocks, 
and qualitative evaluations of fire and water risk. But there's a 
simple way to build this intuition. Returning carbon to the biosphere 
can sequester only as much carbon as was in the biosphere to begin 
with. This means that restoring forests can sequester all the carbon 
emitted by deforestation but not also that emitted by fossil fuels (a 
much more substantial flux).<SUP>5</SUP> To return to the bucket 
analogy: if the pre-industrial biosphere is a bucket, it was once full 
of carbon that was released via changing land use and deforestation. We 
can put carbon back in the bucket to reverse those effects, but we 
can't hope that the biosphere bucket will hold not only its own 
contents, but also those of another separate fossil-fuel bucket. The 
analogy isn't perfect (e.g., we could debate whether the bucket was 
full to begin with and whether the size of the bucket is changing), but 
it's a useful first approximation.

    In summary, tree planting alone does not offer a viable solution to 
the ongoing climate crisis. Forests do have a role to play: Any 
plausible attempt to limit climate change within our life spans depends 
on avoiding further deforestation and on appropriate and responsible 
forest restoration. However, it is also crystal clear that tree 
planting alone will not fix our ongoing climate emergency. Our primary 
focus must be reducing our dependence on fossil fuels. The illusion 
that tree planting is a silver-bullet solution to the climate crisis is 
a distraction from real action.

                                 ______
                                 

    The Chairman. Let me now invite our last panelist for your 
comments.
    Mr. Hollie.

   STATEMENT OF DERRICK HOLLIE, PRESIDENT, REACHING AMERICA, 
                      BENNSVILLE, MARYLAND

    Mr. Hollie. Greetings, Chairman. It is good seeing you 
again. And Ranking Member Bishop and members of the Committee, 
thank you for the opportunity to speak. I am Derrick Hollie, 
President of Reaching America, an educational policy 
organization I developed to address complex social issues 
impacting the African-American community. And one of the issues 
that we address the most is reducing energy poverty.
    Energy poverty exists when low-income families or 
individuals spend sometimes upwards of 25 to 30 percent of 
their total income on their electric bill. And when that 
happens, it puts people in a very difficult situation, having 
to make tough choices like do I eat today or put gas in a 
vehicle? Do I get a prescription filled or do I pay the 
electric bill? And, unfortunately, we all know someone who 
faces these challenges every single day.
    But for members of minority, rural, low income, and senior 
citizen communities, energy poverty is a reality. And, 
unfortunately, members of our community don't have the luxury 
to pay more for green technologies. And going green is not the 
most glaring issue in our community. We need access to 
affordable energy to help heat our homes, power our stoves, and 
get back and forth to work each day.
    Through Reaching America, I have had the opportunity to 
speak to thousands of African-Americans in several states who 
question the rising cost of energy, along with the fees and 
subsidies that most would never benefit from, and how they 
struggle to keep up.
    My passion for energy is deeply rooted. After graduating 
from college, I worked as a brakeman for Norfolk Southern 
Railways at Lambert's Point Terminal in Norfolk, Virginia. Our 
job and responsibility was loading coal ships that transported 
coal all around the world. Last year, booming shale production 
here in the United States helped the United States become the 
world's top oil exporter. And I have asked myself the question 
many times: How can our natural resources be worthy enough to 
supply other countries, but not good enough for us, right here 
at home?
    My grandfather was also a black coal miner in southwest 
Virginia. I had the opportunity to visit southwest Virginia 
last year and I have never seen poverty at that level. Many of 
the proposed suggestions of H.R. 5435 are unproven, and 
implementing a policy like this will result in thriving energy 
communities around the country mirror the poverty that exists 
in southwest Virginia and other Appalachian communities.
    When the government creates policy, its first priority 
should be the welfare of the people, especially those impacted 
the hardest, rather than big business and special interest 
groups. And if people can't afford to stay warm, they certainly 
can't afford health care and basic needs, especially those on a 
fixed income.
    And here's a real life example. About 2 weeks ago, my 84-
year-old mother-in-law, on a fixed income, was at our house. 
She was complaining about a $150 deductible on a prescription 
that needed to be filled, in addition to her electric bill that 
includes renewable mandates, a subsidy that she is required to 
pay and will never benefit from right here in the District of 
Columbia. My mother-in-law has three daughters that help her. 
However, millions of Americans don't have that benefit, and are 
forced to try to balance paying for health care and energy. And 
most have to choose between one or the other.
    A new study out of northwest Virginia confirms that 
increases in electricity and natural gas prices lead to more 
winter deaths. The effects were even larger among poor, as 
families are forced to choose between putting food on the 
table, health care, and staying warm. And with the amount of 
affordable and reliable energy in America, these are choices 
that no one should have to make.
    It would be helpful to have impact assessment statements 
before any regulation is passed. This would be a major step 
toward increasing economic opportunities, and having input from 
governors and community leaders in the same way qualified 
opportunity zones were created. It would also establish a level 
of trust that has never existed before.
    After all, the government requires environmental impact 
statements to estimate the effects on projects like roads and 
buildings on nature. Shouldn't the government act similarly 
when it comes to how regulations will impact a particular 
population?
    H.R. 5435 establishes an advisory committee, including 
public interest groups. I would respectfully ask the Chairman, 
Mr. Chairman, that our organization, the Energy Poverty 
Project, be a part of the committee to serve as a voice for 
those impacted the most in low income, rural, minority, and 
senior citizen communities.
    A minority impact assessment would create a list of all 
positive and negative impacts a proposed regulation would have 
on these communities.
    We need a market-oriented energy policy that will allow 
America to keep exploring and developing our resources safely, 
and to follow the example of environmental stewardship set by 
areas like Port Fourchon, Louisiana. The port serves as a major 
oil and gas hub for the Gulf Coast, and it is also a commercial 
fishing Mecca that continues to amaze scientists and 
researchers from around the world.
    CO<INF>2</INF> emissions are down because of America's 
shift toward natural gas. And right now, according to a New 
York Times article published on June 19, 2019, our air quality 
in America is the best it has ever been in decades.
    In closing, I don't dispute climate change. And as a 
licensed boat captain, I am all for protecting the environment, 
our waterways, and clean energy. However, until we figure out a 
way to harness the sun, the wind, and water to sustain 
ourselves, we need to use the natural resources we have, 
especially if it can lower energy costs, continue to create 
jobs, boost the economy, and allow for adequate health care and 
basic needs for Americans.
    Thank you.

    [The prepared statement of Mr. Hollie follows:]
  Prepared Statement of Derrick Hollie, President of Reaching America
    Ranking Member Bishop and members of the Committee, thank you for 
this opportunity to speak.
    I'm Derrick Hollie, president of Reaching America, an education and 
policy organization I developed to address complex social issues 
impacting African American communities. One of the issues Reaching 
America does the most work on is reducing energy poverty.
    Energy Poverty exists when low income families or individuals spend 
up to 30 percent of their total income on their electric bill. And when 
this happens, it puts people in a difficult situation and having to 
make tough choices like, do I eat today or pay the electric bill? Do I 
get this prescription filled or do I put gas in my car? We all know 
someone who faces these tough choices every single day.
    For members of minority, rural, low income and senior citizen 
communities, Energy Poverty is a reality. And unfortunately, members of 
our community don't have the luxury to pay more for green technologies 
and going green is not the most glaring issue in these communities. We 
need access to affordable energy to help heat our homes, power our 
stoves and get back and forth to work each day.
    Through Reaching America I've had the opportunity to speak with 
thousands of African Americans in several states who question the 
rising cost of energy along with fees and subsidies that most will 
never benefit from and how they struggle to keep up.
    My passion for energy is deeply rooted. After graduating from 
college I worked as brakeman for Norfolk Southern Railways at Lambert's 
Point in Norfolk, Virginia. Our job and responsibilities was loading 
coal ships that transported coal all around the world. Last year 
booming shale production helped the United States become the world's 
top oil exporter. And I've asked the question many times, how can our 
natural resources be worthy enough to supply other countries, but not 
good enough for us here at home?
    My grandfather was a black coal miner in southwest Virginia. I 
visited southwest Virginia last year and I've never seen poverty at 
that level. Many of the proposed suggestions and ideas of H.R. 5435 are 
unproven and implementing a policy like this would result in thriving 
energy communities around the country mirror the poverty that exists in 
southwest Virginia and other Appalachian communities.
    When the government creates policy, its first priority should be 
the welfare of the people, especially those impacted the hardest, 
rather than big businesses and special interests groups. And if people 
can't afford to stay warm, they certainly can't afford health care and 
basic needs especially those on a fixed income.
    And here's a real-life example. About 2 weeks ago my 84-year-old 
mother-in-law on a fixed income was at our house. She was complaining 
about a $150 deductible on a prescription that needed to be filled. In 
addition to her electric bill that includes renewable mandates--a 
subsidy that she is required to pay and will never benefit from it 
right here in the District of Columbia. My mother-in-law has three 
daughters that help her. However, millions of Americans don't have that 
benefit and are forced to try and balance paying for health care and 
energy. And most have to choose between one or the other.
    A new study out of Northwestern University confirms that increases 
in electricity and natural gas prices lead to more winter deaths. The 
effects were even larger among the poor, as families are forced to 
choose between putting food on the table, health care, and staying 
warm. With the amount of affordable and reliable energy in America, 
these are choices we shouldn't have to make.
    It would be helpful to have a ``Impact Assessments'' before any 
regulation is passed. This would be a major step toward increasing 
economic opportunities. And having input from governors and community 
leaders the same way ``Qualified Opportunity Zones'' were created. It 
will also establish a level of trust in communities that never existed 
before.
    After all, the government requires environmental impact statements 
to estimate the effects of projects like roads and buildings on nature. 
Shouldn't the government act similarly when it comes to how regulations 
impact the population?
    H.R. 5435 establishes an advisory committee including public 
interest groups. I would ask respectfully of Mr. Chairman that our 
organization The Energy Poverty Project be a part of the committee to 
serve as a voice for those impacted the most in low income, rural, 
minority and senior citizen communities.
    A minority impact assessment would create a list of all the 
positive and negative impacts a proposed regulation would have on 
factors including employment, wages, consumer prices and homeownership. 
This regulatory impact would then be analyzed for its effect on 
minorities and other communities mentioned in contrast to the general 
population.
    We need market-oriented energy policy that will allow America to 
keep exploring and developing our resources safely, and to follow the 
example of environmental stewardship set by areas like Port Fourchon, 
Louisiana. The port serves as a major oil and gas hub on the Gulf 
Coast. It's also a commercial and fishing Mecca that continues to amaze 
scientists and researchers from around the world.
    CO<INF>2</INF> emissions is down because of America's shift toward 
natural gas. And right now, according to a New York Times article 
published on June 19, 2019, our air quality in America is the best it's 
been in decades.
    In closing, I don't dispute climate change and as a licensed boat 
captain, I'm all for protecting the environment, our waterways and 
clean energy however until we figure out a way to harness the sun, wind 
and water to sustain ourselves, we need to use the natural resources we 
have especially if it can lower energy cost, continue to create jobs 
boost the economy, allow for adequate health care and basic needs.

                                 ______
                                 

   Questions Submitted for the Record to Derrick Hollie, President, 
                            Reaching America

Mr. Hollie did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

                   Questions Submitted by Rep. Bishop
    Question 1. In your testimony, you raise the idea of requiring 
analysis of economic impacts on minority communities to accompany 
legislation, similarly to how environmental impact assessments are 
required today. What metrics would need to be included in such an 
assessment to account for the impacts of bills like H.R. 5435 on 
communities struggling with energy poverty?

    Question 2. In your testimony, you explain that energy poverty 
exists when families spend up to 30 percent of their total income on 
their electric bill and that, more and more, these families are also 
expected to pay green energy subsidies. Can you give us some examples 
of these subsidies and will these communities realize the outcome of 
paying these requirement payments?

    Question 3. In recent years, municipalities have filed numerous 
lawsuits against individual conventional energy companies citing their 
perceived contributions to climate change. Do these lawsuits have any 
direct impact on carbon emissions or help low income communities in any 
way? Further, wouldn't it be more effective to advance practical policy 
solutions that could actually make a difference in reducing carbon 
emissions or supporting local communities?

    Question 4. You mention the struggle of many low-income communities 
to heat their homes, and how increased prices of natural gas and 
electricity exacerbate this problem, especially in extreme weather. 
Could you explain what effect an entirely renewable electric grid would 
have on electricity prices?

    Question 5. You mention in your testimony the staggering poverty in 
parts of Appalachia. What impact has the downturn in the coal industry 
had in this region, and what can this experience tell us about passing 
legislation that will similarly put thousands of workers in the energy 
sector out of work in a short period of time? Do you think the grant 
program in the bill would sufficiently replace these jobs?

                                 ______
                                 

    The Chairman. Thank you very much. Let me thank all the 
witnesses for their testimony, I appreciate it. I appreciate 
the panel's comments and statements today.
    And I am going to remind the Members that are with us today 
of the 5-minute rule in terms of questions.
    I will now recognize Members for any questions they may 
wish to ask the witnesses. Let me begin by recognizing Mr. 
Huffman for any questions or comments he might have.
    Sir.
    Mr. Huffman. I thank you, Mr. Chairman. Thank you for 
bringing science back into the forefront of this Committee's 
business and thank you for your leadership in convening a long-
overdue conversation. You have done that with over 22 climate-
related hearings under your leadership. We have discussed 
climate change and what it is doing to water infrastructure, 
Federal water infrastructure in the arid West. We have talked 
about how CO<INF>2</INF> emissions are not only heating up the 
planet, but driving ocean acidification and disrupting coral 
reefs.
    Alongside the work of the Select Committee on the Climate 
Crisis and other committees of jurisdiction, this House has 
demonstrated the wide range of threats from climate change, and 
how we will need a robust response to meet this crisis head on. 
And, of course, this Committee has some of the most important 
jurisdiction.
    It is important, in my view, that any bill, no matter how 
well-intended, that does not respond to this crisis needs to be 
recognized as part of the problem. We should plant trees. We 
should perfect cross laminated timber. I am ready to work with 
colleagues across the aisle on those things right now. But we 
should not call these climate solutions if we are using these 
strategies to continue deforestation and continue developing 
and burning fossil fuel at a completely unacceptable and 
unsustainable pace.
    And we also have to respond to the current Administration's 
binge drilling proposal for public lands and water. Any bill 
that does not address that is not up to the challenge of this 
crisis.
    Any bill that does not put a stop to the massive increase 
in drilling on public lands and waters by permanently 
protecting places like the Arctic Refuge and our coasts will 
not be enough.
    Any bill that ducks the issue of drawing down fossil fuel 
production on public lands is not enough, because the IPCC is 
clear: there is already too much carbon dioxide in the 
atmosphere. We are continuing to admit way too much more. We 
have to dramatically lower emissions, including from fossil 
fuels. And even then, even under optimistic scenarios, we are 
still going to be left with too much CO<INF>2</INF> in the 
atmosphere.
    So, it is only when we get to net zero that some of these 
wonderful drawdown strategies like Mr. Westerman's tree 
planting and natural systems can then begin to provide that 
last full measure of solving the climate crisis.
    If we want to talk about trees, let's focus on what will 
work. And Dr. Staver, in your testimony you note that avoiding 
deforestation is just as important, if not more so, than 
reforestation. And, of course, we are running out of time to 
address this climate crisis. Successful regeneration takes 
decades to centuries to recover carbon storage potential, 
especially if we are talking about temporal and boreal forests.
    My friends across the aisle want to plant some trees, which 
is great, but they also want to roll back protections that will 
allow clearcutting in places like the Tongass. So, I want to 
ask you, would you agree that Tongass National Forest in 
Alaska, 16 million acres of temperate rainforest, is exactly 
the kind of forest we should be protecting right now for its 
climate mitigation potential?
    Dr. Staver. Absolutely, I agree with that statement. The 
Tongass is a temperate rainforest, and temperate rainforests 
are characterized by--there are a lot of trees in them. But I 
would encourage anybody to go look at pictures of these 
systems. These are systems with astronomical amounts of soil 
carbon. So, if you were, for instance, to open up that system 
to logging, you would remove a lot of the trees, you would make 
wood products out of them, which you would wind up losing a lot 
of the other stored carbon in that system, as well.
    And then the other issue with deforestation gets to the 
issue of timescales. Right? If we were to deforest these 
systems, we start emitting more carbon now, and we don't 
benefit from the sequestration of carbon now. And any 
reforestation is only likely to accrue benefits in decades, 
well past a time frame where it makes any particular 
difference. So, preventing deforestation in systems like the 
Tongass should absolutely be a priority.
    Mr. Huffman. Thank you. The Forest Service is in the middle 
of a wholly unnecessary, politically motivated repeal of the 
roadless rule in Alaska. So, what do you think is going to do 
more for addressing climate change and ensuring real carbon 
storage in trees--we are talking about trees, here--stopping 
the repeal of the roadless rule, or the Trillion Trees Act?
    Dr. Staver. I think we would have to sit down with some 
numbers and look at actual carbon stocks, but in general, 
again, I would just reiterate the same thing, which is that 
preventing destruction of ecosystems that remain intact should 
be our first priority.
    Mr. Huffman. And if we are serious about a climate crisis, 
of course, we should do both, probably. Right?
    Dr. Staver. Probably, yes.
    Mr. Huffman. OK. Thank you very much. I yield back.
    The Chairman. Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. I appreciate the 
witnesses all being here today.
    Dr. Staver, you had mentioned the 1+ Celsius increase being 
unprecedented. What are the years for that increase?
    Dr. Staver. So, we are talking about global averages, 
rather than global extremes. Global average temperatures have 
increased by about 1+ Celsius since pre-industrial levels. Pre-
industrial levels are counted either since 1750 or since about 
1860, depending on the count. But regardless of the count, 
global average temperatures have increased in the last 150 
years by about a degree Celsius.
    Mr. Gohmert. Yes, and how does that compare to 1,000 years 
ago, when the Norse were, as we know now, they were planting 
corn in Greenland. Can you make an analysis of how we are doing 
compared to 1,000 years ago, when they had these farms that 
were producing in southern Greenland?
    Dr. Staver. The useful point of comparison, really, is 
something in the more recent past. You will all be familiar 
with the hockey stick curve, which either you could think of 
CO<INF>2</INF> concentrations atmospherically, or temperatures 
atmospherically. But there was a long period of constant 
temperatures, followed by----
    Mr. Gohmert. Are you defending the hockey stick curve?
    Dr. Staver. Sorry?
    Mr. Gohmert. Are you defending that still?
    Dr. Staver. Oh, sure, absolutely.
    Mr. Gohmert. OK. Well, then, let me move on to Mr. Hollie.
    Mr. Hollie, you bring up such a good point, and it is one 
that was made by a constituent of mine. This was during the 
Obama administration, and her energy prices were getting quite 
high, and she said, ``You know, I was born and raised in a 
home, and the only source of any energy was a wood-burning 
stove. And things have gotten so good, but now the price of 
energy getting so high, I am afraid I am going to die in a home 
that only has a wood-burning stove.''
    And I said, ``Well, I have bad news for you, there is an 
effort to eliminate your wood-burning stove now. You won't even 
have that.''
    But it seems very clear that there is a dramatic effect on 
people's physical and mental health that live in poverty, and 
that seems to be the point you are wanting to make sure doesn't 
get lost in all this. And when we increase the price of energy, 
it is inconvenient to the Nation's wealthy, but it is 
absolutely devastating to the poor.
    Mr. Hollie. Yes, sir.
    Mr. Gohmert. It sounds like you spent a great deal of time 
looking at that particular issue, correct?
    Mr. Hollie. Yes, sir. That is one of the main issues that 
our organization addresses is energy poverty. And as I stated 
in my testimony, I have talked to thousands of African-
Americans in several states. We do these events. And we have 
actually asked people to bring out their energy bill, and we 
talk to them about energy, and energy poverty, and what it is, 
and they all express, ``Why am I paying this on my bill? Why do 
I have to pay this if I am not benefiting from it? ''
    And some of these communities will never ever see the 
benefits or reap the benefits from going green. And I use the 
example of my 84-year-old mother-in-law, right here in the 
District of Columbia, who is struggling right now each month on 
a fixed income, and has to deal with the rising cost of energy, 
along with her healthcare expenses.
    Mr. Gohmert. And I really do appreciate your efforts. In 
fact, John Dingell was removed as Chairman of Energy and 
Commerce after he made the comment--and I know Speaker Pelosi 
back at the time wanted a carbon tax bill passed, and it was 
called cap and trade. But he made the comment--you can find it 
online--that the cap and trade bill is not only a tax, it is a 
great, big tax. And, as he made clear, it really hammers the 
people that can least afford it.
    So, concerned about people's health, No. 1, it would seem 
we would need to take a balance into consideration here to make 
sure we don't devastate the poor, where they can't even afford 
to live any kind of decent life because of the cost of energy.
    But we have a lot of pine trees in east Texas, where I am. 
And in the last decade or so, harvesting this renewable 
resource, we don't have any sequoias, redwoods, they are pine 
trees, they grow back in 20, 25 years. And it seems very clear 
that the oldest pine trees, they don't do a good job of 
sequestering carbon. So, I am hopeful that people will wake up 
to the fact that it is good to manage what we have, including 
renewable trees, to make them even better at sequestering 
carbon.
    But I appreciate your time. It is one of the things I hate 
about the 5-minute rule. But you have lived by it, and now I 
do. Thank you.
    Mr. Hollie. Thank you, sir.
    The Chairman. Mr. Levin.
    Mr. Levin. Thank you, Chair Grijalva, for convening today's 
hearing. My district in coastal Southern California is already 
feeling the impacts of climate change, and I think it is 
critical that Congress explore every option for addressing this 
crisis, and this hearing is an important step in that effort. 
And I look forward to working with my colleagues on both sides 
of the aisle on solutions that are commensurate with the 
challenges that we face.
    As has been discussed today already, public lands and 
waters contribute about a quarter of greenhouse gas emissions 
from our country, and we have an urgent need to reduce these 
emissions in order to protect public health and safety. That 
not only means maximizing carbon sequestration options like 
reforestation, but also drastically curbing fossil fuel 
extraction on public lands. I appreciate Chair Grijalva's 
efforts to make a real impact and ratchet down emissions 
associated with programs under this Committee's jurisdiction.
    Governor Ritter, I wanted to start with you. Utilities and 
power providers across the West have made major emission 
reduction commitments, including Xcel Energy's commitment to 
deliver 100 percent carbon-free power by 2050. But why are 
utilities doing this?
    And can increasing the number of responsibly sited 
renewable energy projects on public lands help these utilities 
achieve their goals?
    Mr. Ritter. Well, the answer to your second question, sir, 
is yes. This public lands carbon reduction is absolutely a part 
of what other states and cities, including utilities, are 
doing.
    Xcel, their 100 percent commitment is a pretty interesting 
one--it is 2050. The more interesting commitment, in my mind, 
may be their 2030 commitment, which is an 80 percent reduction. 
And what they will tell you today, 10 years out, is that they 
know how to get there. They don't know how to get to 100 
percent. And most utilities that have made a 2050 commitment to 
100 percent don't know how to get there, but they can get to 80 
percent because of things that they have already been able to 
do.
    The really interesting thing--and this ties back to this 
conversation about price, and price of renewables is--it feels 
sort of disconnected with reality in many places around this 
country. Xcel Energy is going to go to 55 percent renewables by 
2025, not because anybody is telling them they have to, it is 
what the market is dictating for them.
    Their prices right now, according to sort of the average, 
levelized cost of energy in America, they are 35 percent below 
the rest of the country, and they have gotten better over time 
by increasing wind and solar on their grid.
    This isn't just a Colorado phenomenon--the Southwest Power 
Pool in 15 states, there are days where they are putting 75 
percent of all the energy that they provide, they are providing 
it through wind energy in that wind river in the Midwest. So, 
that is carbon free, but it is also 1.5 to 2.5 cent wind that 
we are looking at.
    So, we have to do a good job of always paying attention to 
equity concerns here, and income equity concerns. It is one of 
the things that we always use, a lens to screen clean energy 
policy through. But, in fact, because of the dramatic decreases 
in solar storage and wind, we have a lot of carbon-free sources 
that beat out a variety of different kinds of fossil fuel 
sources.
    Mr. Levin. Thank you, Governor. I appreciate that. And I 
have to brag on California for a second, being from California. 
The California Independent System Operator has a great app, the 
CalISO app. As of right now, 40 percent of renewables are 
serving our demand, including over 7,600 megawatts of solar. 
So, it can be done, and it is the future. And I am grateful for 
your leadership in Colorado.
    Mr. Walsh, I wanted to turn to you. H.R. 5435 incentivizes 
clean energy production and jobs on our public lands and 
waters. I also have a bill, the Public Land Renewable Energy 
Development Act. It is a bipartisan bill with Mr. Gosar, which 
would facilitate renewable energy generation on Federal lands.
    How can we ensure that the jobs created by today's bill, 
and the growth of the renewable energy industry in that bill 
and in other efforts, are good jobs that benefit American 
workers?
    Mr. Walsh. Thank you for the question, Mr. Levin. There are 
a number of very established ways in which we can make sure 
that those are good jobs. We can use labor standards like 
prevailing wage, we can use mechanisms that take advantage of 
the best skill training out there in the construction trades, 
which are registered apprenticeship programs. We can ensure 
that products we use, and the materials we use that go into 
those projects are American-made by U.S. manufacturers.
    The mechanisms are there. We have to apply them to the 
task.
    I do want to note, as well, that, in addition to our 
Federal lands, our Federal waters are also an enormous source 
of both clean energy production and job creation. The estimated 
numbers are actually rather stunning. The National Renewable 
Energy Laboratory has estimated the job creation potential off 
the Atlantic Coast alone at up to 212,000 jobs per year in the 
United States, and that is just looking at the installation of 
54 gigawatts of wind out of a total wind energy potential of 
over 1,200 gigawatts.
    The only grid connected offshore wind project in the 
country so far--which is going to change very, very quickly--is 
Block Island, off of Rhode Island. That was just five turbines, 
but it supported 300 jobs across the building trades, and it 
was all done under a project labor agreement.
    Mr. Levin. I think we are over time. Thank you, Mr. 
Chairman. I yield back.
    Mr. McClintock. Mr. Hollie, let me just dovetail onto that 
point.
    It is true, California does have a major commitment to wind 
and solar power. We also bear one of the heaviest electricity 
costs in the entire country. This in a state that used to have 
the cheapest electricity.
    What is better, cheap electricity or expensive electricity?
    Mr. Hollie. I would have to say cheap electricity, sir.
    Mr. McClintock. What is better, scarcity or abundance?
    Mr. Hollie. Abundance, sir.
    Mr. McClintock. Now, those seem to be rather self-evident 
questions, but they seem to be completely lost on many of my 
colleagues.
    Ms. Gleich, you did mention the disappearing snows. I 
represent the Sierra Nevada. That is, obviously, a big concern 
for my district. And I recently read an observation that I 
wanted to share with you along the lines you just pointed out.
    Snows are less frequent and less deep. They do not often 
lie below the mountains more than 1, 2, or 3 days, and very 
rarely a week. They are remembered to have been, formerly, 
frequent, deep, and of long continuance. The elderly inform me 
that the earth used to be covered with snow about 3 months in 
every year. The rivers, which then seldom failed to freeze over 
in the course of the winter, scarcely ever do now. Are these 
the concerns that you are expressing?
    Ms. Gleich. I can speak to my experience as a professional 
ski mountaineer and snow sports athlete. We are definitely, a 
great way that I have heard it described----
    Mr. McClintock. Well, I don't need--just are we talking 
about the same thing, the disappearing snow, the less frequent 
snowfall, the melting snow earlier in the year?
    Ms. Gleich. Yes, and we are seeing more snow fall as rain.
    Mr. McClintock. Would it surprise you to learn that that 
observation was made by Thomas Jefferson? You will find it in 
his notes on the state of Virginia in 1799. What he was 
describing is the beginning of the era that we are still in. It 
is called the Modern Warm Period. It followed what was called 
the Little Ice Age.
    During the Little Ice Age, the Thames River, for example, 
would often freeze over. In fact, for many years, it froze over 
solid every winter. We had advancing glaciers across Northern 
Europe. In fact, they used to hunt people for witchcraft for, 
obviously, causing these glaciers to advance. So, that hasn't 
changed very much, I think, and I hope that will be of some 
reassurance to you.
    Mr. Marshall, it is not clear to me where we are going to 
fit more trees on the Federal lands. Again, our forests in the 
Sierra have roughly four times the tree density that the land 
can currently support. It is choking off our forests. We have 
lost record numbers of trees to over-crowding that stresses 
them, makes them susceptible to disease, pestilence, and, 
ultimately, catastrophic wildfire.
    We have had testimony before our committees that this over-
concentration of trees that is killing the forest has actually 
made the forests a net emitter of carbon dioxide, as that 
carbon is released either through fire or through the rotting 
of the dead timber.
    The rest of the Federal lands that aren't forested are 
mainly desert, can't support trees, particularly when you 
consider that a single pine tree in the middle of a hot 
summer's day is going to transpire about 100 gallons of water 
in a day.
    So, where do these extra trees go?
    Mr. Marshall. Around 90 percent of wood products in this 
country come off of private lands. The Federal forests are 
critically important----
    Mr. McClintock. But we are talking about planting more 
trees in the Federal forests that are already densely over-
crowded, and dying because of it.
    Mr. Marshall. And at the same time, if you are harvesting 
and then replanting, it is a dynamic cycle.
    Part of the motivation that we first got into cross 
laminated timber with was specifically looking at that over-
stocking issue. But at the same time, if you look historically 
in this country at the role of reforestation, what we have 
done, it is an incredible track record.
    Mr. McClintock. Granted, we are talking about Federal lands 
that are suffering from gross benign neglect, really. We have 
stopped managing them.
    In pre-Columbian times, we would lose between 8 and 12 
million acres a year to catastrophic fire in California. Good 
management brought that figure down to about a quarter-million 
acres a year. We stopped that, starting in the 1970s, and we 
are back up to 2 million acres of losses.
    Mr. Marshall. Yes.
    Mr. McClintock. Ms. Staver, in just the brief time we have 
left, you mentioned that 400 parts per million is catastrophic. 
What would you see as the ideal CO<INF>2</INF> concentration 
for the atmosphere?
    Dr. Staver. I am not quite sure how to answer that 
question, to be honest with you.
    Mr. McClintock. You are saying 400 is too much, so what is 
the ideal CO<INF>2</INF> level for the atmosphere?
    Dr. Staver. I can tell you that pre-industrial 
CO<INF>2</INF> concentrations were about 280. Congressman 
Westerman cited a more precise number, which is 283 parts per 
million.
    Mr. McClintock. That is correct.
    Dr. Staver. We are currently over 400 parts per million, so 
we are 415----
    Mr. McClintock. And, by the way, it went up to about 315 
million by mid-20th century. Not a lot of that because of man-
made CO<INF>2</INF> emissions.
    But when you look at the entire geologic history of the 
planet, it is estimated that our CO<INF>2</INF> levels were 
averaged about 2,600 parts per million. In fact, if you are 
going to build a hydroponic atmosphere, you want about 1,200 to 
1,400 parts per million for ideal plant growth.
    Dr. Staver. Congressman, the Earth is a dynamic system, but 
that doesn't change the fact that humans are changing the 
Earth's system, and we are changing the climate.
    Mr. Neguse. Thank you, Mr. Chairman, and thank you to each 
of our witnesses for being here today. In particular, I want to 
thank our governor, the former governor of Colorado, a good 
friend of mine, and a constituent, a mentor, Bill Ritter, who 
has led our state for many years, and we appreciate his 
leadership and the work he is doing now.
    I want to just reiterate how important this conversation is 
that we are having today. Climate change is the existential 
threat of our lifetimes, and it is a complex problem that can 
only be solved by an aggressive transformation of our energy 
economy.
    I do believe that the solutions can be bipartisan. For 
instance, my colleague, Representative Curtis from Utah, and I 
have a bill to mandate a national study on carbon sequestration 
in Federal soils. And I have no doubt that my colleagues have 
the best of intentions when it comes to addressing carbon 
sequestration. And while I do have some concerns with respect 
to Mr. Westerman's bill, I want to say thank you. I appreciate 
his efforts in this regard, and certainly look forward to 
working with him on bills in the future.
    I want to focus my first round of questions to you, 
Governor Ritter. You mentioned this both in your verbal 
testimony and also in your written testimony. According to the 
IPCC, we must reach net zero emissions by 2050, in order to 
avoid the most catastrophic impacts of climate change. But that 
also means that we cannot afford to abandon the communities 
that will be most impacted by this transition. And that 
certainly is the case for some communities in my state of 
Colorado.
    As coal plants continue to retire across the country, coal-
mining states, obviously, will be impacted. And, as you noted 
in your testimony, two coal-reliant towns in Colorado, Craig 
and Hayden, are in the middle of that transition.
    How would you recommend the Federal Government support 
communities and workers impacted by the necessary move away 
from fossil fuels? And what lessons can we learn from those 
towns that you have worked with directly?
    Mr. Ritter. Thank you, Mr. Neguse. In one of the places in 
my written testimony, I talk about how important it is, first 
of all, to understand the community. Because all these 
communities are going to actually be different. And there is 
probably not a one-size-fits-all solution.
    If you think about Gillette, Wyoming; Craig, Colorado; 
Page, Arizona, where the Navajo Generating Station is now 
closed down--and, Mr. Chairman, I know you know a lot about 
that--there are 700 tribal members who were put out of work by 
that closure. The Hopi Indians lost 80 percent of their revenue 
when the coal mine closed. It was owned by Peabody, so there 
are going to be different things.
    SRP, which is the Salt River Project, created by Federal 
legislation, is actually doing a lot of work on the just 
transition with respect to putting people back to work in a 
variety of different ways. So, it is going to depend upon the 
location.
    The work we are doing--transition work, we call it--in 
Craig and Hayden, and Tri-State, which announced that it is 
going to close all of its coal by 2030, and Colorado is 
actually going to build out solar, and will do different kinds 
of workforce training, but there are going to be different 
Federal assistance plans that could help. Some of that may be 
on health benefits, some of it may come with pensions. There 
are coal companies that have actually declared bankruptcy and 
been relieved of their pension liability by a Federal 
bankruptcy judge. So, pensions could be a part of that, and it 
could be workforce training. It is just going to depend upon 
the community.
    But what I like about this bill is it is Federal 
legislation that says the Federal Government has a role and a 
responsibility in looking at coal-dependent communities, and 
understanding, with this transition, there are things that will 
be necessary for there to be a vital community still.
    Mr. Neguse. Thank you, Governor.
    The last point I would like to make, I remain concerned 
about the willingness of so many to try to mask the problem, 
right? And the threat of climate change, and the real impact it 
is going to have on communities across our country, and already 
is having--in particular, disadvantaged communities and 
minority communities.
    So, Mr. Hollie, I reviewed your written testimony. On the 
last page, you said, ``according to a New York Times article 
published on June 19, 2019, our air quality in America is the 
best it's been in decades.'' Are you aware of the title of that 
article?
    Mr. Hollie. Yes, the title----
    Mr. Neguse. The title of the article is, ``America's Skies 
Have Gotten Clearer, but Millions Still Breathe Unhealthy 
Air.'' Is that right?
    Mr. Hollie. Yes.
    Mr. Neguse. And you are aware that, in that same article, 
the authors note that more than 110 million Americans still 
live in counties with unhealthy levels of pollution, according 
to the EPA?
    Mr. Hollie. That article did state that, yes, sir.
    Mr. Neguse. And you were aware that the article also says 
that an estimated 100,000 Americans die prematurely each year 
of illnesses caused or exacerbated by polluted air?
    Mr. Hollie. That is correct.
    Mr. Neguse. All right. Well, I would like to submit that 
article for the record, with unanimous consent, because it is 
important for us to understand the context of that article that 
you quoted.
    The Chairman. So ordered.
    Mr. Neguse. This remains, as I said at the beginning of my 
remarks, an existential threat that we all should collectively 
be working to combat against.
    With that, I yield back.
    Mr. Hollie. If I may, sir, it still does not dispute the 
fact----
    The Chairman. The gentleman yields.
    Mr. Hollie. I am sorry.
    The Chairman. I turn to Mr. Gosar.
    Dr. Gosar. Mr. Hollie, would you like to finish your 
statement?
    Mr. Hollie. Yes, sir. I was just going to add that the 
article does state, regardless of all the things that you 
said--and I agree with you wholeheartedly--that our air quality 
is the cleanest it has been in decades, and that is due to the 
Clean Air Act of 1970 and the fact that we have transitioned to 
natural gas, which is cleaner, and it just burns better, and it 
is affordable, it is reliable. And that is the reason why our 
air quality is much better right now.
    Dr. Gosar. Thank you, Mr. Hollie. As you stated in your 
testimony, you highlighted the reduction of the CO<INF>2</INF> 
emissions, due to America's shift to natural gas. And you also 
cited a New York Times article finding that air quality in the 
United States is the best it has been in decades.
    I would like to add that the energy-related CO<INF>2</INF> 
emissions decreased 2.9 percent in 2019, despite our booming 
economy. We also had the largest decrease in emissions of any 
country. This high level of production has been achieved on the 
smallest number of acres in four decades. In Fiscal Year 2018, 
revenues from oil and gas production on Federal lands totaled 
$1.1 billion. But the number of leased acres has decreased 
every year since 2009.
    The fact is, energy demand will not go down if we stop 
leasing on Federal lands. Instituting a ban on oil, gas, and 
coal will simply allow Saudi Arabian oil, Russian LNG to rush 
in to fill the void. And my colleagues on the other side of the 
aisle have a vision of renewable energy coming to the rescue. 
But, ironically, their own policies will keep that from 
happening.
    The massive scale of renewables that would be needed under 
this bill would be hopelessly entangled in expensive, punitive 
Federal regulations, and any attempts to streamline the years-
long review process has been stymied at every turn. I am taking 
my PLREDA bill. How long has it toiled? We are not seeing a 
change.
    For example, witnesses spoke today of expanding that 
offshore. But this would be sidelined by the severe lack of 
transmission capability, and made even more difficult by the 
expansion of the Migratory Bird Treaty Act under a bill 
sponsored by my colleague, Representative Lowenthal. This 
Committee is so committed to keeping regulatory hurdles in 
place, they won't even move a bill to allow for easier 
exploration of geothermal resources sponsored by Representative 
Fulcher.
    How could our country possibly support itself with 
renewable energy within 20 years, when we can't even get a 
categorical exclusion for geothermal testing through this 
Committee?
    Even members of the Democratic Party have voiced their 
opposition to bans on fossil fuel production. Representative 
Conor Lamb from Pennsylvania said, ``To think about enacting a 
bill that would directly eliminate people's jobs, like what we 
are using to feed their families, save for their kids to go to 
school is just wrong. And the Democratic Party has never stood 
for that kind of thing. We have always stood for protecting 
people's jobs, and I think we have a job of getting that 
back.'' That is clearly a different position than the proposal 
we are hearing and discussing today.
    Once again, Representative Torres Small, whose region in 
New Mexico is experiencing a boom in oil production, has said, 
``If we shut down oil and gas drilling in New Mexico today, we 
will have to shut down our schools tomorrow.'' And she will 
continue to support responsible production on those lands.
    Finally, I would like to mention one major issue that 
remains unaddressed. Assuming that renewable projects can get 
through our regulatory maze, the United States simply doesn't 
have enough resources to build them. We are reliant on other 
nations for our critical minerals, including copper, lithium, 
cobalt, gallium, and dozens of others. And you cannot construct 
electric vehicles, wind turbines, or solar panels without them. 
Policies from my colleagues across the aisle to prevent 
domestic mining and, at the same time, ban production of oil 
and gas and coal, are completely at odds with each other.
    Governor, you bring up the renewables, and so does 
California. Well, once again, it is intermittent. It is not 
baseload power. And we have a big problem here--the battery 
storage. And we have to be investing in it.
    So, Mr. Walsh, I am going to turn to you. We recently heard 
from Jason George of the Operating Engineers Union, supporting 
domestic mineral development. In your testimony, you stress the 
importance of requirements for fair and safe working conditions 
throughout the global supply chains. As you know, almost two-
thirds of the world's cobalt comes from the Congo, and other 
minerals used in renewables are sourced from countries across 
South Africa, South America, and China. Almost all these 
materials go through China at some point in their supply chain.
    Given what we know about the environmental and labor 
standards in the United States compared to other parts of the 
world, do you support the responsible sourcing of critical 
minerals for renewable development here at home? And would you 
join Mr. George in supporting domestic mineral development, Mr. 
Walsh?
    Mr. Walsh. Thank you for the very good question, Mr. Gosar. 
I think this is a really important subject. Your question 
speaks to the reality that, as we make this transition, we are 
going to actually increase demand for certain minerals. You 
mentioned a couple of them, including cobalt. But, of course, 
copper and nickel are also going to see increased demand. We 
are supportive of responsible mining.
    Dr. Gosar. Yes, so let me ask you that, just to intervene. 
Do we do it better than anybody else in the world?
    Mr. Walsh. I think we have models in this country for how 
we can do mining in ways----
    Dr. Gosar. Actually, the truth is nobody meets our 
environmental standards, so we do it better than anybody else 
in the world, and we should be doing it here. We have that, and 
we have it at our fingertips.
    I yield back.
    The Chairman. Mr. Garcia, you are recognized, sir.
    Mr. Garcia. Thank you, Chairman Grijalva, Ranking Member 
Bishop, and, of course, to the panel of witnesses today.
    We speak on one of the most important issues that we are 
currently facing, and one that will impact generations to come, 
including my grandchildren.
    Chicago has uneven and inequitable exposure to pollution 
and toxins across its neighborhoods. My neighborhood, on the 
southwest side, where, historically, much of industry was 
located, in Little Village, ranks on the 98th percentile in the 
United States for air pollution that causes cancer and other 
respiratory hazards. It is no surprise that kids in my 
community are hospitalized for asthma at three times the rate 
of other parts in the city of Chicago.
    Chicago's environmental problems are closely tied to the 
persistent health, economic, and racial inequities that have 
developed over decades.
    Job opportunities, Mr. Walsh, in your testimony, you share 
that tackling the crisis of climate change, if done right, can 
serve as a significant opportunity to create good-paying jobs, 
middle-class jobs across the country. Can you share with us how 
policy solutions to address climate change would benefit 
working families and economic development in cities like 
Chicago?
    And second, how do we ensure that these good jobs reach our 
communities in an equitable manner?
    Mr. Walsh. Thank you. I noted earlier we have a number of 
policy mechanisms that can ensure that, as we build this clean 
energy economy, we do it in an equitable, inclusive way.
    I mentioned project labor agreements. There are a variety 
of project labor agreements, sometimes called a community 
workforce agreement, that actually includes local hiring, and 
the development of career pipelines that ensure that, as 
projects get built, whether they are clean energy projects or 
any other kind of project, that the people who actually live in 
that community are getting the work, and not just the jobs, but 
are moved into careers with the unionized building trades.
    To my mind, that is one of the best examples that we see 
out there.
    Mr. Garcia. I thank you. On the topic of cost to low-income 
households, as we find solutions to climate change, we are 
often told by those who oppose efforts to curb greenhouse gas 
emissions that it will inevitably result in higher energy 
prices for consumers, especially for low-income households. It 
is an argument that I don't really buy.
    Mr. Hollie, can you briefly walk us through the impacts of 
policies aimed at addressing climate change, and for low-income 
households, how costly, if at all, are such policies for 
working-class communities?
    And, finally, what are the costs of inaction on the 
climate?
    Mr. Hollie. Yes, if I could address the first part of your 
question, because, like I said, I deal with a lot of people, 
African-Americans, minorities, when it comes to energy poverty. 
And they all talk about the rising cost. And as we all know in 
this room, energy is a fixed cost. So, when your energy goes 
up, everything else around you goes up, and people feel that 
immediate impact.
    And you speak about Chicago, I did a radio interview in 
Chicago on a Chicago radio station just a couple of months ago. 
And the interesting thing about it there in Chicago, it was 
health care, and how immigrants are being put before the 
African-Americans who actually were born and raised in Chicago.
    And housing is a particular issue. We talk about climate 
change and that kind of thing, and what it is doing to the 
atmosphere and to the people and pollutants, but we don't talk 
about the in-home pollutants that come with housing.
    And just getting back to answer your question about the 
energy poverty piece--like I said, we have done events where we 
have had people bring in their electric bill. And they point 
out, ``Why am I having to pay for this? Why am I having to pay 
for this? '' And this is a cost that they have to absorb that 
is unnecessary.
    And if I could, what was your second question?
    Mr. Garcia. The last question is what are the costs of 
inaction on climate?
    Mr. Hollie. The cost of inaction would be--I have to say, 
if we don't do something--we have to address climate change. 
But we have to do it sensibly. And I think these regulations, 
and some of the things that we are proposing right now, are 
going to do more harm to these individuals in these communities 
than it will do good right now.
    Mr. Garcia. Thank you. As we continue to look for solutions 
to the challenges posed by climate change, we must ensure that 
low-income communities like the ones I represent in Chicago can 
be a part of efforts to address this existential crisis. This 
means including them in a new green economy. We are talking 
about creating good-paying union jobs in the renewable energy 
sector.
    I thank the witnesses and the Chairman for this hearing. I 
yield back.
    The Chairman. The gentleman yields.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you again 
to the witnesses.
    Dr. Staver, I read your testimony several times, made a lot 
of notes. And I want you to know there are a lot of things in 
there that we agree on, and there are a lot of issues that I 
think maybe you don't understand exactly what is in the bill 
text. But that is fine, that is why we have these hearings.
    You attacked the Swiss research report, and that is fair, 
that is what academics do. That is what you are supposed to do. 
You say their estimates of carbon sequestered in 1 trillion 
trees is only 42 gigatons. They say 205 gigatons. In the words 
of Billy Joel, you may be wrong, for all I know, you may be 
right. But I don't think you are crazy, and I don't think the 
other researchers are crazy. I think there is more work that 
needs to be done in that area.
    There has been talk about deforestation, which I totally 
agree, stopping deforestation, making our existing forests 
healthy is one of the most proactive things that we can do, and 
using forests to mitigate carbon. And there is a whole title in 
my bill about doing just that.
    So, to you, what does sustainable forestry mean?
    Dr. Staver. Thanks very much, Congressman Westerman. And 
can I take a moment to say I also think we probably would agree 
on a lot of things?
    And the flavor of my testimony would have been very 
different if we had, in addition to talking about trees and 
forests as a solution to climate change, if we were also 
talking about fossil fuels.
    Mr. Westerman. But this bill is focused on one issue. There 
are other bills to focus on those other things. Sustainability 
is keeping something at a level or better than you found it in 
the past to get on to future generations. And that is what this 
bill is all about, sustainability. Is it possible to harvest 
timber in sustainable forestry?
    Dr. Staver. Sure, cosmically, it is absolutely possible. I 
think, though, the flavor of that, and sort of what sustainable 
forestry actually looks like depends a lot on the system that 
you are talking about.
    Mr. Westerman. Exactly, and there are experts that 
understand all of that, and can figure out what sustainable 
forestry is. We have certification systems that look at forests 
and say, ``This has been managed sustainably.''
    And there is a difference between sustainable harvest and 
deforestation. Where does most deforestation in the United 
States take place? Is it on Federal lands or private lands?
    Dr. Staver. It has to be private lands, right?
    Mr. Westerman. It is absolutely on private lands. On 
working forests, where those products that make mass timber and 
other products come from.
    What is the No. 1 reason for deforestation in the United 
States?
    Dr. Staver. That is a great question.
    Mr. Westerman. It is development. It is fragmentation and 
development, where private landowners look at their property 
and they say, ``There is no economic benefit for me having this 
property,'' so they sell it to developers, or they split it up 
and sell it off in small pieces, and they lose the forest 
management part of it.
    Markets are critical in keeping working forests working. 
Mr. Marshall, with your experience at the Forest Service--and 
you talked about the research that was done there--why did the 
Forest Service say that we need to come up with more markets? 
What was the driving force behind coming up with more markets?
    Mr. Marshall. There are a number of reasons. And part of it 
is just the agency's perspective on sustainable forest 
management involves active management. And you cannot do active 
forest management at any scale without forest products. So, 
forest products are perceived as key to the sustainability of 
the Nation's forests.
    Mr. Westerman. And I know we call it planting a trillion 
trees, but, for the record, most trees regenerate naturally.
    Mr. Marshall. Yes.
    Mr. Westerman. And on Federal lands, with just a little bit 
of help, and clearing out underbrush, and making the forest 
resilient, you will get massive regeneration, much more than we 
could ever plant on Federal lands when they are naturally 
regenerated.
    There is probably no reason to plant trees on Federal 
lands, except where there has been catastrophic wildfire and 
you are trying to restore them. Would you agree with that?
    Mr. Marshall. I think there are more conditions than just 
that, but that would certainly be the primary one.
    Mr. Westerman. All right.
    Dr. Staver, you say there is too much risk with forestry, 
it takes too long. But isn't it worth the time, and is there a 
better time to start than now?
    Dr. Staver. So, what I was saying, the argument that I was 
making when I said it takes too long is--and, actually, 
Congressman Gohmert references, I think, when he mentioned that 
pine trees in Texas take 20 to 25 years to grow, right? If you 
cut a bunch of trees, even if you manage to sequester all of 
that carbon without additional carbon cost to transportation 
and production, you are going to lose a bunch of soil carbon in 
that project, as well.
    And the sequestration benefits that you get from those 
trees will accrue over timescales of 20 to 25 years, which is 
too late to be achieving climate mitigation goals on timescales 
that really matter for us now. This is an emergency that we 
need to find solutions to now, not 20 to 25 years from now.
    Mr. Westerman. Is there a better solution for pulling 
carbon out of the atmosphere than trees?
    Dr. Staver. There are better solutions to keeping carbon 
out of the atmosphere.
    Mr. Westerman. I didn't say keeping it out, I said removing 
it.
    Dr. Staver. I do know that that is not what you said. And I 
think the point has also been made today during this hearing 
that, were we in a situation where we had no--I mean, purely 
hypothetically--if we were in a situation where we had no 
fossil fuels, trees are a great solution for sucking carbon out 
of the air, and I actually think that is one of the points we 
agree on.
    Mr. Westerman. Thank you.
    The Chairman. I am going to continue. Mr. Hern, you are 
recognized, sir.
    Mr. Hern. Thank you, Mr. Chairman and Republican Leader 
Bishop and the witnesses, for being here today on such an 
important topic.
    First, I would like to discuss the Chairman's bill, H.R. 
5435, a continuation of my colleagues' war on fossil fuels. I 
am sure you would like to talk about fossil fuels. This bill is 
a misguided attempt by my colleagues across the aisle to pander 
to the folks in their base through destroying our domestic 
energy production, and they are going to claim that we need to 
attempt to limit CO<INF>2</INF> emissions. But if they really 
care about lowering CO<INF>2</INF> emissions, they would be 
praising the fact that the United States is a global leader in 
emissions reductions, thanks to industry-led innovation.
    According to the International Energy Agency and the Joint 
Research Center from the European Union and others, after 
dropping almost 3 percent in 2019, energy-related carbon 
dioxide emissions are estimated to drop by 2 percent again this 
year, and 1.5 percent in 2021. This means that in 2021, 
emissions will be at their lowest since 1991, even though we 
will have a much larger population and more production than we 
did 30 years ago.
    And this is not a new trend. Some of this has been talked 
about today. But from 2005 to 2017, we cut our CO<INF>2</INF> 
emissions by 14 percent, a number greater than the next 15 
countries, combined. However, even as we cut our domestic 
emissions, global emissions continue to grow throughout this 
time frame, as they increase 6.8 billion metric tons. And of 
this, 5.9 billion metric tons, or 86 percent of that increase, 
came from China and India.
    This proves that curbing our ability to produce energy in 
the United States will not solve the problem of global 
emissions. It will only add to our problems, while crushing our 
American energy independence and raising our fuel prices for 
millions of hard-working Americans. And because of this, I 
couldn't support my fine Chairman's bill.
    But, for other bills before us today, it is a more 
pragmatic approach to our climate issues. We have heard a lot 
of this debated today from my colleague from Arkansas, who 
lives in a beautiful part of the state that I grew up in.
    However, I want to yield my time to Congressman Westerman. 
And it is always great to see two Yale people go at each other 
on a topic that is so important, talking about something that 
is relatively easy for us to get after, and that is planting a 
trillion trees. So, Mr. Chairman, I would like to yield to 
Congressman Westerman.
    Mr. Westerman. I thank the gentleman from Oklahoma. And I 
don't consider it going at one another, we were just having a 
friendly conversation here. And I wish we had longer to have 
that conversation.
    And let's talk about fossil fuels a minute. Dr. Staver, you 
talked about the bucket not being large enough, or the bucket 
is not that large. There is only, I think, a fourth of the 
bucket left. But others on the panel, because this kind of 
crosses over with the bills, may want to answer this question.
    Where did all fossil fuels originate?
    Dr. Staver. Are you directing that at me or at him?
    Mr. Westerman. You can go first, or if somebody else----
    Dr. Staver. So, fossil fuels are generally derived from the 
biosphere, right? Those are sort of, essentially, plant-derived 
carbon that has been stored for millions of years in the 
Earth's crust.
    So, actually, that carbon has been in fossil fuels for 
millions and billions of years, which, I think, would possibly 
be evidence that there are things that are better at trees than 
holding on to carbon, which is specifically fossil fuels, 
right?
    So, those fossil fuels have held on to carbon for a very 
long time.
    Mr. Westerman. But they all started with plants.
    Dr. Staver. Oh, sure.
    Mr. Westerman. And photosynthesis.
    Dr. Staver. Sure, you have to----
    Mr. Westerman. So, all of that carbon that is in fossil 
fuels now was at one point in the atmosphere above the Earth.
    Dr. Staver. Oh, indisputably.
    Mr. Westerman. Indisputably?
    Dr. Staver. Correct.
    Mr. Westerman. OK, so the bucket is actually quite large.
    Dr. Staver. That is a different bucket.
    Mr. Westerman. Can we store, does wood store carbon?
    Dr. Staver. Yes, sure, wood holds carbon.
    Mr. Westerman. So, if we put wooden buildings like the mass 
timber--if we use wood products, are we not creating a 
reservoir of carbon above ground?
    Dr. Staver. Yes, and the key issue there is residence 
times, right? So, if you are storing wood in buildings, it 
stays there forever, you are locking up carbon that stays there 
forever. But the question is how long does the carbon stay 
there.
    Mr. Westerman. Did you know the oldest structures on Earth 
are wooden structures. And when we use wood, does it require 
less energy producing that wood, and transporting it, than 
other building products?
    Dr. Staver. I expect Mr. Marshall is more qualified to 
answer that question than I am.
    Mr. Westerman. Mr. Marshall, would you----
    Mr. Marshall. I will give you a yes on that.
    Mr. Westerman. All right, so when you calculated 42 
gigatons, did you include in that any carbon stored in wooden 
structures?
    Dr. Staver. I think the key thing, and I think one of the 
points that we agree on, is that there absolutely is a place 
for sustainable forestry and for tree planting to contribute to 
mitigating emissions. I agree with that point. I think the key 
thing is to avoid deforesting existing forests to do that.
    Mr. Westerman. I am all with you on that.
    Dr. Staver. Oh, great. Then we agree.
    Mr. Westerman. I yield back to the gentleman from Oklahoma.
    The Chairman. The gentleman yields?
    Mr. Hern. I yield.
    The Chairman. Thank you.
    Mr. Lowenthal, you are recognized, sir.
    Dr. Lowenthal. Thank you, Mr. Chair. It is nice to see the 
Ranking Member smile. I like that, Mr. Ranking Member.
    Governor Ritter, why is it essential, the question, for 
businesses, utilities, and governments, both state and Federal, 
to have emission reduction targets?
    And do you think the targets that we have laid out here in 
H.R. 5435 are appropriate targets for U.S. public lands and 
waters? Are they the targets that you might have put out?
    Mr. Ritter. Thank you, sir. I do think they are the 
appropriate targets. They mirror what states across the country 
have done in setting their own targets. There are a variety of 
states that have passed climate legislation, where they are 
looking at different years, and intermittency, in terms of 
target reduction. But I think that it does that. It is probably 
a little bit weaker than some states are, but it is still an 
important thing for the Federal Government to participate in 
that.
    You asked the question, though, about why companies would 
do that, and why states would do it. And let's go to companies 
first.
    I said earlier in my testimony, there were 16 major 
utilities that now have 100 percent goals. And very many of 
them are shareholder-owned. They are looking at their business 
model and at their infrastructure, and seeing threats from 
climate change as a part of it, and the need to transition.
    But there is also a market-driven part of it, too, where 
they can actually reduce their emissions and, at the same time, 
reduce their rates because of the downward spiral and the cost 
of both renewables and natural gas. It is fair to say that 
natural gas has absolutely played a role in this. But utilities 
actually see the need to do that in order for them to consider 
themselves to not be at risk, going forward, over the next 20 
to 25 years.
    Dr. Lowenthal. I am not sure I understand. I am going to 
kind of follow up on that.
    I am from California. We met our 2020 targets that we laid 
out. We are not going to meet our 2030 targets, not so much 
because of the utilities and the power sector, but because of 
transportation issues.
    How are we going to deal with setting targets, and do you 
see us now ramping up transportation? Because that is going to 
be, for us in California, the critical issue, is how do we meet 
some of the industry targets.
    Mr. Ritter. So, sir, you are correct. Transportation 
emissions in this country eclipsed power generation emissions a 
couple years ago, the first time since the 1970s that that 
was----
    Dr. Lowenthal. And they have gone up in California.
    Mr. Ritter. And they are going up everywhere. People who 
study climate, and study climate policy, like I do, would say 
the most important piece of climate policy in America may be 
the waiver that California has.
    There are now 10 states that follow California with a zero-
emission vehicle target, and 25 states that have a low-emitting 
vehicle target. Some of those states--there are a total of 25, 
right, and 10 of them also have a zero-emitting vehicle target. 
And they are relying upon the mandate from California under the 
Clean Air Act in order to do that. And we have to get a handle 
on transportation emissions. These reductions in emissions that 
have been talked about today, where the United States is having 
a downward curve, have everything to do with power generation 
and the power sector and the transition out of coal to natural 
gas and renewables----
    Dr. Lowenthal. Right, and that has been wonderful. Yes.
    Mr. Walsh, I want to get back to--by establishing net 
emission targets, H.R. 5435 incentivizes the growth of 
renewable energy, including offshore wind. Currently, there are 
no wind turbines in Federal waters. But leases have been issued 
that hold the potential to generate enough electricity to power 
5.5 million homes. Can you discuss the types of potential 
offshore wind industry jobs that H.R. 5435 will help create?
    Mr. Walsh. Thank you for the question, Mr. Lowenthal. Yes, 
they are numerous. I mentioned building trade occupations in an 
earlier response, and that ranges from electricians to cement 
masons, you go on down the list. But I think it is also 
important to realize that there are operations and maintenance 
jobs associated with that build-out.
    And then, if we do it right, and part of doing it right 
includes ensuring that we localize and make sure our supply 
chains are domestic, to make sure that we have a supply chain 
there.
    Dr. Lowenthal. That is right.
    Mr. Walsh. So, a lot of steel, a lot of cement are going to 
be going into these turbines and their bases. To the extent 
that we can source that supply chain in the United States, it 
is only going to benefit U.S. workers and U.S. manufacturers.
    Dr. Lowenthal. Thank you, and I yield back.
    The Chairman. Mr. Tonko, you are recognized, sir.
    Mr. Tonko. Thank you, Mr. Chair. Thank you for this 
hearing, and for your work on H.R. 5435. I also want to thank 
all of our witnesses for joining us today and sharing some very 
meaningful information.
    The science is clear--we need to transition our economy to 
becoming carbon neutral as soon as possible. And I appreciate 
that the American Public Lands and Waters Climate Solution Act 
helps ensure that our public lands are part of the solution. 
But it is imperative that this transition is fair to impacted 
workers and communities. We cannot leave anyone behind.
    Mr. Walsh, you have spent a lot of your career dedicated to 
helping communities and workers once dependent upon fossil 
fuels in this transition to new opportunities. In your 
experience, what type of policies have worked?
    And do you believe this bill is a step in the right 
direction?
    Mr. Walsh. I very much do. Let's start, first of all, with 
economic development. Certainly from my own experience, and I 
think the broader evidence is clear, that successful economic 
development results from bottom-up strategies that leverage 
local and regional assets to their fullest extent. A top-down 
approach is not going to work.
    You also, though, need dedicated streams of revenue to make 
investments that are identified by those local and regional 
communities. You are going to need investments to replace tax 
base, you are going to need investments to diversify local and 
regional economies. And all that requires ranging from 
supporting emerging industry clusters to business incubators to 
infrastructure.
    But then you are also going to need to support workers, 
particularly those who have lost jobs in the incumbent economy. 
And that kind of support requires everything from pension and 
retirement and healthcare support, to sometimes wage support, 
and certainly worker training for new jobs.
    So, you need a holistic approach. We were talking about 
Colorado earlier. The BlueGreen Alliance worked very closely 
with the Governor and Colorado Legislators and the Colorado 
AFL-CIO to pass a bill in this 2019 session called--it was H.B. 
1314, which sets up a strategic framework and an Office of Just 
Transition at the state level that will guide that kind of 
holistic strategy to support both workers and communities who 
are already facing dislocation because of the shift away from 
coal in the state.
    Mr. Tonko. And Mr. Walsh, staying with you, this bill also 
emphasizes how public lands and waters can be used to produce 
clean energy. In your testimony, you mention that the expansion 
of offshore wind is an example of creating jobs, while moving 
us toward a clean energy future.
    How can we ensure that this emerging industry delivers on 
the promise of clean energy jobs being well-paying and family 
sustaining jobs?
    Mr. Walsh. Let's make sure they are union jobs. And we also 
need to make sure that they work effectively, right?
    As I testified earlier, the building trades have the most 
successful framework in their apprenticeship system for 
ensuring that the workers who do that work install it and 
operate it effectively. So, that is one way of doing it.
    Mr. Tonko. And focusing on offshore wind, can you tell us 
some of the greatest obstacles for the expansion of that power 
supply?
    Mr. Walsh. Well, I think we are going to have to grapple 
with offshore leasing at this point. I think there are some 
challenges there that need to be addressed.
    I think we have to wrestle with making sure that the 
multiple uses of the lease sites are respected.
    And then I think we need to make sure that we are sourcing 
materials effectively and, to the extent that we can do it, in 
regional economies.
    There are other challenges. Those are the main ones. I 
think the biggest challenges aren't even surmounted, which is 
clear and long-term demand from power consumers. The fact that 
your state has already committed fully 9 gigawatts of offshore 
wind, and creates that kind of demand pull, gives developers 
the assurance and reliability they need to make major 
investments over a long period of time.
    Mr. Tonko. Thank you.
    And, Dr. Staver, I am not an ecologist, but I wonder if the 
Earth is able to handle the challenge Mr. Westerman is asking 
of it. Mr. Westerman's bill asks us to add a trillion trees to 
the global stock. Do you know roughly, or in any number, how 
many trees are currently on Earth?
    Dr. Staver. The only group that has tried to estimate how 
many trees are on earth is the same Swiss group that has 
produced the study that is sort of being contested. Their 
estimate is that there are 3 trillion trees on Earth, and they 
are estimating that you can add another trillion, which just 
isn't going to fit in the amount of space that is left, as you 
allude to in your question.
    Mr. Tonko. OK, thank you very much.
    And with that, Mr. Chair, I yield back.
    The Chairman. Thank you.
    The gentleman yields. Mr. Curtis, you are recognized.
    Mr. Curtis. Thank you, Mr. Chairman, and our witnesses, for 
being with us today. I am going to share with you what I 
discussed with a group the other day when I was speaking about 
climate, and they appreciated it. And I am not sure there are 
enough people here to appreciate it, but I asked them how many 
politicians it was going to take to solve climate change. And 
the answer to that is there is no scientific evidence that 
politicians can solve any problem at all.
    [Laughter.]
    Mr. Curtis. With that in mind, I do welcome these 
conversations. I think they are important, so important that I 
have actually started a weekly--I call it #Curtisclimatechat, 
and I would invite all of you to join in that discussion. I 
think it is very important that Republicans have a voice on 
this issue, and that we are heard.
    Part of that discussion is realizing that I have a county 
in my district that is actually called Carbon County. And when 
we villainize coal, we have to remember that we are 
villainizing hard-working people, people who have risked their 
health and put their lives into making it so we can flip a 
switch and have light and be warm, and that the real villain is 
carbon in the air, not carbon itself. And I think that is an 
important distinction.
    I think forest management and planting trees alone will not 
stop climate change, but it is certainly part of a solution. 
And I appreciate Mr. Westerman's bill that works toward 
increasing trees. We talk about investing and finding answers 
to carbon sequestration, and Mother Nature has done a wonderful 
job of providing that for us.
    I worry sometimes that, in this dialogue, that when 
something is proposed we quickly turn to what I call shaming, 
which is your idea just isn't good enough, it doesn't go far 
enough. And we have all these good ideas out there.
    I listened to a podcast from somewhat of a liberal 
organization the other day, and they talked about three 
corporations' efforts, and they were substantial efforts: 
Microsoft has committed to go carbon neutral back to 1975. And 
the tone of the podcast was, well, that is too bad. They have 
all these resources, why aren't they doing more? And I just 
think that is a huge mistake that we make in this conversation.
    I also feel like it is just very important to have 
bipartisan efforts around innovation and exporting U.S. clean 
technology overseas. I think we can do a lot to reduce carbon, 
simply by exporting some of our technology, realizing that it 
won't be long before 90 percent of the carbon in the air is 
coming from outside the United States.
    So, thank you to our witnesses, and I would like to give a 
special recognition to our witness from Salt Lake City.
    And I appreciate, Ms. Gleich, you coming out. You and I 
have had a number of conversations, and we always seem to have 
productive conversations where we can find issues that we agree 
on, even though at heart there might be a lot we disagree on. 
And could you just comment a little bit about the importance of 
bipartisan work, and finding common ground with people that you 
may not agree with everything on?
    Ms. Gleich. Yes. When I was getting ready to graduate from 
college, I did a political internship for Governor Gary Herbert 
at the Utah State Capitol. And I interned for Ted Wilson, who 
was at the time, his environmental advisor. And I really 
learned the power of bringing together different----
    Mr. Curtis. So, just for people that aren't here, a very, 
very strong Republican governor----
    Ms. Gleich. A very--yes, yes.
    Mr. Curtis. And a Democratic advisor.
    Ms. Gleich. Yes. So, it was really interesting, and I 
learned a lot by the way Ted would bring together different 
stakeholders from different points of view, and have everybody 
come together to try to find solutions.
    And I really wanted to thank you for your willingness to 
have these conversations about climate on Twitter, on social 
media. I really appreciate you opening yourself up like that, 
because I know, from my own climate activism, that it makes you 
the target of, potentially, a lot of public shaming, bullying, 
and at times harassment. So, I really appreciate your bravery 
in doing that.
    Mr. Curtis. It is important to me that Republicans have a 
voice. I truly believe that Utahans are the best 
environmentalists in the world, we just talk about it in a 
different language that sometimes doesn't communicate with 
people with different opinions.
    Governor, I have just a few seconds left. Could you also 
speak to the importance of the--I know in your testimony you 
talked about the bipartisan nature. Can you just emphasize 
that, as well, for me?
    Mr. Ritter. Yes, I would just say both at the governor 
level, the legislative level, the legislative academy that we 
run, it is Republicans and Democrats. We actually have a group 
of people called the Conservative Energy Network that have 
worked with Republican governors in Michigan, in Nevada, in 
South Carolina, and North Carolina on----
    Mr. Curtis. I am going to run out of time, but give me 10 
seconds. You were nodding your head when I was talking about 
shaming. Can you give me your experience with that, just in a 
few seconds?
    Mr. Ritter. I just agree--so many false choices. And both 
sides have been guilty of this. There are too many false 
choices, and we make the other people feel bad about putting 
out a false choice.
    This is truly going to be done in a bipartisan way in 
America, it is going to be done in the middle, and it is going 
to involve a lot of solutions, not the least of which is 
growing trees, but also looking at our public lands and the 
carbon footprint.
    Mr. Curtis. Thank you.
    Ms. Gleich. I want to echo that really quickly, and just 
say that, while it is great to have these conversations about 
climate, the scientific data is clear that we need urgent 
action now to reduce climate change emissions.
    Mr. Curtis. You get the last word, because I am out of 
time.
    Mr. Chairman, I yield.
    The Chairman. I recognize Mr. Bishop.
    Mr. Bishop. Boy, are you out of time, Curtis.
    I want to thank the witnesses for being here. You have 
driven us all out, congratulations. You lasted more than we 
did. Let me ask a couple of questions.
    Mr. Marshall, in your service at the Forest Service you had 
a lot of different hats on. The one I think is most interesting 
is the wood innovation program. Can you very briefly just 
explain what the potential for growth of that program is, 
especially the sequestration benefits that come with CLT and 
mass timber technologies?
    Mr. Marshall. Sure. I perceive the potential for growth is 
very significant. If you look at the building space right now 
with mass timber, CLT, and similar technologies, you are 
talking about using wood in a construction space where we have 
never been able to use wood before. Building codes have been 
modified to accommodate this material, going up to 16 stories 
now. That is a vast potential construction sector.
    Mr. Bishop. No, that is good. I thank you. And maybe if you 
can get Lowenthal to find out a way of making his turbines out 
of wood, it will be even better.
    Mr. Hollie, let me go through a couple of very quick 
questions with you, if I could, please.
    Mr. Hollie. Yes, sir.
    Mr. Bishop. A lot of states, local governments, local 
communities depend on revenue from energy leasing projects. If 
that were to be suddenly cut or halted by either administrative 
action or litigation--which the bill opens up--what would be 
the impact on those areas to their budgets, their education 
programs, for example?
    Mr. Hollie. It would be very concerning. I think they would 
lose that revenue, obviously.
    I had the opportunity to visit Port Fourchon, Louisiana 
last year, and take the tour, and I saw firsthand some of these 
communities that benefit from the revenue shares that come from 
the Gulf. And I spoke to people, school teachers, et cetera, 
and I think it would be devastating to these communities if 
they lose it.
    Mr. Bishop. Mr. Walsh, I appreciate you mentioned a lot of 
things like AML, and especially the backlog we have on parks 
that has to take place. Were some of these programs--what would 
happen to AML, LWCF, and the maintenance backlog if we were to 
start shutting down these leasing projects?
    Mr. Hollie. Well, I believe these programs are funded by 
the revenues. And I think, obviously, these programs would 
probably go away if we were to shut down this leasing.
    Mr. Bishop. Totally, yes. OK, look, let me ask you this on 
your expert opinion.
    Mr. Hollie. Yes, sir.
    Mr. Bishop. A lot of the people are saying, yes, OK, if we 
do minimize the leasing, we are going to lose all sorts of 
jobs. But we will have a Federal program to give grants to 
create new jobs. In your expertise, how realistic is that kind 
of a goal?
    Mr. Hollie. I would say very unrealistic. And I just look 
at myself as a 52-year-old man. And some of these people have 
had these careers all their lives. So, how are we going to re-
train an entire workforce that has all their life worked in 
this particular industry?
    Mr. Bishop. So, the retraining in Appalachia has really 
proved effective over there in these programs?
    Mr. Hollie. Absolutely not.
    Mr. Bishop. Let me just say one thing before I--well, I 
will give you a minute before I get done with this thing.
    Ms. Staver, your testimony, at least I got to give you 
partial credit for something in there. You did write in there 
that there are other nature-based solutions, and that carbon is 
stored in other types of plants and soils, as well.
    Soil holds over three times as much carbon as the 
atmosphere, and the capacity to hold more is really there. 
Scientific research is beginning to realize and recognize the 
existence of conservation ecosystem benefits that come from 
grazing, as well as potential of innovative grazing practices 
that would have a significant impact on carbon sequestration, 
in addition to minimizing wildfires that take place.
    If we could add a program that does carbon sequestration 
through enhanced grazing practices on public lands, as well as 
the growth of additional trees on both private, as well as 
public lands, coming up with a market like Mr. Marshall was 
talking about in his efforts, then obviously you have something 
that actually could have a great benefit.
    I have a minute left. Mr. Westerman, do you want it?
    Mr. Westerman. I will take all I can get. Thank you, 
Ranking Member Bishop.
    In the paper I submitted for the record earlier, I just 
want to read a sentence out of the summary on the front page. 
And, again, this is the paper from Yale and the University of 
Washington. It states, ``More CO<INF>2</INF> can be sequestered 
synergistically in the products or wood energy and landscape 
together than in the unharvested landscape.''
    There is this idea that we are going to plant a bunch of 
trees and not do anything to them. But the research shows that 
that is not the best way to use our forests to sequester 
carbon.
    I have another paper I want to submit to the record. Again, 
it is from the Yale School of Forestry and Environmental 
Studies, the Yale School of Architecture, and the Potsdam 
Institute of Climate Research. If there is no objection, I will 
submit that paper.
    The Chairman. Without objection, so ordered.
    Mr. Westerman. And I yield back.
    Mr. Bishop. Mr. Hollie, I wanted to ask you about how much 
fossil fuel is taken in windmills, but I don't have any time to 
do it.
    Mr. Chairman, I would like to submit for the record the 
International Energy Agency report on global CO<INF>2</INF> 
emissions in 2019.
    The Chairman. Without objection, so ordered.
    Mr. Bishop. OK.
    The Chairman. I would like to ask for unanimous consent 
that Mr. Gianforte have his opportunity to ask questions of the 
panelists, make comments, and then it will be my turn. Then we 
can wrap this up.
    Sir, you are recognized.
    Mr. Gianforte. Thank you, Mr. Chairman. I appreciate the 
opportunity to join the hearing today. I thank all the 
witnesses that are here to support my good friend and leader on 
forestry issues, Mr. Westerman, with his bill.
    Yesterday, I met with the U.S. Forest Service officials in 
Missoula, Montana to discuss their progress on using tools that 
Congress has given them to improve the health of our forests. 
One of those tools in the toolbox is the Good Neighbor 
Authority, part of the farm bill, which allows the Forest 
Service to partner with state and local governments to carry 
out forest management projects.
    They have made a promising start. The Federal forester in 
Region 1 told me yesterday that the Good Neighbor Authority has 
netted 14 projects in Montana this year and next that will 
yield about 55 million board feet of timber. This is great news 
for the health of our forests and for Montana timber workers.
    More, however, needs to be done to ensure the resiliency of 
our Federal forests. Mr. Westerman's Trillion Trees Act would 
extend the Good Neighbor Authority, which will expand the 
Forest Service's efforts to improve the health of our forests.
    The legislation would also make it easier to complete 
large-scale reforestation projects, clearing dead wood and 
planting trees after fire, insects, and disease have damaged 
our forests. This will help improve wildlife habitat, prevent 
soil erosion and damage. Importantly, it can also boost our 
local economies and create good-paying jobs, grow opportunities 
in these impacted communities, and reduce wildfire risk.
    Forests are an important carbon sink, as we have been 
discussing, so making use of timber that locks up the carbon 
while planting more trees is a win for everyone.
    Mr. Marshall, thank you for being here. SmartLam North 
America is based out of Columbia Falls, Montana. Can you tell 
our colleagues just a little bit about your company?
    Mr. Marshall. Sure. SmartLam started up in 2012. The long-
term goal was to be making CLT for sustainable buildings as a 
green building company. But they started out by manufacturing 
industrial matting, a simpler product, to enter the market 
with. But it was done with a green objective.
    They have been in production, as I described in my 
testimony. They have also played a key role in the development 
of the sector in the United States. They have done some 
specific things that have been sector-wide benefits. It has 
been a clear focus on the company. My own position is designed 
around sector expansion, not just benefiting SmartLam, so they 
have been a leader within the sector.
    They were the first, but we now have six companies 
producing CLT in the United States. It is still a very new 
technology here.
    Mr. Gianforte. OK, thank you, Mr. Marshall. And the 
legislation we are considering today, this Trillion Trees Act, 
will that help with forest management and sequestration of 
carbon?
    Mr. Marshall. I believe so, yes.
    Mr. Gianforte. OK. Thank you, Mr. Marshall. I think the 
contrast in the discussion is pretty clear. We have a plan that 
relies on innovation and trees to capture carbon, instead of 
over-bearing Federal mandates that drive up costs for 
consumers.
    I appreciate the work that you have undertaken, Mr. 
Westerman and others, to offer solutions that really leverage 
American ingenuity, including the expansion of production and 
the use of mass timber that would have so many multiple 
benefits.
    I will continue to oppose these over-bearing regulations 
and favor American innovation as we look for solutions, 
including, for example, halting all energy leasing on Federal 
lands, increasing royalty rates. These are just steps in the 
wrong direction.
    At this time, if Mr. Westerman would like the time, I would 
be happy to yield.
    Mr. Westerman. I thank the gentleman from Montana. And just 
to wrap up, I want to stress again that this is not just a 
carbon sequestration bill, it is a carbon emission reduction 
bill. Read the bill, read the text. There are three titles to 
the bill.
    Plant more trees where we can, it is not just planting 
them, it is natural regeneration.
    Grow more wood on our existing forest, make our existing 
forests more resilient. There are parts of the bill that deal 
with foreign aid, and helping other countries to have technical 
assistance, and understand what good, sustainable forestry 
management is about.
    But the third part of the bill is to store more carbon.
    So, I will just ask one last question. Does anybody on the 
panel know of a more pragmatic, proactive, economical, large-
scale method to remove carbon from the atmosphere than forest?
    I yield back.
    The Chairman. Well, let me thank the panelists, I 
appreciate it very much.
    Governor, 15 minutes after 12, I appreciate you staying. 
And, essentially, the question I was going to ask you Mr. 
Curtis asked you, and that was about--other than the points of 
division that are in this Congress, a lot of local communities, 
counties, my hometown, Tucson, and states are undertaking 
efforts to reduce carbon emissions. And that is both 
Republicans and Democrats. And I think that is a good example 
of the work you are doing in Colorado State with the Institute, 
it is significant. So, thank you very much.
    Mr. Ritter. Thank you, Mr. Chairman.
    The Chairman. The legislation that is before you today, 
H.R. 5435, that I am sponsoring, is not a panacea, but it does 
begin the very important process of addressing our public lands 
in that 25 percent.
    And the key word in this whole discussion is transition. 
This transition is going to occur, whether this legislation 
passes or not.
    And this transition is either going to be a forced 
transition, and with more and more negative consequences for 
the American people, or it can be a transition that tries to 
accommodate the issue of workers and displacement and training.
    It could be a transition that deals with impacted and 
vulnerable communities, and deals with those environmental 
justice issues that are attached to the issue of climate change 
and the changing climate in this country. It is not just about 
energy poverty, it is also about pollution and the effect that 
it is having on the poor and communities of color across this 
country.
    And it is also about inclusion, and using the revenue that 
oil and gas companies have profited greatly from our public 
lands, and using that revenue to re-invest in the American 
people, and to re-invest in the transition.
    Other Members are doing good things. Representative 
Haaland, 30 by 30 is a good piece of legislation. What Mr. 
Curtis and I think Mr. Neguse are putting together in terms of 
a bill about job training and incentivizing, that is a good 
one. What Mr. Levin and Mr. Gosar are doing also about 
incentivizing. They are all parts and pieces.
    And I think this Congress has a huge responsibility to 
understand the role that we have to guide policy--and that is 
not over-bearing mandates, my friends, it is a response to a 
crisis, and a response to a real threat. We can continue to 
ignore it, we can wait for innovation, we can wait for some 
bright light to go on and solve it for us. That is not going to 
happen. This is going to require our Nation to lead again, and 
our Nation to take initiative.
    Like I said, my bill is not a panacea. It is a transition 
bill. It tries to deal with all the issues attendant on the 
issue of climate change, and to that 25 percent over which this 
Committee has jurisdiction.
    I want to thank each and every one of you for being here 
today, and the meeting is adjourned. Thank you very much.

    [Whereupon, at 12:21 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submission for the Record by Rep. Grijalva

                                   OUTDOOR ALLIANCE

                                                  February 25, 2020

Hon. Raul Grijalva, Chairman,
Hon. Rob Bishop, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Outdoor recreation community support for H.R. 5435, the American 
        Public Lands and Waters Climate Solution Act

    Dear Chairman Grijalva and Ranking Member Bishop:

    On behalf of the human powered outdoor recreation community, we 
write to express our support for H.R. 5435, the American Public Lands 
and Waters Climate Solution Act.

    Outdoor Alliance is a coalition of ten member-based organizations 
representing the human powered outdoor recreation community. The 
coalition includes Access Fund, American Canoe Association, American 
Whitewater, International Mountain Bicycling Association, Winter 
Wildlands Alliance, The Mountaineers, the American Alpine Club, the 
Mazamas, Colorado Mountain Club, and Surfrider Foundation and 
represents the interests of the millions of Americans who climb, 
paddle, mountain bike, backcountry ski and snowshoe, and enjoy coastal 
recreation on our nation's public lands, waters, and snowscapes.

    Our organizations and the community we represent are deeply 
concerned about the accelerating effects of climate change. While the 
effects on outdoor recreation represent a small part of the grave set 
of impacts occurring as a result of climate change, these effects will 
impair the quality of the outdoor recreation experience; cause health 
and safety concerns for recreationists; and inhibit the outdoor 
recreation economy. Moreover, as a community of avid students of 
conditions in the outdoors--from changing river flow patterns, to 
changes in snowpacks and glaciers, to coastal erosion--outdoor 
recreationists often have a unique view into changes occurring on our 
public lands and waters.

    We recognize, as well, that the actions necessary to address 
climate change will require changes to the management of public lands 
and waters, and that our community has a responsibility to support a 
transition to renewable energy sources that also protects other 
resource values, including recreation and conservation. The outdoor 
recreation economy and the ability of outdoor recreation opportunities 
to attract new business opportunities to rural communities also may 
play a role in facilitating economic growth for historically extraction 
dependent communities.
    We strongly support an approach to making public lands and waters a 
part of climate solutions that:

    <bullet> Recognizes the important role of conservation in 
            mitigating the effects of climate change and sequestering 
            atmospheric carbon, as exemplified by the House's recent 
            passage of the Protect America's Wilderness Act and 
            initiatives like Rep. Haaland's H. Res. 835, setting a 
            national goal of conserving at least 30 percent of the land 
            and ocean in the U.S. by 2030;

    <bullet> Ensures that public lands and waters are developed 
            thoughtfully and sustainably for renewable energy, as 
            exemplified by H.R. 3794, the Public Lands Renewable Energy 
            Development Act, reported with strong bipartisan support by 
            this committee last year; and

    <bullet> Takes aggressive action to reduce greenhouse gas emissions 
            from public lands, as proposed by H.R. 5435, the American 
            Public Lands and Waters Climate Solution Act.

    Given that our public lands and waters are both significantly 
affected by climate change and a major source of greenhouse gas 
emissions, we commend the committee's attention to addressing the role 
of public lands and waters in climate solutions and strongly support 
H.R. 5435. It is imperative that our country aggressively reduce 
greenhouse gas emissions, and public lands and waters are both a 
significant source of emissions and an area where the federal 
government can appropriately take ambitious action. The proposed 
schedule of increasing emissions cuts, culminating with a goal of net 
zero emissions by 2040, appears both achievable and responsive to the 
urgency of the climate crisis. Given the urgency of immediate action, 
we hope the committee and Congress more broadly will look for 
opportunities to move even more aggressively in making public lands and 
waters a part of climate solutions.

    Additionally, we appreciate the immediate one-year pause in new 
fossil fuel leasing. In addition to the clear climate ramifications of 
additional fossil fuel development, speculative leasing is currently 
having a significant impact on conservation and recreation values 
across the West, and it is entirely appropriate the Department of 
Interior pause and develop a more measured approach to any new leasing 
activity.

    We also strongly support:

    <bullet> The requirement for land management agencies to 
            proactively develop plans to achieve emissions reductions;

    <bullet> The inclusions of provisions aimed at ensuring that 
            agencies meets emissions reductions targets;

    <bullet> The bill's attentiveness to both environmental justice 
            communities and communities and workers dependent on 
            existing fossil fuel development activities; and

    <bullet> The focus on oceans as well as public lands.

    We also greatly appreciate the requirement in Section 5(f)(7) that 
the Public Lands Greenhouse Gas Reduction Strategy include 
consideration of ``the impacts of climate change on recreation on 
public lands and the outdoor recreation economy.'' In light of the 
direct conflict that can occur between fossil energy development and 
recreation, as well as the important contribution that outdoor 
recreation opportunities can make in supporting local economies--both 
through the traditional outdoor recreation economy and as a draw for 
employers, entrepreneurs, and high-skill workers in diverse 
industries--we suggest amending this section to read:

     (7) The impacts of climate change and fossil fuel development on 
            recreation on public lands and waters and the outdoor 
            recreation economy, as well as the potential for outdoor 
            recreation opportunities to support economic 
            diversification of fossil fuel transition communities.

    Similarly, while we read Section 7, Economic Revitalization for 
Fossil Fuel Dependent Communities, to envision outdoor recreation 
amenity development as an appropriate use of funds and method for 
achieving economic development in transitioning communities, the 
committee should consider making this explicit in Section (c).
    Additionally, in light of the important role of outdoor recreation 
opportunities in supporting diverse economic activity, the committee 
may consider whether adding a representative from the outdoor 
recreation community to the Just Transition Advisory Committee under 
Section (7)(e)(4)(E) would be of utility.
H.R. 5859, the Trillion Trees Act
    The outdoor recreation community supports the goal of managing 
forested public lands to support carbon sequestration. As written, 
however, H.R. 5859 does not advance this objective and includes 
numerous deeply problematic aspects. In particular, we are concerned 
that:

    <bullet> In general, the bill ignores the important role of 
            protecting existing forests, particularly old growth, in 
            favor of ramping up logging and monoculture replanting;

    <bullet> The bill does not appear to reflect the science with 
            regard to life cycle carbon emissions from forestry 
            activities as contrasted with the efficacy of conservation;

    <bullet> The bill would radically undercut the role of the National 
            Environmental Policy Act (NEPA) in forest management 
            decision-making, making decisions less likely to reflect 
            sound science and reducing the role of public engagement.

                                *  *  *

    On behalf of the outdoor recreation community, thank you for 
holding a hearing to consider H.R. 5435, the American Public Lands and 
Waters Climate Solution Act. We strongly support the committee in its 
efforts to make public lands and waters a part of climate solutions and 
look forward to working in support of this important bill.

            Best regards,

                                             Louis Geltman,
                                                   Policy Director.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. Neguse

  -- Article titled, ``America's Skies Have Gotten Clearer, but 
            Millions Still Breathe Unhealthy Air,'' by Nadja 
            Popovich, New York Times, June 19, 2019.

Submission for the Record by Rep. Bishop

  -- Article titled, ``Global CO2 emissions in 2019,'' IEA 
            Report, February 11, 2020. Available at: https://
            www.iea.org/articles/global-co2-emissions-in-2019.

Submissions for the Record by Rep. Westerman

  -- Article titled, ``Carbon, Fossil Fuel, and Biodiversity 
            Mitigation With Wood and Forests,'' by Chadwick 
            Dearing Oliver, Nedal T. Nassar, Bruce R. Lippke & 
            James B. McCarter, Journal of Sustainable Forestry, 
            March 28, 2014.

  -- Article titled, ``Buildings as a global carbon sink,'' by 
            Galina Churkina, et al., Nature Sustainability, 
            January 27, 2020.

  -- Article titled, ``The global tree restoration potential,'' 
            by Jean-Francois Bastin, et al., Science, July 5, 
            2019.

  -- Article titled, ``Effective Uses of Forest-Derived 
            Products to Reduce Carbon Emissions,'' by Bruce 
            Lippke, Maureen Puettmann, and Elaine Oneil, CORRIM 
            Technical Note, December 2019.

                                 [all]
</pre></body></html>
